APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(November 13, 2019) . . . . . . . . . . . App. 1
Appendix B Final Judgment in the United States
District Court for the Middle District
of Tennessee, Nashville Division
(March 30, 2018) . . . . . . . . . . . . . App. 10
Appendix C Order
Awarding Prejudgment
Interest, Approving R.528 Exhibit 1,
and Granting the Joint Stipulation of
Calculations for Principal Damages
and Prejudgment Interest (R.528) in
the United States District Court for
the Middle District of Tennessee,
Nashville Division
(December 29, 2017) . . . . . . . . . . App. 14
Appendix D Order in the United States District
Court for the Middle District of
Tennessee, Nashville Division
(September 29, 2017) . . . . . . . . . App. 17
Appendix E Memorandum Opinion and Order in
the United States District Court for
the Middle District of Tennessee,
Nashville Division
(November 17, 2015) . . . . . . . . . . App. 19

ii
Appendix F Order in the United States District
Court for the Middle District of
Tennessee, Nashville Division
(January 23, 2015 ) . . . . . . . . . . . App. 51
Appendix G Memorandum and Order in the
United States District Court for the
Middle District of Tennessee,
Nashville Division
(January 16, 2015) . . . . . . . . . . . App. 53
Appendix H Memorandum and Order in the
United States District Court for the
Middle District of Tennessee,
Nashville Division
(August 20, 2014) . . . . . . . . . . . . App. 75
Appendix I Memorandum and Order in the
United States District Court for the
Middle District of Tennessee,
Nashville Division
(January 12, 2011) . . . . . . . . . . App. 103
Appendix J Memorandum and Order in the
United States District Court for the
Middle District of Tennessee,
Nashville Division
(March 26, 2010) . . . . . . . . . . . . App. 128
Appendix K Memorandum and Order in the
United States District Court for the
Middle District of Tennessee,
Nashville Division
(July 12, 2007). . . . . . . . . . . . . . App. 188

iii
Appendix L Memorandum and Order in the
United States District Court for the
Middle District of Tennessee,
Nashville Division
(June 27, 2007) . . . . . . . . . . . . . App. 209
Appendix M Joint Stipulation of Calculations for
Principal Damages and Prejudgment
Interest in the United States District
Court for the Middle District of
Tennessee, Nashville Division
(December 6, 2017) . . . . . . . . . . App. 253
Exhibit 1: Principal and Prejudgment
Interest Damages Totals for 554
(fold-out exhibit) . . . . . . . . . . . . App. 262

App. 1

APPENDIX A
NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION
File Name: 19a0569n.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-5384
[Filed November 13, 2019]
__________________________
JUDITH KERNS, et al.,
)
)
Plaintiffs-Appellees, )
)
v.
)
)
CATERPILLAR INC.,
)
)
Defendant-Appellant. )
__________________________ )
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE
MIDDLE DISTRICT OF TENNESSEE
Before:
BOGGS,
KETHLEDGE,
NALBANDIAN, Circuit Judges.

and

KETHLEDGE, Circuit Judge. This twelve-year-old
class action is the latest case in a series of disputes
over the vesting of lifetime benefits in collective-

App. 2
bargaining agreements. The plaintiffs here—surviving
spouses of employees who retired under a collectivebargaining agreement—sued to obtain free healthcare
benefits for life, which they say were promised under
the agreement. The district court granted partial
summary judgment for the plaintiffs, holding that they
were entitled to those benefits. The defendant,
Caterpillar, Inc., now appeals that decision, arguing
(among other things) that the agreement’s language
prevented any benefits from vesting. We affirm in part
and reverse in part.
I.
In 1998, Caterpillar, a construction-equipment
manufacturer, entered into a new collective-bargaining
agreement with its workforce, which was represented
by United Auto Workers. That agreement included an
“Insurance Plan Agreement,” to which the parties
attached a “Group Insurance Plan.” The Plan in turn
defined the employees’ healthcare and retirement
benefits. Section 5 of the Plan stated that, “following
the death of a retired Employee,” the company would
continue to provide healthcare coverage “for the
remainder of his surviving spouse’s life without cost.”
Plan § 5.15. But the Plan also stated that “[b]enefits in
accordance with this Section will be provided . . . for
the duration of any Agreement to which this Plan is a
part.” Plan § 5.1.
Caterpillar and the UAW removed that “life without
cost” language when they entered into a new collectivebargaining agreement in January 2005. Accordingly,
Caterpillar notified the spouses of deceased employees
that the company would soon be deducting healthcare

App. 3
premiums from their monthly pension payments. After
some of those spouses objected to that change, the
company agreed in writing not to charge those
premiums to spouses of employees who died before the
2005 agreement took effect—or “actual surviving
spouses,” as Caterpillar sometimes calls them here.
This litigation began in 2006. The plaintiffs are
surviving spouses of employees who worked for
Caterpillar, retired while the 1998 Plan Agreement and
Plan were in effect, and have since died. Some of those
employees died before the 1998 Plan Agreement
terminated in 2005; some died afterward. All the
plaintiffs sought injunctive and declaratory relief to the
effect that, under the 1998 Agreement and Plan, they
have a “vested” entitlement—meaning an entitlement
that continues after the expiration of the agreement
that gives rise to it—to free healthcare benefits for life.
The district court thereafter certified a single class
that included spouses of Caterpillar employees who
died while the 1998 Plan Agreement and Plan were in
effect, and spouses of employees who died afterward. In
2010 the district court granted partial summary
judgment for the plaintiffs, relying in large part on our
Yard-Man decision. See Int’l Union, United Auto.,
Aerospace & Agric. Implement Workers of Am. v. YardMan, Inc., 716 F.2d 1476, 1479 (1983). Since then,
however, the Supreme Court has emphatically rejected
the rule of Yard-Man, which the Court said “plac[es] a
thumb on the scale in favor of vested retiree benefits in
all collective-bargaining agreements.” M & G Polymers
USA, LLC v. Tackett, 135 S. Ct. 926, 935 (2015). Three
years later the Court again reversed us in a case where

App. 4
the Court heard echoes of Yard-Man in our opinion. See
CNH Indus. N.V. v. Reese, 138 S. Ct. 761 (2018).
Those decisions prompted Caterpillar to file several
motions for reconsideration, which the district court
denied. Finally, in March 2018, the district court
entered a final judgment. This appeal followed.
II.
We review the district court’s grant of summary
judgment de novo. Tennial v. United Parcel Serv., Inc.,
840 F.3d 292, 301 (6th Cir. 2016).
A.
Caterpillar makes two preliminary arguments.
First, Caterpillar argues that the claims of “actual
surviving spouses”—meaning again spouses of
employees who both retired (or were eligible for
retirement) and died while the 1998 Plan Agreement
and Plan remained in effect—are moot because
Caterpillar has not charged them premiums for the
past 13 years and because “[t]here is no evidence” that
Caterpillar plans to charge them premiums in the
future. Caterpillar Br. at 40. But we determine
mootness on a class-wide basis. See Unan v. Lyon, 853
F.3d 279, 285 (6th Cir. 2017). And many if not most
members of the class—notably, the spouses of
employees who retired while the 1998 Plan was in
effect but died afterward—undisputedly have live
claims. Caterpillar’s mootness argument is therefore
meritless.
That said, Caterpillar has abandoned any challenge
to the district court’s judgment to the extent the

App. 5
judgment provides relief to actual surviving spouses.
Specifically, Caterpillar now says that the claims of
these spouses “have been resolved”; that their “rights
have already been determined”; and that the only issue
“remaining” for this court “is whether post-expiration
spouses”—by which Caterpillar apparently means
spouses of employees who retired while the 1998 Plan
Agreement and Plan were in effect, but who died
afterward—”are covered by the 1998 Contract.”
Caterpillar Reply Br. at 22–23. “The province of the
court is, solely, to decide on the rights of individuals[.]”
Marbury v. Madison, 5 U.S. (1 Cranch) 137, 170 (1803).
That Caterpillar itself—the appellant in this
case—says the claims, which is to say the rights, of
actual surviving spouses are “resolved” and “already
determined,” and that those claims are not among the
issues “remaining” on appeal, leaves us with nothing to
do as to those claims. Our decision in this appeal
therefore does not affect the district court’s
adjudication of them.
Second, Caterpillar argues that the claims of the
remaining plaintiffs (whom we refer to simply as
“plaintiffs” or “post-termination spouses” from here)
are time-barred. Caterpillar bears the burden of
showing that the statute of limitations—here, six
years—has run. See Campbell v. Grand Trunk W. R.R.,
238 F.3d 772, 775 (6th Cir. 2001). To trigger the statute
of limitations, Caterpillar’s refusal to pay the plaintiffs’
benefits must have been “clear and unequivocal.”
Winnett v. Caterpillar, Inc., 609 F.3d 404, 408–09 (6th
Cir. 2010). The plaintiffs brought this suit in April
2006; thus, for the plaintiffs’ claims to be time-barred,
Caterpillar must have unequivocally put the plaintiffs

App. 6
on notice no later than April 2000 that it would not pay
the benefits at issue here. Suffice it to say that
Caterpillar has not remotely made that showing. To the
contrary, one of the documents that Caterpillar cites as
providing notice itself recites that surviving spouses
“will have coverage continued for his or her lifetime
without cost.” R. 223-1 at Page ID 6989. We therefore
turn to the merits.
B.
Caterpillar argues that the 1998 Plan did not
provide the plaintiffs with a vested entitlement to
lifetime healthcare benefits without cost. We resolve
that issue “according to ‘ordinary principles of contract
law.’” Reese, 138 S. Ct. at 763 (quoting Tackett, 135 S.
Ct. at 933). One of those principles—sometimes
overlooked under the Yard-Man approach, which the
district court was bound to follow in its 2010 ruling—is
that “contractual obligations will cease, in the ordinary
course, upon termination of the bargaining agreement.”
Tackett, 135 S. Ct. at 937.
Collective-bargaining agreements typically contain
a “general durational” provision that states when the
agreement ends. See, e.g., Cooper v. Honeywell Int’l,
Inc., 884 F.3d 612, 616 (6th Cir. 2018). Discrete parts
of the agreement may also have their own “specific”
durational provision. See Gallo v. Moen, 813 F.3d 265,
271–73 (6th Cir. 2016). Moreover, unless an agreement
says otherwise, promises subject to a durational
provision do not vest—because contractual obligations
end when the agreement ends. See Tackett, 135 S. Ct.
at 937.

App. 7
Here, the 1998 agreements included not only a
general-durational provision for the Plan Agreement,
but also a specific-durational provision for healthcare
benefits under the Plan. The general-durational
provision appears in § 9(a) of the Plan Agreement,
which provides that “this Agreement shall remain in
force until April 1, 2004” and that the Agreement may
remain in force thereafter depending on certain actions
or inaction of the parties. The durational provision
specific to healthcare benefits appears in § 5.1 of the
Plan, which provides that “[b]enefits in accordance
with this Section”—which is the very section under
which the plaintiffs claim benefits here—“will be
provided to such Employee, retired Employee, and
Dependents thereof for the duration of any Agreement
to which this Plan is a part.” We recently interpreted
nearly identical language—“for the duration of this
Agreement”—in a nearly identical context to mean that
the employer had promised to provide healthcare
benefits only “for as long as the agreement lasts[.]”
Watkins v. Honeywell Int’l Inc., 875 F.3d 321, 325 (6th
Cir. 2017). We interpret the durational language in
§ 5.1 the same way here, which means that
Caterpillar’s obligation to provide healthcare benefits
under § 5 of the Plan terminated when the Plan
Agreement did. Id.; see also Tackett, 135 S. Ct. at 937.
And the Plan Agreement terminated no later than
January 10, 2005, which was the effective date of a
different agreement in which Caterpillar and the UAW
struck a different deal as to healthcare benefits. Hence
the plaintiffs cannot claim any entitlement under § 5 of
the 1998 Plan now.

App. 8
The plaintiffs respond, understandably, that § 5.15
of the Plan promised that, “following the death of a
retired employee,” Caterpillar would provide the
employee’s spouse with healthcare benefits “for the
remainder of [her] life without cost.” Thus, the
plaintiffs contend, the description of the benefit itself
(specifically the use of the word “life”) amounts to a
separate durational provision, which is specific to the
benefit at issue here and thus trumps the more general
durational language in § 5.1. But our court rejected a
materially identical argument in Cooper, where the
parties’ agreement promised to provide healthcare to
retirees “until age 65[.]” 884 F.3d at 620. That promise,
we held, expired when the agreement expired; for that
benefit to have vested, rather, the agreement would
have needed to “say something more—for example,
‘retirees will continue to be covered under the plan
until age 65, regardless of whether this CBA expires
before they reach that age[.]’” Id. (emphasis omitted).
And in another case—involving an agreement
providing lifetime benefits to retiree spouses—we
reasoned that, “if a retiree died after the last CBA
expired, then Honeywell’s promise has expired, and
Honeywell is not obligated to provide the surviving
spouse with lifetime healthcare benefits.” Fletcher v.
Honeywell Int’l, Inc., 892 F.3d 217, 227 (6th Cir. 2018);
see also Cherry v. Auburn Gear, Inc., 441 F.3d 476, 483
(7th Cir. 2006) (“It is well established that ‘lifetime’
benefits can be limited to the duration of a contract”).
Thus, under our precedents, Caterpillar is not
obligated to provide lifetime healthcare benefits
without cost to spouses of retirees who died after the
Plan Agreement expired.

App. 9
Finally, the plaintiffs invoke other language in the
Plan Agreement’s general-durational provision (i.e.,
§ 9(a)), to wit: “Termination of this Agreement shall not
have the effect of automatically terminating the Plan.”
But again the more specific durational provision in § 5
of the Plan itself, construed as we construed materially
identical language in Watkins, promised benefits under
§ 5 for only “as long as the agreement lasts[.]” 875 F.3d
at 325. That same language in § 5—“for the duration of
any Agreement to which this Plan is a part” (emphasis
added)—indicates that the parties could have extended
the duration of benefits under that section by attaching
the Plan to another agreement. And in that case the
termination of the prior Agreement would not have
“automatically terminat[ed]” the Plan. But the parties
in fact chose not to attach the Plan to another
agreement—instead they agreed upon a different
plan—which means that Caterpillar’s obligation to
provide benefits under § 5 to post-termination spouses
terminated when the Plan Agreement did. See Tackett,
135 S. Ct. at 937.
***
The district court’s judgment is affirmed as to
surviving spouses of retirees who both retired (or were
eligible to retire) and died while the 1998 Plan
Agreement remained in effect; the court’s judgment is
reversed as to surviving spouses of retirees who died
after the 1998 Plan terminated; and the case is
remanded for proceedings consistent with this opinion.

App. 10

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-CV-1113
Hon. Aleta A. Trauger
[Filed March 30, 2018]
_____________________________
JUDITH K. KERNS, et al.,
)
)
Class Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
)
Defendant/
)
Third-Party Plaintiff,
)
)
v.
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
)
Third-Party Defendants. )
_____________________________ )
FINAL JUDGMENT

App. 11
Pursuant to Rule 23(c)(3) and Rule 58 of the Federal
Rules of Civil Procedure, IT IS HEREBY ORDERED:
1. This class action case was bifurcated into a liability
phase and a damages phase.
2. The Court certified this case as a class action (see
R.79-80) under Rule 23(a) and Rule 23(b)(1) and (2) for
the following described class:
surviving spouses of former hourly employees:
(1) who were represented by the UAW in
collective bargaining; (2) who retired from
Caterpillar on or after March 16, 1998 and
before January 10, 2005; and (3) whose
employment at Caterpillar’s facilities in
Memphis, TN, York, PA, Denver, CO, and
Aurora, Peoria, East Peoria, Mapleton,
Mossville, Morton, Decatur and Pontiac, IL was
governed by the Central Labor Agreements and
the related collective bargaining agreements.
Any person who is presently the spouse of a
living retiree cannot be a class member at this
time.
3. As to liability, the Court’s prior rulings, among
other things: (a) granted partial summary judgment to
the Kerns class plaintiffs and partial summary
judgment to Caterpillar with respect to the class
plaintiffs’ claims (See R. 263); (b) granted dismissal of
Caterpillar’s third-party claims against Third Party
Defendants UAW Local Nos. 145, 741, 786, 974, 1415,
1086, and 2096; (d) (c) granted dismissal for the ThirdParty Defendant International Union, UAW with
respect to Counts I and II of Caterpillar’s Third Party

App. 12
Complaint against it as a matter of law; and (e) (d)
granted summary judgment to Third-Party Defendant
International Union, UAW with respect to Counts III
and IV of Caterpillar’s Third-Party Complaint against
it (see R. 129, 263)
4. As to damages, the Court’s prior rulings set the
parameters for class member damages. On December
29, 2017, the Court entered an Order (R.531) granting
prejudgment interest to class plaintiffs, approving the
parties’ calculations of principal and prejudgment
interest amounts due to be paid by Caterpillar to class
members (R.528 Ex.1), and granting the Joint
Stipulation of Calculations for Principal Damages and
Prejudgment Interest (R.528). R.528, Ex. 1 sets forth
the principal amount, prejudgment interest amount,
and total for each class member who was listed on Ex.A
(R.517), which includes interest calculated though
12/4/2017. Caterpillar shall pay each class member the
applicable amount as is set forth on R.528, Ex.1.
5. Pursuant to the Court’s prior rulings, Defendant
Caterpillar Inc. is permanently enjoined from charging
class members monthly premium charges associated
with their Caterpillar-provided surviving spouse
healthcare benefits for the remainder of their lifetimes.
6. The Kerns class members shall be entitled to postjudgment interest.
IT IS SO ORDERED. This is the final judgment in this
case. The Clerk shall close the file.

App. 13
Dated this 30th day of March, 2018.
/s/
UNITED STATES DISTRICT COURT JUDGE

App. 14

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-CV-1113
Hon. Aleta A. Trauger
[Filed December 29, 2017]
_____________________________
JUDITH K. KERNS, et al.,
)
)
Class Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
)
Defendant/
)
Third-Party Plaintiff,
)
)
v.
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
)
Third-Party Defendants. )
_____________________________ )

App. 15
ORDER AWARDING PREJUDGMENT
INTEREST, APPROVING R.528 EXHIBIT 1,
AND GRANTING THE JOINT STIPULATION
OF CALCULATIONS FOR PRINCIPAL
DAMAGES AND PREJUDGMENT INTEREST
(R.528)
The Court, having considered the parties’ Joint
Stipulation of Calculations for Principal Damages and
Prejudgment Interest and its Exhibit 1 (R.528),
pursuant to Rule 23(c)(3) and Rule 58 of the Federal
Rules of Civil Procedure, IT IS HEREBY ORDERED:
1. Prejudgment interest is awarded to the Plaintiff
class;
2. Exhibit 1 (R.528) is approved, which provides the
principal damages amount, the prejudgment interest
amount as of December 4, 2017, and total damages for
each class member who was listed on Ex. A (R.517) to
be paid by Defendant Caterpillar, Inc. to class
members.
3. The Joint Stipulation (R.528) is approved.
4. The Court shall enter a permanent injunction
and a judgment providing for prejudgment interest as
reflected on Ex. 1, and for post-judgment interest to the
Kerns class.
IT IS SO ORDERED, this 29th day of December,
2017.
/s/
UNITED STATES DISTRICT COURT JUDGE

App. 16
P:\RHC Cases\Caterpillar\KernsMDTN0601113\Pleadings\ProposedOrderGrantingR528JtSti
pCaclsforPrejudgmentInterest.docx

App. 17

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Civil No. 3:06-cv-1113
Judge Trauger
[Filed September 29, 2017]
_____________________________
JUDITH KERNS, et al.,
)
)
Plaintiff,
)
)
v.
)
)
CATERPILLAR, INC., et al.,
)
)
Defendants.
)
_____________________________ )
ORDER
The court hereby approves the Joint Stipulated
Report filed by the parties (Docket No. 517). Pursuant
thereto, the court approves Exhibit A attached thereto,
which reflects the principal damages due to certain
class members under the court’s previous rulings as of
August 11, 2017. The schedule proposed within the
Joint Stipulated Report is likewise hereby APPROVED.
It is so ORDERED.

App. 18
ENTER this 29th day of September 2017.
/s/Aleta A. Trauger
ALETA A. TRAUGER
U.S. District Judge

App. 19

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-CV-1113
Judge Trauger
[Filed November 17, 2015]
_____________________________
JUDITH K. KERNS, et al.,
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
Defendant/
)
Third-Party Plaintiff,
)
)
v.
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
Third-Party Defendants. )
_____________________________ )
MEMORANDUM OPINION
Pending before the court is a Motion to Reconsider
filed by Caterpillar, Inc. (“Caterpillar”) (Docket No.
451), accompanied by a Memorandum in support
(Docket No. 452). The plaintiffs have filed a response in

App. 20
opposition (Docket No. 459), and Caterpillar has filed
a Reply (Docket No. 466). The plaintiffs have also filed
a Motion to Reconsider (Docket No. 464) and a
Memorandum in support (Docket No. 465). Caterpillar
has filed a response in opposition (Docket No. 467,) and
the plaintiffs have filed a Reply (Docket No. 470). For
the following reasons, the court will deny both motions.
I. Background
This is a class-action lawsuit brought on behalf of
surviving spouses of former employees of Caterpillar
who retired on or after March 16, 1998, and before
January 10, 2005. Because the court has recounted the
factual and procedural history of this case numerous
times, familiarity with the facts will be assumed.1 The
plaintiffs filed this action in 2006, seeking relief under
§ 301 of the Labor Management Relations Act
(“LMRA”), 29 U.S.C. § 185, and under § 502 of the
Employee Retirement Income Security Act (“ERISA”),
29 U.S.C. § 1132. The plaintiffs allege that Caterpillar
breached its contractual obligation to provide lifetime
health benefits to surviving spouses of Caterpillar
retirees at no cost.
On June 27, 2007, the court denied Caterpillar’s
motion to dismiss, rejecting its arguments that the
1

This case and Winnett v. Caterpillar, Case No. 3:06-0235, are
related but not consolidated cases. By prior order dated March 26,
2010, this court granted the International Union, UAW’s motions
to dismiss Caterpillar’s Third-Party Complaint against it in both
Kerns and Winnett. (Docket No. 263.) Subsequently, through a
series of decisions from this court and the Sixth Circuit, the court
dismissed the Winnett plaintiffs’ claims and closed that case.
(Docket Nos. 326, 327.

App. 21
court lacked subject matter jurisdiction over the
plaintiffs’ LMRA and ERISA claims, that the plaintiffs
could not maintain an action on behalf of a hypothetical
group of “future” surviving spouses that could not be
readily identified, and that the claims of current
surviving spouses were moot. (Docket No. 77, at 3.) The
court also found that, because the parties had
presented plausible, but competing, interpretations of
the contractual language of the retiree benefits plan
with respect to the alleged intention to confer lifetime
health benefits to surviving spouses, extrinsic evidence
could be introduced to resolve the ambiguity. (Id., at
28.) However, because little discovery had been
completed at that time, the court found that it was too
early to determine whether, as a matter of law, the
plaintiffs’ benefits had vested and, if so, when they
vested. (Id., at 28–29.)
On March 26, 2010, the court ruled on the plaintiffs’
and Caterpillar’s cross motions for summary judgment
and granted and denied each in part. (Docket No. 262.)
The portion of the collective bargaining agreement
(“CBA”) between Caterpillar and the UAW that
addresses the retiree health benefits for the Kerns
plaintiffs is the 1998 Group Insurance Plan (“GIP”). A
subsection of the 1998 GIP is the Insurance Plan
Agreement (“IPA”). (Docket No. 222-9 at 1–3.) Contrary
to the finding at the motion to dismiss stage that the
contract language was ambiguous, in the summary
judgment memorandum opinion, the court found that
the language in Section 5.15 of the 1998 GIP (Docket
No. 222-9, at 61) that provided that health care
benefits “will be continued following the death of a
retired Employee for the remainder of the surviving

App. 22
spouse’s life without cost” was “sufficient to
unambiguously vest in the surviving spouse a right to
lifetime ‘no cost’ health benefits.” (Id., at 35–36.) The
court further found that, although it was not necessary
to consider extrinsic evidence because Section 5.15 of
the 1998 GIP was unambiguous, the extrinsic evidence
before the court “plainly supports the plaintiffs’
position.” (Id., at 36–37 n.18.)
Having concluded that lifetime benefits had vested
for the surviving spouses and that Caterpillar had no
viable affirmative defenses, the court turned to an
analysis pursuant to Reese v. CNH Am. LLC, 574 F.3d
315 (6th Cir. 2009), which “stands for the proposition
that, even if the retiree has a vested right to lifetime
health benefits from his employer, unless there is some
exceptional language that dictates that benefits can
‘never vary,’ that retiree is entitled to ‘lifetime benefits
subject to reasonable changes.’” (Docket No. 262, at 27
(quoting Reese, 574 F.3d at 326).) The court concluded
that, pursuant to Reese, the additional deductibles,
coinsurance, and increased out-of-pocket costs were
permissible, but held that Caterpillar’s imposition of
monthly premiums violated ERISA and the LMRA.
(Id., at 39–41.) Accordingly, the court entered judgment
for the plaintiffs on their claims related to Caterpillar’s
imposition of premiums. The summary judgment order
resolved all liability issues between the plaintiffs and
Caterpillar. (Id., at 47–48.)
Still pending at the time of the court’s March 26,
2010 summary judgment ruling was Caterpillar’s
October 16, 2008 appeal of the court’s preliminary
injunction order for a subclass of the Winnett plaintiffs.

App. 23
On June 22, 2010, the Sixth Circuit reversed this
court’s Winnett preliminary injunction order, finding
that the claims of the subclass were barred by the
statute of limitations. (Winnett Docket No. 470.)
After the Sixth Circuit issued its ruling, Caterpillar
filed motions to reconsider in both Winnett and Kerns.
(Winnett Docket No. 475; Kerns Docket No. 266.) In the
Kerns motion, Caterpillar argued that, by the logic of
the Sixth Circuit’s decision in Winnett, the Kerns
plaintiffs’ claims were also barred by the statute of
limitations. (Docket No. 280, at 15.) On January 12,
2011, this court rejected Caterpillar’s argument, based
on factual differences between the claims of the
plaintiffs in Winnett and Kerns. In particular, the
Winnett plaintiffs sought to maintain the level of
benefits under the 1988 GIP, not the 1998 GIP, which
led to a different determination of when the Kerns
plaintiffs’ claims accrued. (Id., at 16–17.)
The court also rejected Caterpillar’s argument that
the Sixth Circuit’s intervening decision in Wood v.
Detroit Diesel Corp., 607 F.3d 427, 428 (6th Cir. 2010),
justified a reconsideration of the court’s ruling that the
plaintiffs have a vested right to lifetime, premium-free
health benefits under the 1998 GIP. (Docket No. 280,
at 18 n.6.) The court concluded that, unlike in
Wood—which found that, when various provisions of
the agreements were read together, the only coherent
interpretation was that plaintiffs are entitled to
lifetime, capped health care benefits—this case has “no
clearly conflicting language for the court to blend
together, and, therefore, there is no basis for the court
to reconsider its earlier ruling.” Id. Accordingly, the

App. 24
court granted Caterpillar’s motion to reconsider in
Winnett based on the statute of limitations, but denied
its motion in Kerns. (Docket No. 280.)
On August 20, 2014, the court ruled on Caterpillar’s
motion for summary judgment on damages issues, in
which Caterpillar argued that it was not liable for the
out-of-pocket expenses incurred by surviving spouses
who canceled their Caterpillar insurance. (Docket No.
408.) The court denied the portion of Caterpillar’s
motion that the court construed as a motion to strike
certain damages, holding that, under Section 301 of the
LMRA, Caterpillar is liable for the cost of replacement
insurance and out-of-pocket expenses incurred by
plaintiffs who obtained alternative insurance or
became uninsured because Caterpillar breached the
collective bargaining agreement. (Id.) The court
granted Caterpillar’s motion and entered judgment in
its favor on the claims of four class members who had
produced no admissible evidence demonstrating their
damages or who had produced no admissible evidence
that they terminated their Caterpillar insurance
because of the imposition of premiums. (Id.) As to eight
other class members who were the subjects of
Caterpillar’s motion for summary judgment, the court
held the motion in abeyance and requested that those
plaintiffs file a cross motion for summary judgment.
(Id.) On January 16, 2015, the court granted the
motion for summary judgment filed by the eight
plaintiffs, entered judgment in their favor as to
damages in the form of out-of-pocket expenses, and
ordered Caterpillar to re-enroll these plaintiffs in its
insurance plan without premiums. (Docket No. 432.)

App. 25
II. Legal Standard
While the Federal Rules of Civil Procedure fail to
explicitly address motions to reconsider interlocutory
orders, “[d]istrict courts have authority both under
common law and Rule 54(b) to reconsider interlocutory
orders and to reopen any part of a case before entry of
final judgment.” Rodriguez v. Tenn. Laborers Health &
Welfare Fund, 89 F. App’x 949, 959 (6th Cir. 2004)
(citing Mallory v. Eyrich, 922 F.2d 1273, 1282 (6th Cir.
1991)); accord In re Life Investors Ins. Co. of Am., 589
F.3d 319, 326 n. 6 (6th Cir. 2009). Thus, district courts
may “afford such relief from interlocutory orders as
justice requires.” Rodriguez, 89 F. App’x at 959
(internal quotations marks and brackets omitted).
“Courts traditionally will find justification for
reconsidering interlocutory orders when there is (1) an
intervening change of controlling law; (2) new evidence
available; or (3) a need to correct a clear error of law or
prevent manifest injustice.” Louisville/Jefferson Cnty.,
Metro. Gov’t v. Hotels.com, L.P., 590 F.3d 381, 389 (6th
Cir. 2009) (citing Rodriguez, 89 F. App’x at 959). This
standard “vests significant discretion in district
courts.” Rodriguez, 89 F. App’x at 959 n. 7.
III. Caterpillar’s Motion to Reconsider
Caterpillar moves the court to reconsider its prior
rulings on the basis that, in M & G Polymers USA, LLC
v. Tackett, 135 S. Ct. 926 (2015), the Supreme Court
abrogated Int’l Union, United Auto., Aerospace, & Agr.
Implement Workers of Am. (UAW) v. Yard-Man, Inc.,
716 F.2d 1476 (6th Cir. 1983), upon which this court
relied in its previous rulings. The plaintiffs counter
that Tackett does not require a change in this court’s

App. 26
previous rulings because this case involves express,
unambiguous contract language that demonstrates the
bargaining parties’ intent to continue health care
benefits for the lifetimes of the surviving spouses
beyond the expiration of the 1998 GIP and that there
is much extrinsic record evidence confirming that
intent. They further argue that the court in this case
did not apply the Yard-Man inferences that were
overruled by Tackett.
A. The Supreme Court’s Tackett Decision
In Tackett, the Supreme Court held that “Yard–Man
violates ordinary contract principles by placing a
thumb on the scale in favor of vested retiree benefits in
all collective-bargaining agreements,” “distorts the
attempt ‘to ascertain the intention of the parties,’” and
“has no basis in ordinary principles of contract law.”
Tackett, 135 S. Ct. at 935 (quoting 11 R. Lord, Williston
on Contracts § 30:2, 18 (4th ed. 2012)). Although the
Supreme Court quoted with approval Yard-Man’s
statement that “traditional rules of contractual
interpretation require a clear manifestation of intent
before conferring a benefit or obligation,” id. at 936, it
rejected numerous other aspects of the Yard-Man
decision, including: (1) the conclusion that, “‘when . . .
parties contract for benefits which accrue upon
achievement of retiree status, there is an inference that
the parties likely intended those benefits to continue as
long as the beneficiary remains a retiree,’” id. at 935
(quoting Yard-Man, 716 F.2d at 1482); (2) the inference
that “retiree health care benefits are not subjects of
mandatory collective bargaining,” which, the Supreme
Court found, “rest[s] on a shaky factual foundation,”

App. 27
given that parties “can and do voluntarily agree to
make retiree benefits a subject of mandatory collective
bargaining,” id. at 936; (3) the reliance on the premise
that “retiree benefits are a form of deferred
compensation,” when that characterization is contrary
to ERISA, id; (4) the “refusal[al] to apply general
durational clauses to provisions governing retiree
benefits,” id.; (5) the “misappl[ication] of traditional
principles of contract law, including the illusory
promises doctrine,” id.; (6) the “fail[ure] even to
consider the traditional principle that courts should not
construe ambiguous writings to create lifetime
promises,” id. (citing 3 A. Corbin, Corbin on Contracts
§ 553, p. 216 (1960)); and (7) the “fail[ure] to consider
the traditional principle that ‘contractual obligations
will cease, in the ordinary course, upon termination of
the bargaining agreement.’” Id. at 937 (quoting Litton
Financial Printing Div., Litton Business Systems, Inc.
v. NLRB, 501 U.S. 190, 207 (1991)). As to the last
point, the Court held:
That principle does not preclude the conclusion
that the parties intended to vest lifetime
benefits for retirees. Indeed, we have already
recognized that “a collective-bargaining
agreement [may] provid[e] in explicit terms that
certain benefits continue after the agreement’s
expiration.” [Litton, 501 at 207]. But when a
contract is silent as to the duration of retiree
benefits, a court may not infer that the parties
intended those benefits to vest for life.
Id. at 937.

App. 28
Justice Ginsburg’s concurrence states as follows:
Under the “cardinal principle” of contract
interpretation, “the intention of the parties, to
be gathered from the whole instrument, must
prevail.” 11 R. Lord, Williston on Contracts
§ 30:2, p. 27 (4th ed. 2012) (Williston). To
determine what the contracting parties
intended, a court must examine the entire
agreement in light of relevant industry-specific
“customs, practices, usages, and terminology.”
Id., § 30:4, at 55–58. When the intent of the
parties is unambiguously expressed in the
contract, that expression controls, and the
court’s inquiry should proceed no further. Id.,
§ 30:6, at 98–104. But when the contract is
ambiguous, a court may consider extrinsic
evidence to determine the intentions of the
parties. Id., § 30:7, at 116–124.
Id. at 937–38. The concurrence also clarifies that,
although lower courts must not utilize Yard-Man’s
“thumb on the scale in favor of vested retiree benefits,”
contractual provisions such as the ones in the Tackett
case — providing that retirees “will receive” healthcare benefits if they are “receiving a monthly pension”
or that a surviving spouse will “continue to receive [the
retiree’s health-care] benefits ... until death or
remarriage” — are “relevant to this examination.” Id.
at 938 (citations omitted). Finally, the concurrence
advises the following:
[N]o rule requires “clear and express” language
in order to show that parties intended healthcare benefits to vest. “[C]onstraints upon the

App. 29
employer after the expiration date of a collectivebargaining agreement,” we have observed, may
be derived from the agreement’s “explicit terms,”
but they “may arise as well from ... implied
terms of the expired agreement.” Litton
Financial Printing Div., Litton Business
Systems, Inc. v. NLRB, 501 U.S. 190, 203, 207
(1991).
Id.
B. The Court’s Ruling on Caterpillar’s Motion
to Dismiss
In ruling on Caterpillar’s motion to dismiss, this
court explained:
Retiree health benefits are addressed in . . . the
IPA and the GIP. The IPA, like the CBA, was
effective by its terms until April 1, 2004. The
IPA expressly states: “Termination of this
Agreement shall not have the effect of
automatically terminating the Plan.” “The Plan”
refers to the GIP. This language indicates that,
even though the Agreement (the CBA) expires
by its terms on April 1, 2004, the GIP and the
concomitant benefits provided thereby need not
also expire.
Section 5.1 on page 38 of the GIP, under Section
V entitled “Medical Expense Benefits,” provides:
A benefit shall be provided in accordance
with this Section only for an Employee,
while coverage for such benefit is in effect
with respect to such Employee. Benefits

App. 30
in accordance with this Section will
be provided to such Employee,
retired Employee, and Dependents
thereof for the duration of any
Agreement to which this Plan is a
part.
(Ex. 7 to Docket No. 50) (emphasis added).
Caterpillar reads this language to say that
health benefits (including retiree health
benefits) lasted only as long as the labor
contracts themselves. (Docket No. 56 at 5–6).
This type of specific durational language, urges
Caterpillar, is fundamentally inconsistent with
the plaintiffs’ claim of vesting. (Id. at 6).
Conversely, the plaintiffs read this language to
require that Caterpillar provide benefits to
employees, retirees, and dependents at least for
the duration of the labor contracts. Thus, say
plaintiffs, this language does not defeat their
claim of vesting; if anything, it renders the
language of the governing document ambiguous
and opens up the court’s inquiry to extrinsic
evidence.
(Docket No. 77, at 24–25 (Motion to Dismiss
Memorandum Opinion).)
Finding ambiguity in these provisions, the court
concluded that extrinsic evidence of the parties’
intentions could be introduced to resolve the ambiguity.
(Id., at 25.) Although the court did discuss several
Yard-Man inferences that pointed to an intent to vest—
namely, language in the agreements that linked
medical benefits to pension eligibility, the fact that

App. 31
retirement benefits are a form of delayed
compensation, and the inference that retiree benefits
continue as long as the requisite “status” of being a
retiree is maintained— the court found that it was
premature to consider extrinsic evidence because little
discovery had been conducted at that point. (Id., at
25–29.) Accordingly, the court denied Caterpillar’s
motion to dismiss.
C. The Court’s Ruling on Caterpillar’s Motion
for Summary Judgment
Although this court discussed the Yard-Man
inferences in its motion to dismiss ruling, its summary
judgment ruling does not rely on Yard-Man inferences
or even cite the case. The court set forth its analytical
framework as follows:
[I]n resolving a claim for vested health care
benefits stemming from a collective bargaining
agreement, the court uses basic canons of
contractual interpretation, looking to the
“explicit language” of the agreement for “clear
manifestations of intent” to vest. That is, based
upon the entire contract, the court examines
whether the language of the contract indicates
that the parties intended to make benefits under
the contract unalterable by subsequent labor
agreements.
(Id., at 26 (quoting Reese, 574 F.3d at 321).)
For the sake of judicial economy, the court issued a
single memorandum opinion on the cross motions for
summary judgment in both Winnett and Kerns. In the
portion of the court’s summary judgment ruling that

App. 32
addressed the claims of the Winnett surviving spouse
subclass (whose claims were governed by an earlier
version of the GIP that had identical language in
Section 5.15 as that contained in the 1998 GIP), the
court concluded:
Simply put, the 1992 unilateral implementation
means what it says. That is, while the language
is in force, once a retired employee dies, the
surviving spouse is entitled to “continued”
coverage “without cost.” This is precisely the
type of “explicit language” and “clear
manifestation of intent” that must be found
before the court can conclude, as a matter of law,
that the parties intended benefits to vest under
the agreement. Yolton v. El Paso Tenn. Pipeline,
435 F.3d 571, 578–79 (6th Cir. 2006).
Caterpillar, for all of its efforts to find a way
around the clear language, cannot point to a
single provision in the 1992 unilateral
implementation that negates the plain language
discussed above. The language here is plainly
unambiguous and indicates that the 1992
unilateral implementation provided surviving
spouses with vested no-cost medical benefits.
(Id., at 31–32.)
In the portion of the summary judgment ruling that
addressed the Kerns plaintiffs’ claims, the court
similarly found that the identical language in Section
5.15 of the 1998 GIP—providing that health care
benefits “will be continued following the death of a
retired Employee for the remainder of the surviving
spouse’s life without cost”—was “sufficient to

App. 33
unambiguously vest in the surviving spouse a right to
lifetime “no cost” health benefits.” (Docket No. 262, at
36.) Responding to Caterpillar’s argument that this
language was accidentally left in the 1998 GIP and was
not consistent with the agreement reached in the
bargaining process, the court held as follows:
While it is not necessary to consider extrinsic
evidence here, the extrinsic evidence submitted
plainly supports the plaintiffs’ position that
there was no mistake. See Cole v. ArvinMeritor,
549 F.3d at 1064, 1075 (6th Cir. 2008) (where
the contract language is unambiguous, the court
is to apply that language without recourse to
extrinsic evidence.) As discussed in previous
opinions, the Kerns plaintiffs have submitted
letters from Caterpillar to class members upon
the death of their spouse in which Caterpillar
represents that health care coverage will
continue at “no cost,” and the plaintiffs have also
submitted evidence that appears to show that
Caterpillar did not charge the VEBA [Voluntary
Employee Benefits Association] for surviving
spouse premiums. (See Docket Nos. 223 Ex. 10;
Docket No. 218, at 13.) In response, Caterpillar
largely relies on self-serving deposition
testimony from its own representatives, while
conceding that the VEBA was not charged for
surviving spouses and that it sent the letters
discussed above to surviving spouses. (Docket
No. 246, at 7–13; Docket No. 219, at 6–7.)
(Docket No. 262, at 36–17 n. 18.)

App. 34
D. The Impact of Tackett on the Court’s
Previous Rulings
The court’s summary judgment ruling does not rely
on, or even mention, the Yard-Man presumptions in
reaching the conclusion that the health care benefits at
issue here have vested. The court has reviewed its prior
decisions in this matter, mindful of the traditional
principles “that courts should not construe ambiguous
writings to create lifetime promises” and that
“contractual obligations will cease, in the ordinary
course, upon termination of the bargaining agreement”
that the Supreme Court reminded courts to consider in
Tackett, 135 S. Ct. at 936–37 (internal citation
omitted). Yet, utilizing basic canons of contractual
interpretation to “ascertain the intention of the
parties,” without implementing Yard-Man
presumptions or otherwise “placing a thumb on the
scale in favor of vested retiree benefits in all collectivebargaining agreements,” id. at 935 (internal citations
omitted), the court finds, again, that this collective
agreement does, in fact, evidence a clear intention by
the parties to vest lifetime benefits in this group of
surviving spouses, by providing, “in explicit terms that
certain benefits continue after the agreement’s
expiration.” Id.at 937 (quoting Litton, 501 U.S. at 207).
Caterpillar argues that Tackett compels the court to
reverse its finding that the surviving spouses have a
vested right to lifetime, premium-free benefits because,
“[v]iewed as a whole, the relevant 1998 labor contract
language shows that at most, Plaintiffs’ benefits
‘vested’ for no more than the duration of the 1998 labor
contract, and subject to the financial caps imposed in

App. 35
that contract for each ‘covered individual.” (Docket No.
452, at 12.) To the contrary, numerous contractual
provisions indicate the intention of the parties to vest
benefits. For example, after a long list of specific
amendments to the GIP, which the parties had
negotiated, Section 3 of the 1998 IPA provided the
following: “The provisions of the Group Insurance Plan
as in effect on September 30, 1991 shall continue in
effect until amended pursuant to the foregoing and
thereafter to the extent not amended pursuant to the
foregoing.” (Docket No. 222-9, at 10 (emphasis added).)
Section 9(a) of the 1998 GIP provides that
“Termination of [the CBA] shall not have the effect of
automatically terminating the Plan.” (Docket No. 2229, at 13.) Section 5.15 of the 1998 GIP provides:
“Dependents’ Coverage will be continued following the
death of a retired Employee for the remainder of his
surviving spouse’s life without cost.” (Docket No. 222-9,
at 61.) Section 6.2(c) of the 1998 GIP provides: “Such
Dependents’ Coverage for any such surviving spouse
. . . will continue . . . for the remainder of her life
without cost.” (Docket No. 222-10, at 41.)
Thus, the court reiterates here its conclusion that
the language in the 1998 GIP was “sufficient to
unambiguously vest in the surviving spouse a right to
lifetime “no cost” health benefits.” (Docket No. 262, at
36.) Indeed, although Justice Ginsburg’s concurrence in
Tackett makes clear that “no rule requires ‘clear and
express’ language in order to show that parties
intended health-care benefits to vest,” Tackett, 135 S.
Ct. at 938, the agreement between the parties in this
case does, in fact, contain clear and express language

App. 36
of the parties’ intention that this group of surviving
spouses has vested health care benefits.
Furthermore, even if the contract language were
ambiguous, the court has already concluded that the
extrinsic evidence presented to the court “plainly
supports the plaintiffs’ position” that the benefits had
vested. (Docket No. 262, at 36–17 n. 18.) The court has
previously concluded that the letters Caterpillar
undisputedly sent to the class members upon the death
of their spouse, in which Caterpillar represented that
health care coverage would continue at “no cost,”
supports a finding of vesting. (Id.; see also Docket No.
243, at 18–22.) Similarly, the court has also held that
Caterpillar’s practice of not charging the VEBA trust
fund for surviving spouse premiums supports a finding
of vesting. (Id.) The VEBA trust fund was created from
contributions by the UAW and Caterpillar upon
resolving the 1998 labor dispute to cover the retirees’
share of the “above the cap” costs until the fund ran out
of money. Consistent with its purpose, Caterpillar
charged the VEBA for health coverage for retirees and
their dependents while the retiree was still living.
However, with very few exceptions, upon the death of
the retiree, Caterpillar concedes that it no longer
charged the VEBA for the cost of the coverage of the
surviving spouse. (Docket No. 226, at 7–8; see also,
Docket No. 243, at 27 (¶65), at 25–30 (¶¶ 60–73), at
15–16 (¶¶ 36–37).)
This previously cited extrinsic evidence also
supports the court’s rejection of Caterpillar’s argument
that the language regarding financial caps for each
“covered individual” applied to surviving spouses, as

App. 37
opposed to retirees. (See Docket No. 280, at 11 n. 3
(reiterating the court’s previous finding in favor of the
surviving spouses subclass in Winnett on this issue).)
Caterpillar’s practice of not charging VEBA for
surviving spouses’ above-the-cap expenses is strong
evidence that the parties intended the newly-imposed
premium cap to apply to retirees, not to surviving
spouses, and that the parties did, in fact, intend for
surviving spouses to have lifetime, no cost coverage, as
stated in the 1998 GIP.
Indeed, there is a plethora of additional extrinsic
evidence in this case supporting a finding that the
parties intended to vest in the surviving spouses a
right to lifetime, no cost, health benefits, including
inter alia:
• The bargaining history between the parties
shows that the language in Section 5.15 appears,
verbatim, in the 1988 GIP (Docket No. 50-19, at
19), the unilateral 1992 implementation (Docket
No. 50-13, at 20), and the 1998 GIP (Docket No.
22-9, at 61). As the court noted in its summary
judgment ruling, “[a]fter considerable
negotiations on the issue, the 2004 labor
contract removed the ‘without cost for life’
language pertaining to surviving spouse medical
benefits that, in form and/or substance, had
been in every previous labor agreement
discussed herein.” (Docket No. 262, at 10.) The
removal of the language in the 2004 labor
contract has no effect on the Kerns plaintiffs.
• The November 1999 summary plan documents
stated, “If you die following your retirement,

App. 38
your surviving spouse will have coverage
continued for his or her lifetime without cost.”
(Docket No. 222-13, at 54; see also Docket No.
223-1, at 58 (“If you die while eligible to retire or
following your retirement, your surviving spouse
will have coverage continued for his or her
lifetime without cost.”))
• Jerry Brust, Caterpillar’s Director of Corporate
Labor Relations at the time, testified during the
Winnett preliminary injunction hearing. Again,
the Winnett class members retired under an
earlier version of the GIP that contained
identical language in Section 5.15 as the 1998
GIP under which the Kerns class members
retired. Thus, the court’s conclusion about Mr.
Brust’s testimony in Winnett supports the
conclusion the court has reached as to vesting in
the Kerns case as well:
The testimony of Caterpillar’s then
Director of Corporate Labor Relations
supports vesting. In describing why
Caterpillar announced potential
changes in 1991, Brust claimed that
“we wanted to give employees an
opportunity—if they were
contemplating retiring in the near
future ... to make the decision whether
they were going to in effect, cash in
their chips and push them back from
the table prior to January of ‘92 and
retire knowing that they had locked in
at that point.” (Tr. 373). Brust’s use of

App. 39
the phrase “locked in” suggests that
Caterpillar knew these benefits could
not be taken away.
Winnett v. Caterpillar, Inc., 579 F. Supp. 2d 1008, 1032
(M.D. Tenn. 2008) rev’d, 609 F.3d 404 (6th Cir. 2010).
The Sixth Circuit’s reversal of the court’s preliminary
injunction ruling was based on legal issues not relevant
to the court’s conclusion about Mr. Brust’s testimony.
• The plaintiffs have produced evidence of a large
number of letters and forms on which
Caterpillar made written representations of its
intention to provide healthcare benefits for life,
without cost, to surviving spouses, the
authenticity and accuracy of which Caterpillar
does not dispute. For example, the plaintiffs
have produced fourteen letters sent from
Caterpillar to surviving spouses between
September 1999 and 2002, shortly after the
retiree passed away, stating that the spouse
would have healthcare coverage for his or her
lifetime. Some letters specifically said “at no
cost.” (Docket No. 243 at 18–23 (¶¶ 45–53)
(quoting nine such letters); Docket No. 223-4
(list of 14 Survivors Lifetime Letters).)
• After Caterpillar sent a letter dated September
4, 2003 announcing imposition of premiums,
Caterpillar received written and oral complaints
from surviving spouses that the imposition of
premiums was inconsistent with the promises
Caterpillar had made. (Docket No. 243, at 31–32
(¶77).)

App. 40
• The plaintiffs have produced letters that
surviving spouses sent to Caterpillar after
receiving a letter from Caterpillar dated October
10, 2005 (Docket No. 224-4), indicating its
intention to begin imposing premiums. In each
letter, the surviving spouses complained that
this was inconsistent with promises Caterpillar
had made to them or requested that Caterpillar
investigate the matter. (Docket No. 243 at 32–34
(¶¶ 78–84).)
• Caterpillar sent three such surviving spouses
letters dated in March 2006, confirming that
they were entitled to lifetime, no cost coverage
and attaching documentation of their right to
such coverage. (Docket Nos. 234-7, 234-8, 234-9
(three surviving spouses’ letters of complaint
and Caterpillar’s letters in response thereto).)
• Soon after Caterpillar sent these letters to the
surviving spouses who complained, it sent
letters to other surviving spouses indicating
that, although there would be a delay in the
collection of premiums, Caterpillar would begin
charging premiums on April 1, 2006. (Docket No.
243, at 41 (¶108).)
• On April 13, 2006, the Kerns plaintiffs filed their
Complaint in this matter. Plaintiffs have
produced five letters sent by Caterpillar to Kerns
surviving spouses, dated April 17, 2006, stating
that Caterpillar had “elected to waive your
health care premiums.” (Docket No. 243, at 41
(¶111).)

App. 41
• The plaintiffs also have presented evidence that,
in 67 out of 96 benefits files Caterpillar provided
for Kerns surviving spouses, there is a document
prepared by Caterpillar and signed by the
surviving spouse, usually shortly after her
spouse died, called “Medical Expense Survivor’s
Coverage.” Sixty-two of these forms indicated
that “this survivor is eligible [for] retired
coverage until lifetime” (or, in a few, until
“death”). Sixty-three of the forms indicated that
such coverage would be “free,” at “no cost,” “0”,”
or “none.” (Docket No. 243, at 23–24 (¶55); 223-3
(list of 67 Survivors Medical Expense Survivor
Coverage Forms).)
• Plaintiffs have provided evidence that five
surviving spouses’ files included a document
titled “Survivor Insurance Information Cards”
that indicate that there would be no cost to the
surviving spouse for health coverage. (See, e.g.,
Docket No. 243, at 24–25 (Caterpillar’s Resp. to
Pl.’s SUMF conceding the accuracy of the
referenced forms).)
• Section 6.2(c) of the 1998 GIP ties pension
eligibility to medical benefits. Although Tackett
held that courts cannot presume vesting from
this type of provision, Justice Ginsburg’s
concurrence clarifies that such tying language is
“relevant” to the question of whether benefits
have vested.
In sum, the court reiterates its previous conclusion
that the various provisions of the contracts at issue in
this case, when read together, demonstrate

App. 42
unambiguously the parties’ intention for the surviving
spouses to have lifetime “no cost” health benefits. In
the alternative, if the provisions cited by Caterpillar
create ambiguity as to the parties’ intentions, the
extrinsic evidence before the court overwhelmingly
supports the court’s conclusion. Because the court finds
nothing in the Supreme Court’s Tackett decision that
changes its previous rulings in this matter,2
Caterpillar’s second motion to reconsider will be
denied.
IV. The Plaintiffs’ Motion to Reconsider
The plaintiffs argue that the court’s conclusion in its
March 26, 2010 summary judgment ruling that,
although Caterpillar’s imposition of monthly premiums
violated ERISA and the LMRA, its imposition of
additional deductibles, co-insurance, and increased outof-pocket costs were lawful pursuant to Reese v. CNH
Am. LLC, 574 F.3d 315 (6th Cir. 2009) (Docket No. 262,
at 39–41), should be reconsidered based on an
intervening change of controlling law and to prevent a
manifest injustice. In its summary judgment ruling,
the court held that Reese “stands for the proposition
2

The clear contractual language and overwhelming evidence
supporting the court’s decision in this case distinguish it from
Reese v. CNH Indus. N.V., No. CV 04-CV-70592, 2015 WL 5679827
(E.D. Mich. Sept. 28, 2015), in which the district court
reconsidered and reversed its finding of vesting in light of Tackett.
Unlike this case, in Reese, the district court found that, after
setting aside the Yard-Man presumptions, “[t]he remainder of the
reasons underlying the Court’s prior conclusion that Plaintiffs are
entitled to lifetime healthcare benefits are either not sufficient on
their own to support that conclusion or are no longer viable
reasons under Tackett.” Id. at *9.

App. 43
that, even if the retiree has a vested right to lifetime
health benefits from his employer, unless there is some
exceptional language that dictates that benefits can
‘never vary,’ that retiree is entitled to ‘lifetime benefits
subject to reasonable changes.’” (Docket No. 262, at 27
(quoting Reese, 574 F.3d at 326).)
The plaintiffs argue that United Steel, Paper &
Forestry, Rubber, Mfg. Energy, Allied Indus. & Serv.
Workers Int’l Union, AFL-CIO-CLC v. Kelsey-Hayes
Co., 750 F.3d 546, 554 (6th Cir. 2014) reh’g granted and
opinion vacated, 795 F.3d 525 (6th Cir. 2015),
“corrected some common ‘misapprehensions’ about the
Reese ‘reasonable changes’ holding, and clarified and
severely limited Reese to its particular facts.” (Docket
No. 465, at 9.) The plaintiffs request that the court
reconsider its summary judgment ruling and find that
the Kerns class members are entitled to “receive the
benefits set forth at the levels in the 1998 GIP for the
remainder of their lives without premiums and without
imposing the new deductibles, new co-insurance or
other new costs.” (Id., at 10.)
The first problem with the plaintiffs’ motion is that
the Sixth Circuit has vacated the Kelsey-Hayes opinion
on the basis of Tackett and, thus, the case has no
precedential value. The plaintiffs counter that KelseyHayes was vacated on grounds independent of Reese,
which leads to the second problem with the plaintiffs’
motion—Kelsey-Hayes does not represent a change in
controlling law. Kelsey-Hayes is not in conflict with
Reese or this court’s application of Reese. The
“misapprehension” Kelsey-Hayes was correcting was
that of the Kelsey-Hayes defendants, not Reese or courts

App. 44
applying Reese. In rejecting the argument of the KelseyHayes defendants, the Sixth Circuit explained as
follows:
Underpinning many of defendants’ arguments
on appeal is a characterization of the Reese cases
as a major sea-change in Sixth Circuit retiree
benefits case law. . . . Specifically, defendants
characterize Reese’s conclusion that CNH could
unilaterally alter the retirees’ health care
benefits to mean that all CBAs in the Sixth
Circuit are always unilaterally alterable,
regardless of a CBA’s specific language. . . . We
disagree with defendants and reject their
interpretation of the Reese cases. Contrary to
defendants’ characterization, the Reese decisions
are not a “significant change” in Sixth Circuit
case law, but are entirely consistent with other
Sixth Circuit retiree benefits cases insofar as the
Reese courts simply examined the language of
the CBA and the parties’ conduct in reaching
their conclusions. . . . In sum, the Reese courts
concluded that there, the scope of the vested
right to health care could be unilaterally altered
because that is what the evidence indicated the
parties intended in that case, not because all
vested health care rights in all CBAs are subject
to unilateral alteration as a matter of law.
Kelsey-Hayes, 750 F.3d at 554 (citations omitted).
The plaintiffs’ real argument seems to be that the
court misapplied Reese by interpreting it to mean that
“all CBAs in the Sixth Circuit are always unilaterally
alterable, regardless of a CBA’s specific language,” as

App. 45
the Kelsey-Hayes defendants interpreted it. Id. But this
court did not assume that the 1998 GIP was
unilaterally alterable as a matter of law. To the
contrary, the court clearly considered the specific facts
of the agreements between these particular parties:
For the same reasons as expressed in Winnett,
the court finds that these additional charges,
while undoubtedly imposing a financial burden
on the class members, are “reasonable” and
ancillary charges under Reese. As in Reese, while
the plan documents say “no cost” or “no
contributions,” “no party to the case—the union,
the employer, the retirees—viewed the benefits
in this way.” 574 F.3d at 324. That is, the Kerns
plaintiffs concede that they are responsible for,
at least, a $5/$15 (generic/brand) prescription
drug co-payment and the assorted additional
medical charges (including out-of-pocket costs)
that come from seeing an out-of-network
physician under the 1998 GIP, along with the
costs of office visits. (Docket No. 250 at 17;
Docket No. 240 at 4; Docket No. 253 at 15.) That
is, aside from the imposition of premiums, the
Kerns plaintiffs are not objecting to “costs,” only
“increased costs.” This Plan, like the plan in
Reese, is subject to reasonable adjustments, as
part of the give-and-take of labor negotiations.
Therefore, as in Winnett, Caterpillar has not
violated ERISA or the LMRA by instituting
these additional charges.
(Docket No. 262, at 40.)

App. 46
The court also rejects the plaintiffs’ argument that
Tackett is inconsistent with this court’s conclusion that
Caterpillar’s imposition of costs (other than premiums)
were lawful. (Docket No. 465 at 18–19.) The plaintiffs
quote the following from Tackett: “Where the words of
a contract in writing are clear and unambiguous, its
meaning is to be ascertained in accordance with its
plainly expressed intent.” Tackett, 135 S. Ct. at 933
(citation omitted). The plaintiffs argue that, because
the “for the remainder of his surviving spouse’s life
without cost” language in the 1998 GIP is
unambiguous, under Tackett, the court must interpret
the meaning of the contract in accordance with those
express terms. But as Justice Ginsberg’s concurrence
in Tackett reiterates, “[u]nder the cardinal principle of
contract interpretation, the intention of the parties, to
be gathered from the whole instrument, must prevail.”
Id. (internal quotation marks and citation omitted).
The language the plaintiffs focus on in Section 5.15 of
the 1998 GIP must be read together with the provisions
in that same document that set forth out-of-pocket
costs that the plaintiffs have repeatedly conceded were
legitimately imposed costs. Reading the 1998 GIP as a
whole, the additional charges are “reasonable” and
ancillary under Reese.
Some disagree with the Sixth Circuit’s position in
Kelsey-Hayes that Reese does not represent a major
change in Sixth Circuit retiree benefits case law. See,
e.g., Reese v. CNH Indus. N.V., No. CV 04-CV-70592,
2015 WL 5679827 at n.1 (E.D. Mich. Sept. 28, 2015)
(“[T]he Reese panels appear to have changed the
definition of ‘vested’ inasmuch as they use that word to
describe benefits that, while lasting for life, are subject

App. 47
to unilateral reduction. . . . Prior to those decisions,
‘vested’ benefits referred to benefits that last forever at
a fixed level.”) (collecting Sixth Circuit cases stating
that a unilateral reduction or modification of “vested”
benefits would violate the LMRA). Indeed, the Supreme
Court has held that, “[u]nder established contract
principles, vested retirement rights may not be altered
without the pensioner’s consent. The retiree, moreover,
would have a federal remedy under § 301 of the Labor
Management Relations Act for breach of contract if his
benefits were unilaterally changed.” Allied Chem. &
Alkali Workers of Am. v. Pittsburgh Plate Glass Co.,
404 U.S. 157, 181 n. 20 (1971). Nonetheless, although
some might argue that Reese’s “reasonable changes”
analysis is inconsistent with prior Sixth Circuit and
Supreme Court precedent, it is not necessarily
inconsistent with Tackett. Unless the Supreme Court or
the Sixth Circuit itself overrules Reese, this court is
bound to follow it, as it has done in this case.
In conclusion, the court finds no basis for
reconsideration of its conclusion that, pursuant to
Reese, Caterpillar’s imposition of additional
deductibles, co-insurance, and increased out-of-pocket
costs were “reasonable” charges and, as such,
permissible under ERISA and the LMRA. Accordingly,
the court will deny the plaintiffs’ motion to reconsider.
CONCLUSION
For the foregoing reasons, the court will deny the
motions to reconsider filed by Caterpillar (Docket No.
451) and Plaintiffs (Docket No. 464). All that remains
of this litigation is to determine the plaintiffs’ damages
in a manner consistent with the court’s rulings.

App. 48
/s/Aleta A. Trauger
ALETA TRAUGER
UNITED STATES DISTRICT JUDGE

App. 49
UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-CV-1113
Judge Trauger
[Filed November 17, 2015]
_____________________________
JUDITH K. KERNS, et al.,
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
Defendant/
)
Third-Party Plaintiff,
)
)
v.
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
Third-Party Defendants. )
_____________________________ )
ORDER
Pending before the court is a Motion to Reconsider
filed by Caterpillar, Inc. (Docket No. 451) and a Motion
to Reconsider filed by the plaintiffs (Docket No. 464).
For the reasons provided in the accompanying
Memorandum Opinion, both motions are DENIED.
All that remains of this litigation is to determine
the plaintiffs’ damages in a manner consistent with the
court’s rulings.

App. 50
/s/Aleta A. Trauger
ALETA TRAUGER
UNITED STATES DISTRICT JUDGE

App. 51

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Civil No. 3:06-1113
Judge Trauger
[Filed January 23, 2015]
__________________________
JUDITH KERNS, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
)
Defendant.
)
__________________________ )
ORDER
The Kerns Class Plaintiff’s Rule 60(a) Motion to
Correct Dockets 431, 432 and 433 (Docket No. 434) is
GRANTED. The last two sentences of the Order
entered January 16, 2015 (Docket No. 432) are hereby
VACATED as inadvertently included within the Order.
There are still matters for the court’s consideration.
It is further ORDERED that the typographical
errors set out in paragraph 17 of the Motion are hereby

App. 52
CORRECTED, and the several references to “the 1988
GIP” are hereby CORRECTED to read “the 1998 GIP”.
It is further ORDERED that, by February 6, 2015,
the parties shall submit a joint proposed schedule for
the remaining damages claim procedure that must take
place in this case.
It is so ORDERED.
ENTER this 23rd day of January 2015.
/s/Aleta A. Trauger
ALETA A. TRAUGER
U.S. District Judge

App. 53

APPENDIX G
UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-CV-1113
Judge Trauger
[Filed January 16, 2015]
_____________________________
JUDITH K. KERNS, et al.,
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
Defendant/
)
Third-Party Plaintiff,
)
)
v.
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
Third-Party Defendants. )
_____________________________ )
MEMORANDUM
This is a class-action lawsuit brought on behalf of
surviving spouses of former employees of Caterpillar,
Inc. (“Caterpillar”) who retired on or after March 16,
1998, and before January 10, 2005. This matter is

App. 54
before the court on cross motions for summary
judgment on the claims brought by eight individual
class members against Caterpillar, Inc. (“Caterpillar”).
Docket Nos. 385 (Caterpillar’s motion), 409 (Plaintiffs’
motion). For the reasons stated herein, judgment will
be entered for the eight plaintiffs at issue: Beverly
Carson, Wilma Farrenholz, Hattie Grace, Sharon
Houser, Laura Mansfield, Florence Miller, Charlotte
Seibert, and Nancy Virden. The court also will order
Caterpillar to re-enroll these plaintiffs in its insurance
plan without premiums.
RELEVANT FACTUAL AND PROCEDURAL
BACKGROUND
Because the court has recounted the factual and
procedural history of this case numerous times,
familiarity with the facts will be assumed.1 During the
time period relevant to this lawsuit, the International
Union, UAW (“UAW”), was the exclusive bargaining
representative for employees at various Caterpillar
facilities, primarily in Illinois. Under federal law,
Caterpillar was obligated to negotiate with the UAW
before making changes to the terms and conditions of
employment. The labor agreement negotiated between
Caterpillar and the UAW in 1988 (the “1988 Central

1

This case and Winnett v. Caterpillar, Case No. 3:06-0235, are
related but not consolidated cases. By prior order dated March 26,
2010, this court granted the International Union, UAW’s motions
to dismiss Caterpillar’s Third-Party Complaint against it in both
Kerns and Winnett. (Docket No. 263.) Subsequently, through a
series of decisions from this court and the Sixth Circuit, the court
dismissed the Winnett plaintiffs’ claims and closed that case.
(Docket Nos. 326, 327.

App. 55
Labor Agreement”) included provisions for health
insurance benefits, including retiree health care, as set
forth in an Insurance Plan Agreement between the
parties, along with a Group Insurance Plan (the “1988
GIP”). The 1988 GIP provided that, following the death
of a retired employee, coverage for the surviving spouse
“will be continued . . . for the remainder of his
surviving spouse’s life without cost.” Docket No. 243, at
7.
Upon the expiration of the 1988 Central Labor
Agreement, Caterpillar and the UAW were unable to
reach a new agreement. One area of dispute was the
proposed changes to medical benefits for existing and
future retirees. Unable to reach a new agreement, on
March 31, 1992, Caterpillar advised the UAW and
Caterpillar’s employees that it would unilaterally
implement portions of its final contract offer, which
would result in increased medical costs for the retirees.
On November 20, 1992, as the parties continued to
be unable to reach a new agreement, Caterpillar
advised the UAW that, effective December 1, 1992, it
would implement additional provisions from its final
offer, including caps on the amount that Caterpillar
would pay for future retiree health coverage (the “1992
unilateral implementation”). However, the December
1992 unilateral implementation did not change the
following language from the 1988 GIP: “Coverage [for
a surviving spouse] will be continued following the
death of a retired Employee for the remainder of his
surviving spouse’s life without cost.” Docket No. 243, at
10.

App. 56
In March 1998, the parties finally ratified a
successor agreement to the 1988 Central Labor
Agreement. The 1998 GIP again retained the provision
in the 1988 GIP providing that surviving spouses’
medical coverage would be continued following the
death of a retired employee for the remainder of the
surviving spouse’s life without cost.
After much negotiation, the 2004 labor contract
removed the “without cost for life” language pertaining
to surviving spouse medical benefits that, in form
and/or substance, had been in the 1988, 1992, and 1998
Agreements. The 2004 GIP contains new language that
clearly specifies that both retirees and their surviving
spouses must contribute toward their medical costs.
In October 2005, Caterpillar mailed letters to
surviving spouses indicating that, effective January 1,
2006, they would be required to pay a health care
premium to maintain their coverage. Shortly
thereafter, surviving spouses began sending Caterpillar
complaints that they were entitled to lifetime coverage
without cost, based, among other things, on letters
Caterpillar had sent them following the death of their
Caterpillar-retiree spouse, assuring them they would
be entitled to coverage for life “without cost.”
In April 2006, shortly after this lawsuit was filed,
Caterpillar announced it would “waive” premiums for
individuals whose spouses retired, or were eligible to
retire, between January 1, 1992 and January 10, 2005
and then died prior to January 10, 2005, the effective
date of the 2004 labor agreement. But Caterpillar
continues to charge monthly premiums for surviving
spouses whose Caterpillar-retiree spouse died after

App. 57
January 10, 2005—after the 2004 labor agreement that
removed the “without cost” language as to surviving
spouses took effect.
On March 26, 2010, the court entered judgment as
a matter of law for the Kerns plaintiffs, finding
Caterpillar liable for violations of Section 301 of the
Labor-Management Relations Act (“LMRA”), 29 U.S.C.
§ 185, and Section 502(a)(1)(B) of the Employee
Retirement Income Security Act (“ERISA”), 29 U.S.C.
§ 1132(a)(1)(B), for improperly charging premiums to
the class of individuals whose spouses retired from
Caterpillar prior to the ratification of the 2004 Labor
Agreement but died after its ratification.2 Docket Nos.
262, 263. The court found that “a surviving spouse is
not precluded from relief simply because her retireespouse happened to die after the ratification of the
2004 agreement.” Docket No. 262, at 38–39. The court
further held that lifetime no-cost medical benefits had
vested for the Kerns class and that Caterpillar had no
viable defenses. Id. at 39. However, upon consideration
of the guidelines set forth by the Sixth Circuit in Reese
v. CNH America LLC, 574 F.3d 315 (6th Cir. 2009), the
court concluded that, although Caterpillar’s imposition
of premiums was unlawful, its imposition of new
deductibles, co-insurance, and increased out-of-pocket
costs were permissible. Docket No. 262, at 39–41.
On August 20, 2014, the court ruled on the portion
of Caterpillar’s Motion for Summary Judgment on

2

Caterpillar did not charge premiums to class members whose
spouses both retired and died between 1992 and 2005. Docket No.
262, at 37.

App. 58
Damages that it interpreted as a motion to strike
plaintiffs’ claims for damages for replacement
insurance and out-of-pocket medical expenses. . Docket
Nos. 407, 408 (Court Order and Memorandum). In that
motion, Caterpillar conceded that, under the court’s
prior rulings, surviving spouses who paid premiums to
stay enrolled in Caterpillar’s insurance plan are
entitled to damages for the amount they paid in
unlawfully imposed premiums, but it argued that
surviving spouses who terminated Caterpillar’s
insurance plan because of Caterpillar’s breach are not
legally entitled, under either ERISA or the LMRA, to
recover damages for the cost of obtaining substitute
coverage and reimbursement for out-of-pocket
healthcare costs that would have been covered if
Caterpillar had honored the 1988 GIP. The court
disagreed and held that the surviving spouses who
terminated their insurance because of the unlawful
imposition of premiums were entitled to those damages
under the LMRA. The court declined to reach the issue
of whether the plaintiffs would be entitled to those
damages under ERISA.
As to the portion of Caterpillar’s motion that sought
summary judgment on the claims brought by twelve
surviving spouses who cancelled Caterpillar’s
insurance and sought damages for the cost of
replacement insurance and out-of-pocket expenses, the
court entered judgment for Caterpillar on the claims of
four plaintiffs who had not produced sufficient evidence
to withstand summary judgment. As to the remaining
eight plaintiffs, the court indicated that it would hold
Caterpillar’s motion for summary judgment in
abeyance and invited plaintiffs to file a cross motion for

App. 59
summary judgment for those individuals. The court
solicited this motion in light of its holding that these
eight plaintiffs are, in fact, entitled to damages for
replacement insurance and out-of-pocket expenses
caused by Caterpillar’s breach, and the apparent lack
of genuine dispute that Caterpillar’s breach was the
proximate cause of these surviving spouses’ incurring
these damages.
To narrow and direct the issues for future briefing,
the court reiterated its prior holding that Caterpillar
had waived any argument that the surviving spouses
failed to mitigate their damages, as it had not raised
the issue as an affirmative defense in its Answer to the
plaintiffs’ Complaint. Docket No. 407, at 15 (citing
Docket No. 262, at 39). The court further held that,
even if Caterpillar had not waived a mitigation defense,
it was without merit. The court also noted that
Caterpillar seemed to believe that plaintiffs were
obligated to present “objective” proof that, before
cancelling their Caterpillar insurance, each plaintiff
took steps to determine whether Caterpillar had
alternative plan options available at lower cost or met
with a financial advisor to determine whether
maintaining the insurance was financially feasible. The
court noted the lack of legal authority cited by
Caterpillar for this position and asked the parties to
brief the issue.
The eight surviving spouses filed the motion for
summary judgment as requested by the court, and that
motion is now ripe for review as a cross motion to that
previously filed by Caterpillar. Given the court’s prior
orders, the question now before the court is whether

App. 60
Caterpillar’s unlawful imposition of premiums was the
proximate cause for these eight surviving spouses’
termination of Caterpillar’s insurance. These plaintiffs
also request that the court order Caterpillar to reenroll these plaintiffs in the Caterpillar insurance plan,
without monthly premiums.
ANALYSIS
I. Summary Judgment Standard
Rule 56 requires the court to grant a motion for
summary judgment if “the movant shows that there is
no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed
.R. Civ. P. 56(a). If a moving defendant shows that
there is no genuine issue of material fact as to at least
one essential element of the plaintiff’s claim, the
burden shifts to the plaintiff to provide evidence
beyond the pleadings, “set[ting] forth specific facts
showing that there is a genuine issue for trial.”
Moldowan v. City of Warren, 578 F.3d 351, 374 (6th
Cir. 2009); see also Celotex Corp. v. Catrett, 477 U.S.
317, 322–23 (1986). “In evaluating the evidence, the
court must draw all inferences in the light most
favorable to the non-moving party.” Moldowan, 578
F.3d at 374 (citing Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 587 (1986)).
At this stage, “‘the judge’s function is not . . . to
weigh the evidence and determine the truth of the
matter, but to determine whether there is a genuine
issue for trial.’” Id. (quoting Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 249 (1986)). But “[t]he mere
existence of a scintilla of evidence in support of the

App. 61
[non-moving party’s] position will be insufficient,” and
the party’s proof must be more than “merely colorable.”
Anderson, 477 U.S. 242 at 252. An issue of fact is
“genuine” only if a reasonable jury could find for the
non-moving party. Moldowan, 578 F.3d at 374 (citing
Anderson, 477 U.S. at 252).
II. Liability
In cases arising under Section 301 of the LMRA, “it
is federal substantive law which controls resolution of
the contractual dispute.” UAW v. Yard-Man, 716 F.2d
1476, 1487 (6th Cir. 1983). “In the absence of
controlling federal law principles, however, we may
look for guidance to general common law principles,
including the substantive law of the state in which the
contract arose.” Id. (citation omitted). In Section 301
cases, “traditional rules for contractual interpretation
are applied as long as their application is consistent
with federal labor policies.” Id. at 1479.
“In cases alleging violations of the LMRA, courts
have held that the purpose of any award ‘is to make
employees whole for the losses suffered.’” UAW Local
540 v. Baretz, 159 F. Supp. 2d 968, 972 (E.D. Mich.
2001) (quoting Aguinaga v. United Food & Commercial
Workers Int’l Union, 720 F. Supp. 862, 870 (D. Kan.
1989)). Accordingly, when a court finds that an
employer breached its collective bargaining agreement
with its employees, it “should attempt to fashion a
remedy that will place the employees in the position
they would have attained had the agreement been
performed.” Id. at 973 (citing Int’l Bhd. of Elec. Workers
v. A-1 Elec. Servs., Inc., 535 F.2d 1, 4 (10th Cir. 1979)).

App. 62
Caterpillar argues that “in their moving papers
Plaintiffs have offered no objective evidence to
establish the requisite causal link between
Caterpillar’s imposition of premiums to the class
members and their alleged out-of-pocket expenditures”
and that they, instead, rely on “the class members’
unsupported assertions to the effect that they cancelled
their Caterpillar insurance because it was ‘too
expensive.’” Docket No. 429, at 2–3 (Caterpillar’s
Response). Caterpillar denies that it espoused an
“objective affordability” theory and blames the class
members for framing the issue in these terms when
they testified “that they cancelled their Caterpillar
insurance because they deemed it ‘too expensive.’” Id.
Caterpillar has created a red herring by arguing that
the word choice used by lay witnesses in effect created
a legal requirement that plaintiffs must prove that
they could not afford the unlawfully imposed
premiums. In fact, Caterpillar argues that not only
must plaintiffs prove they could not afford the
premiums, but they must also offer some sort of
objective proof above and beyond their own testimony
to prove the lack of affordability.
Although Caterpillar’s briefs are filled with this
unhelpful argument, it nonetheless cites the correct
legal standard—that is, whether Illinois or Tennessee
law governs this dispute, in order to recover for breach
of contract, a plaintiff must prove that that the breach
was the proximate cause of her damages. See FM
Indus., Inc. v. Citicorp Credit Servs., Inc., No. 07-1794,
2008 WL 717792, at *6 (N.D. Ill. Mar. 17, 2008) (“To
prevail on its breach of contract claim, [plaintiff] must
prove it suffered damages as a proximate result of

App. 63
[defendant’s] breach.” (applying Illinois law);
Underwood v. Nat’l Alarm Serv., Inc., No. E200600107-COA-R3CV, 2007 WL 1412040, at *5 (Tenn. Ct.
App. May 14, 2007) (“[A] plaintiff is entitled to recover
damages for breach of contract if defendant’s breach of
contract was the direct and proximate cause of the
damages which plaintiff allegedly sustained, without
the contributing fault of the plaintiff.”). Plaintiffs are
not required to prove they were unable to afford
Caterpillar’s premiums, much less provide “objective
proof” of this fact. They need only show that the
unlawfully imposed premiums were the proximate
cause of their termination of Caterpillar’s health
insurance.
Caterpillar next argues that it is not liable for these
eight surviving spouses’ damages because their
decision to cancel their Caterpillar insurance coverage
was not foreseeable to Caterpillar. See Am. Anodco,
Inc. v. Reynolds Metals Co., 743 F.2d 417, 424 (6th Cir.
1984). Caterpillar argues that the fact that only eight
surviving spouses cancelled their Caterpillar insurance
demonstrates that such a decision was unforeseeable
because the majority of class members did not react in
this manner. This argument is without merit and is not
supported by any of the cases cited by Caterpillar or by
any other retiree health-care cases reviewed by the
court. It was entirely foreseeable that imposing
premiums on a group of surviving spouses would result
in some individuals’ being unwilling or unable to pay
the premiums, thereby losing their only insurance or,
as was the case for some of the surviving spouses,

App. 64
losing their secondary insurance.3 The risk that the
surviving spouses would be unable to afford to pay
premiums for their insurance was created by
Caterpillar’s breach and must be borne by Caterpillar,
the defaulting party.
Caterpillar further argues that these eight
surviving spouses did not take any action to give the
company a reason to believe they would suffer such
consequential damages, such as contacting the
company to discuss their circumstances prior to
deciding to cancel their insurance or contacting the
company after cancelling their insurance but before
incurring additional expenses. Aside from the fact that
these plaintiffs were not legally required to take such
actions, this argument is entirely disingenuous. As the
court’s brief recitation of the facts above demonstrates,
surviving spouses quickly objected to Caterpillar’s
October 2005 letter indicating that, effective January
1, 2006, they would have to pay premiums to maintain
the health insurance the company had always
promised would be “without cost for life.” Perhaps
these particular eight surviving spouses did not notify
Caterpillar with their objections, but some surviving
spouses did object to Caterpillar’s announcement of its
impending unlawful action soon after receiving notice
of Caterpillar’s intention to breach its agreements.

3

The plaintiffs also argue that, out of about 570 class members,
only about 218 paid Caterpillar any premiums. After this lawsuit
was filed, Caterpillar “waived” the premiums of surviving spouses
whose retiree spouse died before January 10, 2005 and for some
surviving spouses who objected to the imposition of premiums.
Docket No. 430, at 16.

App. 65
Furthermore, by April 2006, this lawsuit was filed as a
class action to protect the rights of these plaintiffs
under the 1988 GIP. In February 2007, the plaintiffs
provided their answers to interrogatories, which
further clarified the categories of damages and types of
relief they were seeking. Almost nine years after the
filing of this lawsuit, and almost five years after this
court entered judgment for plaintiffs as to liability,
Caterpillar has yet to re-enroll these plaintiffs in the
premium-free health insurance coverage the company
promised to them and to their now-deceased spouses
and to which this court held years ago they had a
vested right.
III. Plaintiffs’ Evidence
Beverly Carson: After her husband’s death, Ms.
Carson made three monthly premium payments of
$182.27 per month before cancelling her coverage.
Caterpillar refunded her one month of coverage. She
testified that, after her husband died, her finances
were “crap.” Docket No. 399-2, at 9. She filed for
bankruptcy and went uninsured for over two years,
until she became eligible for Medicare.
Wilma Farrenholz: Caterpillar argues that Ms.
Farrenholz should not prevail on her claim for damages
because she testified that she switched to a different
insurance plan that gave her “better coverage for less
money.” Ms. Farrenholz has an adult disabled
dependent daughter. Ms. Farrenholz paid Caterpillar
premiums for herself and her daughter for about six
months. She testified that she “decided to switch
[insurance companies] because the premiums were

App. 66
going up, and I thought it was too much.” Docket No.
399-7, at 6.
Hattie Grace: Ms. Grace is eighty years old, has
Alzheimer’s, and lives in a nursing home. She no longer
recognizes her son or her daughter-in-law, Naomi
Grace, who serves as her power of attorney and was
deposed in this matter. Naomi Grace participated in
discussions with Hattie Grace about her decision to
terminate the Caterpillar insurance. Naomi Grace
testified that Hattie Grace felt that she could not
financially manage the premiums. After terminating
the Caterpillar coverage, Hattie Grace went on
Medicare and later Medicaid. Caterpillar argues that
Hattie Grace is not entitled to damages based on
Naomi Grace’s testimony that she had a discussion
with Hattie Grace about cancelling the Caterpillar
insurance, in which Hattie Grace had stated, “I don’t
use it, I don’t need it, I don’t want it.” According to
Caterpillar, this testimony undercuts the argument by
plaintiffs’ counsel that plaintiffs were forced to cancel
insurance because of the premiums. Viewing this
statement along with the rest of Naomi Grace’s
testimony, the court finds that there is no genuine
dispute that Hattie Grace terminated her Caterpillar
insurance because of the imposition of premiums.
Caterpillar further argues that judgment should not
be entered for Hattie Grace because her claim is only
supported by the inadmissible hearsay testimony of
Naomi Grace. Hattie Grace’s counsel points out that
the statements to which Naomi Grace testified are not
offered for the truth of the matter asserted, but only for
evidence about what Hattie Grace believed to be true

App. 67
and what her motivation was for terminating the
Caterpillar insurance. See Fed. R. Evid. 801(c)
(defining hearsay as an out-of-court statement offered
to prove the truth of the matter asserted).
Furthermore, even if the statement were introduced to
prove the truth of the matter, Ms. Grace’s counsel has
identified other hearsay exceptions that would apply to
this testimony.4
4

Federal Rule of Evidence 803 provides:
The following are not excluded by the rule against hearsay,
regardless of whether the declarant is available as a
witness: . . . (3) Then-Existing Mental, Emotional, or
Physical Condition. A statement of the declarant’s thenexisting state of mind (such as motive, intent, or plan) or
emotional, sensory, or physical condition (such as mental
feeling, pain, or bodily health), but not including a
statement of memory or belief to prove the fact
remembered or believed unless it relates to the validity or
terms of the declarant’s will.

Hattie Grace’s out-of-court statement about her motive, intent, and
plan to drop Caterpillar’s health care plan because of the
premiums would be admissible as a hearsay exception, even if
offered to prove the truth of the matter asserted.
Federal Rule of Evidence 807, the residual hearsay exception,
may also provide an avenue for admissibility of this evidence, as
all of the conditions of the exception appear to be satisfied:
(a) In General. Under the following circumstances, a
hearsay statement is not excluded by the rule against
hearsay even if the statement is not specifically covered by
a hearsay exception in Rule 803 or 804:
(1) the statement has equivalent circumstantial
guarantees of trustworthiness;
(2) it is offered as evidence of a material fact;

App. 68
Sharon Houser: Sharon Houser had health care
coverage under her own plan through her past
employment, which was her primary insurance. Her
husband’s Caterpillar policy was secondary. When
Caterpillar informed her it would begin charging her
$101 in premiums to maintain the Caterpillar
insurance, she immediately terminated the coverage
and lost the benefit of having dual coverage.
Laura Mansfield: By the time Caterpillar informed
Ms. Mansfield it would begin charging her $87 per
month in premiums, Ms. Mansfield had re-married.
Her new husband was also a Caterpillar retiree. She
remained eligible for Caterpillar’s insurance as a
surviving spouse of her first husband, despite her
remarriage. The cost of being covered under her new
spouse through Caterpillar was only $55 a month. She
testified that she changed coverage because of the
imposition of premiums. There is no genuine dispute
that the imposition of premiums caused Ms. Mansfield
to terminate her surviving-spouse coverage.

(3) it is more probative on the point for which it is
offered than any other evidence that the proponent can
obtain through reasonable efforts; and
(4) admitting it will best serve the purposes of these
rules and the interests of justice.
(b) Notice. The statement is admissible only if, before the
trial or hearing, the proponent gives an adverse party
reasonable notice of the intent to offer the statement and
its particulars, including the declarant’s name and
address, so that the party has a fair opportunity to meet it.

App. 69
Florence Miller: Ms. Miller had health-care
coverage under her own plan through her past
employment, which was her primary insurance. Her
husband’s Caterpillar policy was secondary. When
Caterpillar informed her she would have to pay $111
monthly to keep the Caterpillar insurance, she
immediately terminated it and lost any benefit from
having secondary insurance.
Charlotte Seibert: Ms. Seibert paid Caterpillar’s
premiums of $87 a month in 2006, $111 in 2007, and
$135.31 in 2008. At some point, she added coverage
from her former employer, for which she initially paid
about $20 a month and now pays almost $50 a month.
In August 2008, when she became eligible for Medicare,
she terminated her Caterpillar coverage to save money
on premiums. She believes the Caterpillar coverage is
better than what she has through her former employer
and Medicare. Ms. Seibert is the only one of these
plaintiffs Caterpillar has attempted to re-enroll. There
is some disagreement between the parties about
whether she is enrolled or not. Caterpillar states that
she declined an offer to re-enroll because she did not
want anything to affect her coverage from her former
employer. She states that Caterpillar re-enrolled her,
without premiums, effective January 1, 2014. In any
event, she maintains that she does want the coverage
from Caterpillar without premiums to which she is
legally entitled.
Nancy Virden: After Ms. Virden’s husband died, she
paid only one month of Caterpillar’s premium of
$182.27 for coverage in June 2009. She states that she
was unable to afford the premium. She has been

App. 70
uninsured since losing her Caterpillar coverage. She
has serious health conditions that require prescriptions
and regular medical care. Caterpillar objects to her
claim on the basis that she testified that, at the time
she stopped paying premiums for her Caterpillar
insurance, she would have been unable to afford copayments, deductibles, or anything else. Caterpillar
oversimplifies Ms. Virden’s testimony. She testified
that, at the time of her husband’s death, she had been
making co-payments for medical expenses connected to
her heart attack and her resulting prescription drugs.
When asked what portion of a prescription drug copayment she would be unable to make, she said, “[t]he
full amount of the prescription.” Docket No. 399-26, at
12. When asked the cost of the prescription to which
she was referring, she said it was around $180. When
asked if she would have been able to make copayments, she testified, “I’m not sure.” Id. Whether or
not Ms. Virden was certain that she would have been
able to continue making co-payments or deductibles is
not dispositive of this question. After reviewing her
deposition testimony, it is clear to the court that there
is no genuine dispute that Caterpillar’s imposition of
premiums was the proximate cause of Ms. Virden’s
decision to terminate her Caterpillar coverage and that
she had, in fact, been managing to pay her deductible
and co-payment amounts prior to terminating
insurance. See Entergy Ark., Inc. v. Nebraska, 226 F.
Supp. 2d 1047, 1153 (D. Neb. 2002) (“[Plaintiff] has
proven its damages with the requisite degree of
certainty . . . . The law does not allow [defendant] to
breach its contract, and thereby inject uncertainty into
the equation in order to create a defense to damages.”).

App. 71
The court finds no genuine dispute that
Caterpillar’s unlawful imposition of premiums was the
proximate cause for each of these women’s decision to
terminate Caterpillar’s insurance plan. Accordingly,
the court will enter judgment for each of these
plaintiffs. They are each entitled to be compensated for
the cost of replacement insurance, if any, and any outof-pocket expenses they would not have incurred,
absent Caterpillar’s breach of the 1988 GIP.
IV. Reinstatement of Caterpillar’s Insurance Plan
Almost five years have passed since the court
granted plaintiffs judgment as to Caterpillar’s liability
for violating their right to life-time, premium-free
health insurance pursuant to the 1988 GIP. Aside from
the obvious injustice of plaintiffs’ having endured nine
years without the premium-free health insurance that
they were promised and to which they are legally
entitled, the plaintiffs also argue that this remedy is
necessary to enable to the parties to calculate damages
according to the damages schedule and claims
procedure to which the parties have already agreed, as
these particular plaintiffs will continue to accrue
damages until their premium-free Caterpillar
insurance is restored. The court will grant plaintiffs’
request for an order directing Caterpillar to re-enroll
these eight plaintiffs to health insurance without
premiums, if not already re-enrolled, including the
disabled adult child of Wilma Farrenholz.
CONCLUSION
For the foregoing reasons, the court will grant the
motion of plaintiffs Beverly Carson, Wilma Farrenholz,

App. 72
Hattie Grace, Sharon Houser, Laura Mansfield,
Florence Miller, Charlotte Seibert, and Nancy Virden
for summary judgment. The court will enter judgment
for each of these plaintiffs and will order Caterpillar to
re-enroll each of them in its insurance plan without
premiums and in keeping with the terms of the 1988
GIP and the 1992 unilateral implementation.
An appropriate order will issue.
/s/Aleta A. Trauger
ALETA TRAUGER
UNITED STATES DISTRICT JUDGE

App. 73
UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3: 06-CV-1113
Judge Trauger
[Filed January 16, 2015]
_____________________________
JUDITH K. KERNS, et al.,
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
Defendant/
)
Third-Party Plaintiff,
)
)
v.
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
Third-Party Defendants. )
_____________________________ )
Order
This matter is before the court on cross motions for
summary judgment on the claims brought by eight
individual class members against Caterpillar, Inc.
Docket Nos. 385 (Caterpillar’s motion), 409 (Plaintiffs’
motion). For the reasons stated in the accompanying
Memorandum, judgment is entered for the following
plaintiffs: Beverly Carson, Wilma Farrenholz, Hattie
Grace, Sharon Houser, Laura Mansfield, Florence

App. 74
Miller, Charlotte Seibert, and Nancy Virden.
Caterpillar is also ordered to re-enroll these plaintiffs
in its insurance plan without premiums.
IT IS SO ORDERED. This Order is the final
judgment in this case. The Clerk shall close the file.
/s/Aleta A. Trauger
ALETA TRAUGER
UNITED STATES DISTRICT JUDGE

App. 75

APPENDIX H
UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3: 06-CV-1113
Judge Trauger
[Filed August 20, 2014]
_____________________________
JUDITH K. KERNS, et al.,
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
Defendant/
)
Third-Party Plaintiff,
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
Third-Party Defendants )
_____________________________ )
MEMORANDUM
This matter is before the court on Caterpillar’s
Motion for Summary Judgment on Damages Issues.
(Docket Nos. 387-38). This motion has three sections.
The first section seeks judgment for any claims raised
by surviving spouses who are themselves Caterpillar
employees. This section is moot, as plaintiffs’ class

App. 76
counsel have conceded these individuals are not Kerns
class members and have withdrawn claims for damages
or other relief sought on their behalf. The court
construes the second section as a motion to strike
plaintiffs’ claim for damages for replacement insurance
and out-of-pocket medical expenses. This portion of the
motion will be denied. The third section is a motion for
summary judgment on the claims raised by twelve
individuals that Caterpillar argues have not produced
sufficient evidence to withstand summary judgment.
This portion of the motion will be granted as to four
plaintiffs. As to the eight remaining plaintiffs, the court
will hold defendant’s motion in abeyance and invite
plaintiffs to file a cross motion for summary judgment
for those individuals.
RELEVANT FACTUAL AND PROCEDURAL
BACKGROUND
All that remains of this litigation is to determine
plaintiffs’ damages. Because the court has recounted
the factual and procedural history of this case
numerous times, familiarity with the facts will be
assumed. This case and Winnett v. Caterpillar (Case
No. 3:06-0235) are related but not consolidated cases.
By prior order dated March 26, 2010, this court granted
the UAW’s motions to dismiss Caterpillar’s Third-Party
Complaint against it in both Kerns and Winnett.
(Docket No. 263.) Subsequently, through a series of
decisions from this court and the Sixth Circuit, the
court dismissed the Winnett plaintiffs’ claims and
closed that case. (Docket No. 326-27.)
The Kerns plaintiffs are surviving spouses of former
employees of Caterpillar who retired on or after March

App. 77
16, 1998, and before January 10, 2005. The court has
already entered judgment as a matter of law for the
Kerns plaintiffs, finding Caterpillar liable for violations
of Section 301 of the Labor-Management Relations Act
(“LMRA”), 29 U.S.C. § 185, and Section 502(a)(1)(B) of
the Employee Retirement Income Security Act
(“ERISA”), 29 U.S.C. § 1132(a)(1)(B) for improperly
charging premiums to the class of individuals whose
spouses died after the ratification of the 2004 Labor
Agreement.1 (Docket No. 262-63.) The court found that
the 1992 unilateral implementation had explicitly
“provided surviving spouses with vested no cost
medical benefits.” (Docket No. 262.) The court found
that other costs Caterpillar had imposed on these
plaintiffs, such as new deductibles, co-insurance, and
increased out-of-pocket costs were permissible under
Reese v. CNH America LLC, 574 F.3d 315 (6th Cir.
2009).
ANALYSIS
The plaintiffs’ claims are brought under § 301 of the
LMRA and § 502(a)(1)(B) of ERISA. Section 301 of the
LMRA states: “[s]uits for violation of contracts between
an employer and a labor organization representing
employees in an industry affecting commerce as
defined in this chapter. . . may be brought in any
district court of the United States having jurisdiction
of the parties, without respect to the amount in
1

As the court has noted in prior opinions, while the Kerns class
consists only of “surviving spouses,” the size of this class may grow
in the future, as the living Caterpillar retirees who retired under
the 1998 Plan pass on. (Kerns, 499 F. Supp. 2d 1005, 1023 (M.D.
Tenn. 2007), Docket No. 262 at 39 n. 20.

App. 78
controversy or without regard to the citizenship of the
parties.” 29 U.S.C. § 185(a). Section 502(a)(1)(B) of
ERISA states that a “civil action may be brought by a
participant or beneficiary to recover benefits due to him
under the terms of his plan, to enforce his rights under
the terms of the plan, or to clarify his rights to future
benefits under the terms of the plan.” 29 U.S.C.
§ 1132(a)(1)(B).
Summary judgment standard
Federal Rule of Civil Procedure 56(c) requires the
court to grant a motion for summary judgment if “the
pleadings, the discovery and disclosure materials on
file, and any affidavits show that there is no genuine
issue as to any material fact and that the movant is
entitled to judgment as a matter of law.” If a moving
defendant shows that there is no genuine issue of
material fact as to at least one essential element of the
plaintiff’s claim, the burden shifts to the plaintiff to
provide evidence beyond the pleadings, “set[ting] forth
specific facts showing that there is a genuine issue for
trial.” Moldowan v. City of Warren, 578 F.3d 351, 374
(6th Cir. 2009); see also Celotex Corp. v. Catrett, 477
U.S. 317, 322-23 (1986). “In evaluating the evidence,
the court must draw all inferences in the light most
favorable to the [plaintiff].” Moldowan, 578 F.3d at 374.
“[T]he judge’s function is not . . . to weigh the
evidence and determine the truth of the matter, but to
determine whether there is a genuine issue for trial.”
Id. (quoting Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 249 (1986)). But “the mere existence of a scintilla
of evidence in support of the plaintiff’s position will be
insufficient,” and the plaintiff’s proof must be more

App. 79
than “merely colorable.” Anderson, 477 U.S. at 249,
252. An issue of fact is “genuine” only if a reasonable
jury could find for the plaintiff. Moldowan, 578 F.3d at
374 (citing Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986)).
I. Motion for Summary Judgment as to
Surviving Spouses Who Are Themselves
Caterpillar Employees
Caterpillar’s current motion for summary judgment
on damages first seeks judgment on the claims of
individuals who fall within the class definition in this
action, but who the Company maintains are not
entitled to damages because, although they are
surviving spouses of Caterpillar retirees, they are also
themselves Caterpillar employees entitled to their own
“employee coverage” under the Company’s health
insurance plan. (Docket No. 387-1.) In plaintiff’s
response, class counsel assert that they had asked
Caterpillar for information about this class of
employees, but only obtained the requested details
through reading Caterpillar’s motion. Having now
reviewed the information supplied by the motion, class
counsel concede that these individuals are not entitled
to relief on the basis of being a surviving spouse of a
Caterpillar retiree. Accordingly, class counsel withdraw
the claim that these individuals are Kerns class
members and all claims for damages or other relief

App. 80
sought on their behalf. (Id.)2 Any issue related to these
individuals is moot.
II. Motion to Strike Damages for Replacement
Insurance and Out-of-Pocket Medical
Expenses
A. Damages Available Under ERISA
Second, although Caterpillar concedes that
individuals who paid premiums to maintain their
Caterpillar health insurance are entitled to be
reimbursed for costs of those premiums, Caterpillar
now seeks summary judgment on the claims of twelve
class members who cancelled their Caterpillar
insurance because of the imposition of premiums and
now seek damages for the cost of obtaining substitute
coverage and reimbursement for out-of-pocket
healthcare costs that would have been covered if
Caterpillar had honored its agreement. Caterpillar
characterizes these damages as extra-contractual
consequential damages and asks this court to find that
these damages cannot be recovered under the LMRA or
ERISA. See Simpson v. Ernst & Young, 879 F.Supp.

2

Plaintiffs’ class counsel also represent that they are not currently
asserting damages claims for Karen Dechman, Minerva Evans
(deceased) and Lori Kroenlein based on Caterpillar’s recent
representation that these individuals are not class members and
that their deceased husbands were not retirees. Class counsel
indicate an intent to preserve the right to appeal class description
rulings, but they are not currently asserting damages claims on
behalf of these individuals. (Docket No. 395-1 at 2-3 (Plaintiffs’
brief)). In addition, class counsel indicate that they have removed
Marie Chester, Imogene Gleichman, and Mary Thomas from the
list of coverage termination issues. (Id. at 1 fn 2.)

App. 81
802, 825 (S.D. Ohio 1994) (“In the context of ERISA,
compensatory and punitive damages are often referred
to as extra-contractual damages, not being available
under the terms of a benefit plan.”).
Caterpillar quotes Mass. Mut. Life Ins. Co. v.
Russell, 473 U.S. 134 (1985), in which the Supreme
Court stated that
the statutory provision explicitly authorizing a
beneficiary to bring an action to enforce his
rights under the plan- §502(a)(1)(B) . . . says
nothing about the recovery of extra-contractual
damages, or about the possible consequences of
delay in the plan administrators’ processing of a
disputed claim. Thus, there really is nothing at
all in the statutory text to support the
conclusion that such a delay gives rise to a
private right of action for compensatory or
punitive relief.
Id. at 144. Although the language Caterpillar quotes
from Russell discusses the types of damages available
under §502(a)(1)(B), the Court’s holding in Russell
actually related to a different section of ERISA,
§ 1109(a). The Russell Court only discussed
§ 502(a)(1)(B) for the purpose of demonstrating that its
conclusion about the scope of damages available under
§ 1109(a) was “buttressed by the absence of any
provision for the recovery of extra-contractual damages
in § [502(a)(1)(B)]3. . . .” Int’l. Union UAW Local 91 v.
3

For uniformity and ease of comprehension, the court will
substitute the section numbers for ERISA when quoting cases that
cite instead the United States Code section number.

App. 82
Park-Ohio Indus., Inc., 876 F.2d 894, 1989 WL 63871
at *6 (6th Cir. 1989) (unpublished). The Sixth Circuit
explained in its unpublished Park Ohio decision:
Although the Supreme Court expressly limited
its opinion to consideration of § 1109(a) and
§ [502(a)(2)], several circuits have extended the
reasoning of Russell to preclude extracontractual damages in cases brought under
other subsections of § [502(a)]. . . . [W]e find
Russell controlling and join the other circuits
which have held that the language and
structure, as well as the legislative history, of
§ [502] prohibit the allowance of such
damages. . . . Accordingly, we affirm the district
court’s holding that extra-contractual
compensatory damages are not available in
actions under §§ [502(a)(1)(B)] or [502(a)(3)] of
ERISA.”
Id. at *7 (citations omitted).
The circuit cases cited by Park-Ohio in arriving at
its holding related to the damages available under
Section 502(a)(1)(B), including one from the Sixth
Circuit, were based on claims raised under Section
502(a)(3), without any discussion of the differences
between these two provisions. Plaintiffs argue that
several of the cases cited by Caterpillar also blur the
distinction between these two provisions. Plaintiffs
argue that the Supreme Court’s ruling in Great-West
Life & Annuity Ins. Co. v. Knudson, 534 U.S. 204
(2002) clarified that §502(a)(1)(B) provides both legal
and equitable remedies, unlike §502(a)(3). Plaintiffs
quote the following section of Knudson:

App. 83
In the very same section of ERISA as § 502(a)(3),
Congress authorized “a participant or
beneficiary” to bring a civil action “to enforce his
rights under the terms of the plan,” without
reference to whether the relief sought is legal or
equitable. 29 U.S.C. § 1132(a)(1)(B) (1194 ed.).
But Congress did not extend the same
authorization to fiduciaries. Rather, § 502(a)(3),
by its terms, only allows for equitable relief.
534 U.S. at 220-21 (emphasis in original). The plaintiffs
argue that the point of this comparison is that, unlike
Section 502(a)(1)(B), Section 502(a)(3) does not
authorize legal relief. Caterpillar counters that the
plaintiffs’ articulation of the issue as legal versus
equitable remedies is a red herring, because the real
issue is that their claim for extra-contractual
consequential damages should be dismissed because
they are not “benefits due under the terms of the plan.”
They further argue that Knudson was a case about
§ 502(a)(3) and that the language quoted by plaintiffs
is dicta.
Because the court finds that the damages the
plaintiffs seek are available under the LMRA, it does
not reach the issue of their availability under ERISA.
B. Damages Available Under the LMRA
1. Preemption
Caterpillar argues that numerous courts have held
that, in a hybrid ERISA/Section 301 case, a plaintiff
may not circumvent the statutory scheme set forth in
ERISA by recovering extra-contractual damages under
the LMRA, when those damages are unavailable under

App. 84
ERISA. The parties cite district court opinions that
reach opposite holdings on this issue. Caterpillar relies
heavily on Gilbert v. Doehler-Jarvis, Inc., 137 F.Supp.
2d 916 (N.D. Ohio 2001), vacated as moot, 2004 WL
2848545 (6th Cir. 2004) (finding appeal moot because
company entered bankruptcy). Gilbert involved retirees
seeking to establish that their healthcare benefits were
lifetime benefits that could not be terminated by their
employer. The Gilbert plaintiffs raised their claims
under § 502(a)(3) of ERISA (not §502(a)(1)(B)) which is
the basis of the Kerns’ plaintiffs’ claims) and Section
301 of the LMRA. They sought compensation for the
amounts they expended in seeking replacement
insurance. After determining that the extra-contractual
damages sought by plaintiffs were unavailable under
ERISA, the Gilbert court held that “[t]he Retiree’s
action is, at its heart, an ERISA action. The fact that
they chose to bring their action under § 301 as well as
ERISA does not allow them to recover extracontractual
damages that would not be available to them under
ERISA.” Id at 919.
For this proposition, Gilbert cited Ragan v. Navistar
Int’l Transp. Corp., No. 88-2623, 1989 WL 117486 (D.
Kan. September 20, 1989), an unpublished district
court opinion that held that, “to allow these [extracontractual] damages under § 301 of the LMRA, as
plaintiff suggests, for a claim based on a health
benefits plan would constitute an inappropriate
‘backdoor’ means to an end which ERISA does not
allow.” Id. at *2.
Ragan, in turn, cites United Steelworkers of
America v. Connors Steel Co., 855 F.2d 1499 (11th

App. 85
Cir.1988), in which the Eleventh Circuit held that
extra-contractual damages were not recoverable under
§ 502(a)(3) of ERISA or Section 301 of the LMRA. Id. at
1509-10. Connors based its decision on the Supreme
Court’s holding in Pilot Life Ins. Co. v. Dedeaux, 481
U.S. 41 (1987), which held that ERISA pre-empts state
law claims related to failure to properly administer a
plan. Connors extended Dedeaux to hold that ERISA
also pre-empts claims under Section 301 of the LMRA.
Connors, 855 F.2d at 1509.
Caterpillar also cites Stewart v. KHD Deutz of
America Corp., 75 F.3d 1522 (11th Cir. 1996), a case
which held that plaintiffs were entitled to a jury trial
in a LMRA case and in hybrid LMRA/ERISA cases. In
dicta, Stewart repeated the Connors holding that, “if
the retirees sought extracontractual damages under
section 301 of the LMRA in a LMRA/ERISA action,
their 301 claim would be barred.” Id. at 1528.
Finally, Caterpillar cites Zielinski v. Pabst Brewing
Co, 360 F. Supp. 2d 908 (E.D. Wis. 2005), which held
that permitting emotional distress damages under
§ 301 “would allow plaintiffs to do an impermissible
‘end-run’ around the restrictions of ERISA,” Id. at 924.
Zielinski cites for this proposition Connors, Gilbert,
Ragan, an unpublished opinion from the Western
District of New York (LaForest v. Honeywell Int’l, Inc.,
No. 03-6248, 2004 WL 1925490, at *9 (W.D.N.Y.
Aug.27, 2004)), and Stewart. It is also important to
note that the plaintiff retirees in Zielinski did not
argue that damages for the premiums paid for
replacement insurance were “available under the
LMRA in a hybrid ERISA/LMRA action,” and as a

App. 86
result, the court found that the retirees had “implicitly
conceded that damages for premiums paid for
replacement insurance are not available under the
LMRA.” Zielinski, 360 F. Supp. at 923.
The court declines to follow this line of cases as
urged by Caterpillar. These cases build one on top of
another based on the holdings in unpublished and
vacated district court opinions and an Eleventh Circuit
opinion that appears not to be in keeping with the
language of the ERISA statute or with Sixth Circuit
jurisprudence on this topic. First, as the plaintiffs
correctly assert, in enacting ERISA, Congress was clear
that it did not intend to modify or preempt any existing
federal law, which would include the law developed
under § 301 of the LMRA. ERISA provides at 29 U.S.C.
§ 1144(d): “Nothing in this title shall be construed to
alter, amend, modify, invalidate, impair or supersede
any law of the United States. . . or any rule or
regulation issued under any such law.” In keeping with
the text of the statute, the Sixth Circuit has held that
the “preemption provision of ERISA, 29 U.S.C. § 1144,
preempts state law but does not supersede the federal
common law of labor-management relations.” Morse v.
Adams, 857 F.2d 339 (6th Cir. 1998) (citations
omitted).
There are numerous Sixth Circuit cases that
analyze claims under ERISA and the LMRA, including
prior orders from this court in this matter. For
example, in Armistead v. Vernitron Corp., 944 F.2d
1287 (6th Cir. 1991), the court held that a breach of a
collective bargaining agreement’s provisions for vested
retirement benefits constituted a “breach of contract

App. 87
under LMRA § 301,” and, because the collective
bargaining agreement (“CBA”) was a benefits plan
under ERISA, necessarily “was also a violation of
ERISA.” Id. at 1298. The court agrees with the
plaintiffs’ characterization that the Armistead court
treated the ERISA claim as derivative, or secondary to,
the LMRA claim.
In determining the accrual date of a § 301 cause of
action for nonpayment of retiree benefits, the Sixth
Circuit held the following:
[W]e now turn to the issue of whether 29 U.S.C.
§ 1001 et seq. (ERISA) provides the exclusive
remedy for plaintiffs. All parties assert that
ERISA does not preempt the § 301 action and
that an action could be maintained under either
statute or both simultaneously. We agree. The
court’s decisions make it clear that such an
action may be brought under ERISA . . . or
under § 301. . . or both statutes
simultaneously. . . . Accordingly, we conclude
that ERISA is not the exclusive remedy and that
the plaintiffs may maintain an action under
§ 301.
Biros v. Spaulding-Evenflo Co. Inc., 934 F.2d 740, 742
(6th Cir. 1991) (citations omitted). The court then
analyzed the case under Section 301 to determine the
accrual date of the action.
In a case involving a dispute over whether the
plaintiffs had a right to a jury trial in a hybrid
ERISA/LMRA claim, the Sixth Circuit reaffirmed its
holding in Biros:

App. 88
The district court also concluded, erroneously,
that the plaintiffs’ case is controlled by ERISA
§ 502(a)(1)(B) under which we have held that
there is no right to a jury trial. . . . In their briefs
to this court, the parties devote considerable
space to arguing the question of whether ERISA
preempts the LMRA and the common law of
contracts, and, if so, whether a jury trial is
allowed under ERISA. We do not address this
argument any further because we have stated
quite clearly in prior decisions that plaintiffs
may, under some circumstances, bring claims for
retirement benefits under either ERISA or the
LMRA, or under both statutes simultaneously.
E.g., Biros v. Spalding–Evenflo Co., 934 F.2d
740, 742 (6th Cir.1991).
Golden v. Kelsey-Hayes Co., 73 F.3d 648, 659 n.11 (6th
Cir. 1996).
Thus, in keeping with the plain language of ERISA
and with Sixth Circuit precedent, this court finds that
ERISA is not the exclusive avenue for relief in a hybrid
ERISA/LMRA case.
2. The Merits of the LMRA Claim
The court turns to the LMRA to determine whether
Caterpillar is liable for the surviving spouses’ costs in
purchasing replacement insurance and other medical
costs they would not have incurred if Caterpillar had
honored its agreement. In UAW v. Yard-Man, 716 F.2d
1476 (6th Cir. 1983), the Sixth Circuit considered
claims by retirees that their employer had breached the
collective bargaining agreement by terminating life and

App. 89
health insurance benefits of retired employees when
the CBA expired and substituting the payment of
“lump sum payments of the present value of the
supplemental pension rights directly to each retiree.”
Id. at 1478. In determining whether the parties
intended for retiree insurance benefits to continue
beyond the expiration of the CBA, the court analyzed
the issue under § 301:
The enforcement and interpretation of collective
bargaining agreements under § 301 is governed
by substantive federal law. Textile Workers
Union v. Lincoln Mills, 353 U.S. 448, 456 (1957).
However, traditional rules for contractual
interpretation are applied as long as their
application is consistent with federal labor
policies. Id. at 457, 77 S.Ct. at 918.
Id. at 1479.
“In cases alleging violations of the LMRA, courts
have held that the purpose of any award ‘is to make
employees whole for the losses suffered.’” UAW Local
540 v. Baretz, 159 F.Supp.2d 968, 972 (E.D. Mich.
2001) (quoting Aguinaga v. United Food and
Commercial Workers Int’l Union, 720 F.Supp. 862, 870
(D.Kan. 1989)). Accordingly, when a court finds that an
employer breached its CBA with its employees, it
“should attempt to fashion a remedy that will place the
employees in the position they would have attained had
the agreement been performed.” Id. at 973 (citing Int’l
Bhd. of Elec. Workers v. A-1 Elec. Servs., Inc., 535 F.2d
1, 4 (10th Cir.1979)).

App. 90
The court finds that Caterpillar must compensate
the surviving spouses for the costs of substitute
insurance coverage and any out-of-pocket expenses that
they would not have incurred but for Caterpillar’s
violation of their agreement. See Baretz, 159 F.
Supp.2d at 973-75 (requiring employer to pay costs of
replacement insurance and out-of-pocket medical
expenses); Yolton v. El Paso Tennessee Pipeline Co,
2008 WL 275685 (E.D. Mich. 2008) (same result, also
in a hybrid ERISA/LMRA case). The court agrees with
the court in Yolton, which, in holding that the company
was responsible for the costs of substitute insurance
and out-of-pocket expenses, found that “[a]ny other
result would be inequitable, as an employer could
terminate retiree health insurance coverage and
completely avoid paying the costs of that coverage for
the months or even years that it takes to litigate
whether the retirees are entitled to have their coverage
reinstated.” Id. at *4.
III.

Motion for Summary
Individual Claims

Judgment

on

A. Plaintiffs Who Did not Provide Deposition
Testimony
Of the plaintiffs at issue in Caterpillar’s motion for
summary judgment, the court’s rulings leave twelve
surviving spouses who seek to be reimbursed for the
cost of replacement insurance and out-of-pocket
expenses. These surviving spouses were asked to
complete a questionnaire created by the attorneys to
determine their damages and their reasons for
terminating their Caterpillar insurance. Caterpillar
also sought to depose these twelve individuals. The

App. 91
court grants Caterpillar’s motion for summary
judgment as to the claims of Jewlee Gulley, Viola
Spencer, and Jeannette Street because these
individuals were not produced for depositions nor did
they submit completed questionnaires. Because these
individuals have produced no evidence in response to
Caterpillar’s motion for summary judgment, their
claims will be dismissed.
Josefina Ramirez submitted a questionnaire, which
has her name on the signature line at the end of the
form and is dated January 21, 2014, but she has not
been deposed. Class counsel represent that she may
spend time in Mexico, as her birth certificate and
marriage certificate are both from Mexico. (Docket No.
399 #19, Exhibit 45). The questionnaire, which appears
to have been completed by Ms. Ramirez, indicates that
she terminated her Caterpillar insurance because the
monthly premium was “too much premium to pay.”
However, the court agrees with Caterpillar’s objection
that the questionnaire is inadmissible hearsay, and as
a result will grant the motion for summary judgment
on her claim. See Smoot v. United Transp. Union, 246
F.3d 633, 649 (6th Cir. 2001) (“‘[I]t is well settled that
only admissible evidence may be considered by the trial
court in ruling on a motion for summary judgment.’”)
(quoting Wiley v. United States, 20 F.3d 222, 226 (6th
Cir.1994)).
Hattie Grace did not herself testify but did provide
deposition testimony from an individual who has her
power of attorney. Her claim will be addressed below.

App. 92
B. Plaintiffs Who Presented Evidence That
They Obtained Replacement Insurance
Because of Caterpillar’s Imposition of
Premiums
There remain eight surviving spouses seeking
damages for replacement insurance and out-of-pocket
expenses-- Beverly Carson, Wilma Farrenholz, Hattie
Grace, Sharon Houser, Laura Mansfield, Florence
Miller, Charlotte Seibert, and Nancy Virden. It is likely
that these plaintiffs’ claims can be resolved on
summary judgment, but the court only has before it
Caterpillar’s motion for summary judgment. In the
interest of judicial economy, the court invites these
eight remaining plaintiffs to file a motion for summary
judgment so the court can properly consider whether
there is a dispute as to a genuine issue of material fact.
The court will rule on certain of Caterpillar’s
arguments as to these individuals to narrow the issues
for future briefing. First, Caterpillar argues the court
should grant summary judgment on the claims of
surviving spouses who indicated on the written
questionnaires and in deposition testimony that the
imposition of premiums was the cause for their
terminating Caterpillar’s insurance. Caterpillar argues
that their assertions are not sufficient to satisfy their
burden of proof that Caterpillar’s imposition of
premiums was the proximate cause of the termination
of insurance, as opposed to other costs the court held
were permissible or because of other reasons unrelated
to costs. Apparently seizing on the language used by
many of these surviving spouses that they terminated
their Caterpillar insurance because they could no

App. 93
longer afford it once the premiums were imposed,
Caterpillar argues that in response to its motion for
summary judgment, these plaintiffs’ were obligated to
present proof that before canceling their Caterpillar
insurance, they took steps to determine whether
Caterpillar had “alternative plan options or elections
available at lower cost,” or met with a financial advisor
to determine whether maintaining the insurance was
financially feasible. (Docket 387-1 at 15.)
Thus, Caterpillar seems to believe that some sort of
“objective” proof that the surviving spouses could not
afford the unlawful Caterpillar premium is required to
demonstrate proximate cause. Plaintiffs’ class counsel
represent that through the course of limited discovery
on the issue of causation only, the parties narrowed
down the initial list from sixty-two potential
individuals to the current list. (Docket 395-1 at 24.)
Clearly, many plaintiffs did not indicate that the
imposition of premiums was the proximate cause of
their terminating Caterpillar’s insurance and incurring
damages. Only the plaintiffs who offered testimony
that the premiums were the proximate cause of their
decision are at issue here. The court is unaware of, and
Caterpillar did not cite any, authority for its positions
that (1) plaintiffs must provide proof of lack of
affordability as opposed to proof that the imposition of
premiums was the proximate cause of their
terminating Caterpillar’s insurance, or (2) that
plaintiffs’ testimony as to the cause of their
terminating Caterpillar’s insurance is not sufficient to
withstand summary judgment. It would seem to the
court that whether Caterpillar’s unlawfully imposed
premiums were “affordable” or not, the plaintiffs, as

App. 94
rational actors in the marketplace, would be entitled to
mitigate their damages by seeking and obtaining lower
cost insurance or deciding to go without insurance. In
the parties’ subsequent briefs, the court requests that
the parties address these legal questions and support
their positions with legal authority.
Second, Caterpillar argues that the surviving
spouses did not mitigate their damages. As an initial
matter, mitigation of damages is an affirmative
defense, which Caterpillar did not raise in its Answer
to plaintiffs’ Complaint. In fact, this court explicitly
held in its summary judgment order filed March 26,
2010 that “[t]he court has concluded that lifetime
benefits vested for the Kerns class and Caterpillar has
no viable affirmative defenses.” (Docket No. 262 at 39.)
At this late date, Caterpillar has waived this defense.
Even if it had not been waived, the court finds the
argument to be without merit. These surviving
spouses, faced with the company’s unlawful imposition
of premiums that they have testified they could not
afford, did indeed mitigate their damages by obtaining
less expensive insurance. Caterpillar offers no
suggestion as to how these individuals should have
mitigated their damages instead of obtaining lower cost
insurance. Had an individual continued paying
premiums and as a result been forced to declare
bankruptcy or to face foreclosure on a home or any
other of a myriad of financial woes that might have
befallen her, Caterpillar likely would have objected
that the individual should have mitigated her damages
by obtaining replacement insurance at lower cost.

App. 95
As it is, at least one of these plaintiffs, Ms. Beverly
Carson, managed to pay only three months of
premiums after the death of her husband, then stopped
making the payments, declared bankruptcy, and went
uninsured until becoming eligible for Medicare more
than two years later. (Ex. 1, 27-28). That Ms. Carson
had to declare bankruptcy and then continue to be
uninsured for lack of ability to pay a monthly premium
of $182.27 demonstrates her financial vulnerability.
Plaintiff Nancy Virden only managed to pay the
premium one month after the death of her husband.
This year, she applied for Medicaid after a period of
being without insurance, and she has health conditions
that require prescriptions and regular medical care.
(Ex. 1, 51-53). Caterpillar cites Grothen v. Marshall
Field & Co, 625 N.E.2d 343, 347 (Ill. App. 1 Dist. 1993)
for the proposition that, under Illinois law, the doctrine
of mitigation of damages “imposes a duty upon the
injured party to exercise reasonable diligence and
ordinary care in attempting to minimize the damages
after injury has been inflicted.” The court finds that
these plaintiffs, who obtained less expensive insurance
or went uninsured, mitigated their damages the best
they could given their financial situations.
1. Plaintiff Seeking Cost of Replacement
Insurance for Adult Disabled Child
Wilma Farrenholz has submitted a questionnaire,
supporting documentation, and was deposed.
Caterpillar’s motion for summary judgment on her
claim will be denied. At the time Caterpillar imposed a
premium on Ms. Farrenholz, her adult disabled child
was also on the policy, and, because of the imposition

App. 96
of premiums, she canceled her Caterpillar policy and
contracted for less expensive insurance coverage for
herself and her adult dependent child. Caterpillar
objects that the child cannot recover damages in her
own right because she is not a member of the class and
that Ms. Farrenholz cannot recover for her because Ms.
Farrenholz’s claims are based on her status as a
surviving spouse, not based on coverage for dependents
of a surviving spouse.
The court disagrees. Under the 1992 unilateral
implementation, Ms. Farrenholz was entitled to
premium-free insurance coverage for herself and her
dependent adult child. Caterpillar is liable for the
amounts Ms. Farrenholz expended for replacement
insurance for herself and her dependent child as well
as out-of-pocket expenses for both individuals that
would have been covered under the agreement. This
result is necessary in order to provide Ms. Farrenholz
with a remedy that will put her “in the position [she]
would have attained had the agreement been
performed.” Baretz, 159 F.Supp.2d at 973.
2. Plaintiff With Alzheimer’s Disease
Last, the court turns to Hattie Grace, who could not
be deposed because she has Alzheimer’s and does not
even recognize her family members. Her daughter-inlaw, Naomi Grace, who has Hattie Grace’s power of
attorney, submitted a questionnaire and was deposed.
She testified that she had conversations with Hattie
Grace before she was diagnosed with Alzheimer’s that
led to the decision to terminate the Caterpillar
coverage because the premiums were no longer
affordable. Caterpillar objects that Naomi Grace’s

App. 97
testimony would be inadmissible hearsay and that,
without Hattie Grace testifying, she cannot
substantiate her claim. Class counsel may have an
evidentiary argument that would allow Naomi Grace to
testify to what Hattie Grace told her. Further, Naomi
Grace’s testimony indicates that she herself was an
integral part of the decision-making on the issue of
terminating the Caterpillar insurance, and she could
certainly testify to her personal knowledge about this
matter.
Caterpillar’s motion for judgment against these
eight plaintiffs will be held in abeyance. The court
would find it helpful for these eight plaintiffs to file a
motion for summary judgment pursuant to Rule 56(c).4
Having ruled that these eight plaintiffs are entitled to
damages for replacement insurance and out-of-pocket
expenses they would not have incurred if Caterpillar
had honored its agreement with them, it appears to the
court that there may not be a genuine dispute that
Caterpillar’s breach of its agreement was the proximate
cause of their incurring these damages. As indicated,
the court would find it helpful for the parties to brief
the issue of whether plaintiffs must prove that
Caterpillar’s premiums were not “affordable” in some
objective sense and, if so, what evidence they must
present to establish that fact. Conversely, if plaintiffs
4

Rule 56(f) provides, “[a]fter giving notice and a reasonable time
to respond, the court may: . .. . (3) consider summary judgment on
its own after identifying for the parties material facts that may not
be genuinely in dispute.” The Advisory Committee Notes on the
2010 Amendments suggest, “[i]n many cases, it may prove useful
first to invite a motion; the invited motion will automatically
trigger he regular procedure of subdivision (c).”

App. 98
are not required to prove they could not “afford” the
insurance and, instead, need only provide evidence that
the imposition of premiums was the proximate cause of
their discontinuing their Caterpillar insurance, the
court would also find it helpful for the parties to brief
whether any evidence other than plaintiffs’ testimony
is necessary to prove that the imposition of premiums
was the proximate cause. If there are any other
genuine disputes of material fact that would preclude
summary judgment for these eight plaintiffs in light of
the court’s rulings, the parties should obviously
identify those as well.
CONCLUSION
For the foregoing reasons, the Court will deny
Caterpillar’s motion for summary judgment in part and
grant it in part. The portion of its motion that relates
to surviving spouses who were themselves Caterpillar
employees is moot, as class counsel has withdrawn
those claims. The portion of its motion the court
construes as a motion to strike certain damages will be
denied. Under Section 301 of the LMRA, Caterpillar is
liable for the cost of replacement insurance and out-ofpocket expenses that would not have been incurred if
it had honored the 1992 unilateral implementation for
the surviving spouse plaintiffs who obtained
alternative insurance or became uninsured. The
portion of Caterpillar’s motion that requests judgment
against Caterpillar’s motion for summary judgment
against Jewlee Gulley, Viola Spencer, Jeannette Street,
and Josefina Ramirez is granted because these
individuals have produced no admissible evidence
demonstrating their damages or reasons for

App. 99
terminating their Caterpillar insurance. Caterpillar’s
motion requesting judgment against Beverly Carson,
Sharon Houser, Laura Mansfield, Florence Miller,
Charlotte Seibert, Nancy Virden, Wilma Farrenholz,
and Hattie Grace will be held in abeyance to be
considered as a cross motion for summary judgment
upon these plaintiffs’ filing of a summary judgment
motion as the court has requested.
An appropriate order shall issue.
/s/Aleta A. Trauger
ALETA TRAUGER
UNITED STATES DISTRICT JUDGE

App. 100
UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-CV-1113
Judge Trauger
[Filed August 20, 2014]
_____________________________
JUDITH K. KERNS, et al.,
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
Defendant/
)
Third-Party Plaintiff,
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
Third-Party Defendants. )
_____________________________ )
Order
This matter is before the court on Caterpillar’s
Motion for Summary Judgment on Damages Issues.
(Docket No. 387). For the reasons articulated in the
accompanying Memorandum, the court rules as follows:
The portion of Caterpillar’s motion that relates to
surviving spouses who were themselves Caterpillar
employees is moot, as plaintiffs’ class counsel have
withdrawn those claims.

App. 101
The portion of Caterpillar’s motion the court
construes as a motion to strike certain damages is
DENIED. Under Section 301 of the LMRA, Caterpillar
is liable for the cost of replacement insurance and outof-pocket expenses incurred by plaintiffs who obtained
alternative insurance or became uninsured because
Caterpillar breached the 1992 unilateral
implementation.
The portion of Caterpillar’s motion that requests
judgment on the claims of Jewlee Gulley, Viola
Spencer, Jeannette Street, and Josefina Ramirez is
GRANTED because these individuals have produced no
admissible evidence demonstrating their damages or
reasons for terminating their Caterpillar insurance.
The portion of Caterpillar’s motion that requests
judgment against Beverly Carson, Sharon Houser,
Laura Mansfield, Florence Miller, Charlotte Seibert,
Nancy Virden, Wilma Farrenholz, and Hattie Grace
will be held in abeyance. The court requests these eight
plaintiffs to file a motion for summary judgment as to
these eight individuals within twenty days. Upon the
filing of that motion, the court will consider the cross
motions to determine whether summary judgment is
appropriate for these remaining individuals’ claims. If
plaintiffs do not file for summary judgment within
twenty days, the court will issue an order pursuant to
Rule 56(f)(3) to provide the parties with notice and a
reasonable time to respond to the court’s intention to
consider summary judgment independent of a motion.
IT IS SO ORDERED.

App. 102
/s/Aleta A. Trauger
ALETA TRAUGER
UNITED STATES DISTRICT JUDGE

App. 103

APPENDIX I
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-0235
Judge Trauger
[Filed January 12, 2011]
__________________________
GARY T. WINNETT, et al., )
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
)
Defendant,
)
__________________________ )
Case No. 3:06-1113
Judge Trauger
__________________________
JUDITH K. KERNS, et al., )
)
Plaintiffs,
)
)
v.
)

App. 104
CATERPILLAR INC.,

)
)
Defendant.
)
__________________________ )
MEMORANDUM
These are two related, but not consolidated, cases.
As with the court’s March 26, 2010 ruling on the crossmotions for summary judgment in these cases, it is in
the interest of judicial economy to address the pending
motions in these two cases in one opinion. In each case,
pending before the court is a Motion for
Reconsideration filed by the defendant Caterpillar, Inc.
(Winnett Docket No. 475; Kerns Docket No. 266). These
motions have been fully briefed. For the reasons
discussed herein, Caterpillar’s motion will be granted
in Winnett but denied in Kerns.
RELEVANT FACTUAL AND PROCEDURAL
BACKGROUND
The court has recounted the factual and procedural
history of these cases numerous times – most recently
in the March 26, 2010 Memorandum that ruled on the
parties’ cross-motions for summary judgment – and,
therefore, some familiarity with the facts will be
assumed. (See Winnett Docket No. 463.)
Again, in these class actions the plaintiffs claim
that Caterpillar – as their (or their spouse’s) former
employer – breached its promise (embodied in collective
bargaining agreements and related documents) to
provide “lifetime cost-free retiree health care.” (Docket
No. 470 at 2.) Through a series of decisions from this
court and the Sixth Circuit, the number of plaintiffs

App. 105
and claims have been whittled down and substantial
conclusions regarding Caterpillar’s liability have been
reached.
Indeed, following the court’s March 26, 2010
opinion, three groups of plaintiffs remained, all of
whom, the court concluded, had established that
Caterpillar had violated (or would violate) federal law
in charging them premiums for their health care:
(1) in Winnett, the Caterpillar Logistics Services, or
“CLS,” subclass. These employees, who retired from
Caterpillar between January 1, 1992 and March 16,
1998, provided distinct “warehousing and product
distribution services to third parties” and, pursuant to
a distinct “CLS” Agreement, retired under the extended
terms of the 1988 CBA and related documents, which
guaranteed retiree health care “without cost.” (Id. at 23.)
(2) in Winnett, the surviving spouses of Caterpillar
employees who retired between January 1, 1992 and
March 16, 1998. In the summary judgment
Memorandum, the court concluded that, at the time of
their spouses’ retirement, this subclass acquired a
vested right to “no cost,” or premium-free, health
coverage (Docket No. 463 at 16, 33); and
(3) in Kerns, the surviving spouses of Caterpillar
employees who retired between March 16, 1998 and
January 10, 2005. (Id. at 19.) Again, in the summary
judgment Memorandum, the court concluded that, at
the time of their spouses’ retirement, this class
acquired a vested right to “no cost,” or premium-free,
health coverage. (Id. at 40-41.)

App. 106
Indeed, the court concluded the March 26, 2010
Memorandum as follows:
All liability issues between the parties (other than
the UAW’s counterclaims against Caterpillar) are
resolved by this opinion.
The Winnett plaintiffs are entitled to judgment as a
matter of law on their remaining ERISA and LMRA
claims as to the CLS subclass and the “surviving
spouse” subclass, with potential damages having
been incurred as to both of those subclasses due to
Caterpillar’s charging of premiums (but only
premiums) to those subclasses as described above.
Caterpillar is entitled to summary judgment on the
other remaining claims in Winnett, and the court,
through the attached Order, will amend the
preliminary injunction entered earlier to reflect
this.
The Kerns plaintiffs are entitled to judgment as a
matter of law on their remaining ERISA and LMRA
claims, as the court finds that it was and would be
improper for Caterpillar to charge premiums (but
only premiums) to this class as described above, and
potential damages have been incurred by this class
to the extent that Caterpillar has charged
premiums to certain members of this class, that is,
those whose spouses died after the ratification of
the 2004 Labor Agreement. Caterpillar is entitled to
summary judgment on the other aspects of the
plaintiffs’ claims in Kerns. (Id. at 47-48.)
Still pending at the time of the court’s March 26,
2010 Memorandum was the defendant’s October 16,

App. 107
2008 appeal of the court’s Order granting the CLS
subclass’s Motion for Preliminary Injunction in
Winnett. (Docket No. 310.) On June 22, 2010, while the
parties were engaged in seemingly productive damages
discovery following the court’s March 26, 2010 opinion
(Winnett Docket No. 469), the Sixth Circuit ruled on
Caterpillar’s appeal. (Winnett Docket No. 470.)
In that opinion, the Sixth Circuit concluded that the
claims of the CLS subclass should be dismissed because
they are barred by the statute of limitations. (Id. at 2.)
It has been well-settled in this litigation that, if the
plaintiffs had sufficient notice of their claims six years
prior to the date of filing suit (Winnett March 28, 2006
and Kerns April 13, 2006), their claims are time-barred.
This court repeatedly rejected Caterpillar’s
arguments that the claims in these cases were barred
by the six-year statute of limitations, most recently in
the March 26, 2010 Memorandum. (Winnett Docket No.
463 at 25.) In ruling on the issue at the preliminary
injunction stage in Winnett, the court focused on when
health care for CLS retirees ceased to be “no cost,” with
an eye toward Caterpillar’s threatened imposition of
caps on the retiree healthcare premiums that it would
pay. 579 F. Supp.2d at 1040. That is, while, in 1992,
Caterpillar began raising the notion that caps on
coverage might be imposed at some future time,
Caterpillar’s language was “indefinite and uncertain”
until October 2004, when it started directly deducting
health care premium charges from CLS retirees’
pensions. Id.
As to the CLS subclass, while the court recognized
that class members, as early as the 1998 CBA, had

App. 108
been subject to (and accepted) the imposition of a
managed care Network and certain other medical costs,
the court viewed these changes as “minor” and
insufficient to “start the clock” on the plaintiff’s claims
that Caterpillar was breaching its promise – embodied
in the 1988 CBA – to lifetime cost-free health care. (Id.
at 1041; see also Winnett Docket No. 470 at 5.) In ruling
on the cross motions for summary judgment, the court
viewed the statute of limitations issue – in both
Winnett and Kerns – as largely resolved by the court’s
previous rulings and noted a lack of new evidence or
authority suggesting that the court should depart from
its settled conclusion on the statute of limitations issue.
(Docket No. 463 at 25, 37.)
The Sixth Circuit viewed the statute of limitations
issue from a somewhat different perspective than this
court. The Sixth Circuit started from the basic premise
that, “in the context of this contractual claim – the
refusal to honor a promise of free, unalterable, lifetime
healthcare benefits – the parties agree the clock starts
when the breach becomes ‘clear and unequivocal.’”
(Docket No. 470 at 6 quoting Morrison v. Marsh &
McLennan Co., 439 F.3d 295, 302 (6th Cir. 2006)). And,
if the CLS retirees “discovered or reasonably should
have discovered Caterpillar no longer was willing to
provide free, unalterable, lifetime healthcare benefits
under the 1988 CBA at least six years . . . before March
28, 200[6], the claim must be dismissed as time
barred.” (Id.)
The Sixth Circuit found that, by 1998, “when the
UAW and Caterpillar reached a new labor agreement
that altered the healthcare benefits to retirees and for

App. 109
the first time announced new costs for obtaining them,
and Caterpillar applied the new agreement to the CLS
retirees,” the CLS subclass had at least constructive
knowledge that Caterpillar was repudiating any
promise – provided under the 1988 CBA – to provide
free, lifetime health care coverage, and, therefore, the
clock started running “at least by 1998,” rendering the
claims time barred. (Id. at 7.)
By 1998, not only was the 1988 CBA no longer
applied to the CLS subclass, but, the appellate court
found, Caterpillar “no longer honored the alleged
promise of free, lifetime, unalterable healthcare
benefits associated with the 1988 CBA.” (Id.) Indeed,
under the 1998 CBA, while the CLS subclass was still
not directly charged premiums, Caterpillar
(1) increased prescription drug co-pays, (2) placed
limits on new dependants that could be added to a
plan, (3) established the managed care Network, which
only reimbursed 70 percent of expenses charged by
non-network providers, and (4) added new limits to
vision and dental care. (Id.)
The appellate court also found that, with the 1998
CBA, “Caterpillar announced two other significant
changes: (1) it capped the amount it would contribute
to each retiree’s healthcare plan, and (2) it added a
broader reservation-of-rights clause, giving the
company an unfettered right ‘to terminate the plan . . .
subject to applicable collective bargaining agreements.’”
(Id.) As to the caps, while the Sixth Circuit recognized
that, under the 1998 agreements, the newly established
VEBA Trust would “cover” the above-the-cap
contributions for a time, the CLS subclass was – prior

App. 110
to 2000 – notified that the VEBA Trust would
eventually be “depleted,” as occurred in 2004. (Id. at 78.)
The court concluded that “all of these notices of the
various 1998 changes – especially the [summary] notice
provided by the [November 1999 Summary Plan
Description (SPD)] . . . provided the ‘clear repudiation’
necessary for the subclass’s claims to accrue.” (Id. at 8.)
That is, the summary notice of “managed care,
increased prescription drug co-pays, a limit on the
number of dependents eligible to be in a plan, new
limits on vision and dental care, and a ‘limit’ on
‘company contributions’” all clearly disclaimed any
promise of free, lifetime, health-care benefits, more
than six years prior to the filing of Winnett. (Id.)
Further, the Sixth Circuit reiterated that the claims
accrued when Caterpillar “announced the changes, not
when the retirees first felt the changes.” (Id. at 9.) And,
while “notice is the touchstone of accrual,” the plaintiffs
still felt the effects of the changes prior to March 28,
2000, in the “increased charges for drug prescription
co-pays, deductibles, and other out-of-pocket expenses,”
as alleged in the Winnett Complaint and confirmed by
the testimony of certain subclass members during the
preliminary injunction hearing. (Id. at 9-10.)
The court “complet[ed] the picture,” by noting that,
“ if a company announces new authority to terminate
or modify healthcare benefits,” the employee’s union
must “grieve the change at that point or be precluded
from later claiming that benefits had vested.” (Id. at
10.) Using this analogy, the court concluded, again,
that the plaintiffs’ claims accrued not when they felt

App. 111
the changes but when “the company notified the
retirees of many changes – not just of an unfettered
right to terminate healthcare benefits . . . but also of
new co-pays, managed care, caps on company
contributions to premiums, and changes to dental and
vision benefits.” (Id.)
The Sixth Circuit went on to reject the arguments
advanced by the CLS subclass, namely that, until the
VEBA Trust ran out and premiums were directly
charged in 2004, the 1998 and 1999 notices of changes
were too “indefinite and uncertain” for the CLS
subclass to know of the alleged breach. (Id. at 11.) The
Sixth Circuit found that the notices regarding the
VEBA Trust left no doubt that, eventually, direct
premium charges would be assessed against retirees
and that the “other changes,” that is, “managed care,
increases in drug costs, changed eligibility criteria and
new restrictions on adding dependants,” left “even less
doubt” that Caterpillar was repudiating any alleged
promise of free, lifetime health care embodied in the
1988 CBA. (Id.)
Refuting that these “other changes” were “minor,”
the Sixth Circuit noted that the managed care Network
“on its own marked a significant change from the
health care the retirees enjoyed under the 1988
contract,” imposing substantial costs if the retiree
chose out-of-network care. (Id. at 12.) Acting as a “very
real limitation on their benefit program,” the court
concluded that this change alone “should have put the
subclass on notice that Caterpillar had altered their
benefits.” (Id. citing Reese v. CNH Am. LLC, 574 F.3d
315, 325 (6th Cir. 2009)). And, “once we add raised co-

App. 112
pays, limits on dental and vision care and new
eligibility criteria to the mix, not to mention
Caterpillar’s unfettered right to cancel benefits at any
time, it is difficult to shrug off the 1998 changes as
irrelevant to the accrual question.” (Id.)
The court concluded by (1) clarifying that the key
issue here was accrual, not the vesting of benefits or
other issues, (2) rejecting the plaintiffs’ “ripeness”
argument, because, by 1998, it was clear that the
benefits were “no longer unalterable” in light of the
Network and other changes, no longer free, and no
longer necessarily for life, in light of the reservation-ofrights clause, and (3) rejecting the plaintiffs’ argument
that Caterpillar had asserted untenable, “inconsistent”
positions throughout this litigation and that
Caterpillar’s 1998-1999 conduct should be considered
an “anticipatory breach.” (Id. at 13-14.)
Following the Sixth Circuit’s opinion, Caterpillar
moved for reconsideration of the March 26, 2010
Memorandum in Winnett and Kerns, maintaining that
the Sixth Circuit’s rationale as to the CLS subclass
applies equally to the remaining surviving spouse
classes in those cases.
ANALYSIS
I. Motion for Reconsideration Standard
The Court of Appeals for the Sixth Circuit has
observed that the “Federal Rules of Civil Procedure do
not explicitly address motions for reconsideration of
interlocutory orders” but has provided that “[d]istrict
courts have authority both under common law and Rule
54(b) to reconsider interlocutory orders and to reopen

App. 113
any part of a case before entry of final judgment.”
Rodriguez v. Tennessee Laborers Health & Welfare
Fund, 89 Fed. Appx. 949, 959 (6th Cir. 2004) (citing
Mallory v. Eyrich, 922 F.2d 1273, 1282 (6th Cir. 1991)).
While district courts have “significant discretion” in
deciding motions for reconsideration, “[t]raditionally,
courts will find justification for reconsidering
interlocutory orders when there is (1) an intervening
change of controlling law; (2) new evidence available; or
(3) a need to correct a clear error or prevent manifest
injustice.” Rodriguez, 89 Fed. Appx. at 959 (citing Reich
v. Hall Holding Co., 990 F. Supp. 955, 965 (N.D. Ohio
1998)). The Sixth Circuit’s decision, which directly
bears upon arguments made by the parties in these
cases, provides sufficient ground for these Motions to
Reconsider.
II. Winnett
There is no dispute that, in light of the Sixth
Circuit’s opinion, only the surviving spouse subclass
has even arguably viable claims.1
1

The parties agree that the claims of the CLS subclass must be
dismissed in light of the Sixth Circuit’s opinion, and the defendant
argues that the previously dismissed claims of the “main class”
should also be found to be time barred under the Sixth Circuit’s
decision. (Docket No. 476 at 8-9.) While the plaintiffs do not
challenge this proposition, the claims of the “main class” have
already been dismissed and, therefore, there is no basis for
reconsideration. (Docket No. 490.) Moreover, the defendant, in both
Winnett and Kerns, maintains that the Sixth Circuit’s June 3, 2010
Wood v. Detroit Diesel decision, 607 F.3d 427, dictates
reconsideration of the merits of the remaining plaintiffs’ claims.
(See Winnett Docket No. 476 at 14-17.) As the court finds that the
surviving spouse subclass’s claims are time barred, it is not

App. 114
The defendant argues that the surviving spouse
subclass’s claims should be dismissed because: (1) the
surviving spouses, like the CLS subclass, seek relief
under the 1988 CBA and (2) Caterpillar made the same
repudiations of “any supposed promise to provide [free,
lifetime] benefits under the 1988 contract” to the
surviving spouse subclass as it did to the CLS subclass.
(Docket No. 476 at 10.) Indeed, because the surviving
spouses were dependents of non-CLS employees, they
were subject to changes such as the Network and
increased prescription drug co-pays in 1992, not 1998,
strengthening the statute of limitations argument as to
this subclass. (Id.) Indeed, while there is some dispute
as to which Caterpillar employees and dependents
received notice of what changes and when, there is no
dispute that, in 1992, all plan participants received
notice of the Network.2 (Id.)

necessary to reach this argument here – although the court will
address Wood below, in the Kerns discussion.
2

Without an eye toward claim accrual, in the summary judgment
Memorandum, the court made the factually accurate statement
that the “surviving spouse subclass . . . retired under the 1992
unilateral implementation,” that is, this subclass’s spouses all
retired during the seven-year period of labor unrest in which
Caterpillar unilaterally imposed terms of its final contract offer.
(Docket No. 465 at 5, 30.) The plaintiffs argue here that the court,
having made this statement, should view claim accrual based upon
when the promises made in the 1992 unilateral implementation
were repudiated. (Docket No. 490 at 5.) The Sixth Circuit’s opinion,
however, makes it clear that the contractual theory of liability
stated in the Complaint – that is, a breach of the promises made
in the 1988 CBA – governs for claim accrual purposes.

App. 115
Moreover, Caterpillar argues, just as with the CLS
subclass, “Caterpillar [] communicated these
repudiations . . . in both 1998 (in the form of benefit
summaries) and 1999 (through the issuance of a [] SPD
that also included an ‘unfettered right to terminate the
plan’).” (Id. at 11.) Therefore, the “Sixth Circuit’s
definitive ruling that these communications repudiated
any alleged promise to provide unalterable benefits
under the 1988 contract must also govern this court’s
summary judgment ruling on the spouse subclass.”
(Id.)
In response, the plaintiffs argue that there are key
distinctions between the surviving spouse subclass and
the CLS subclass that the Sixth Circuit would not have
considered in its narrowly focused opinion. (Docket No.
490 at 4.) Most notably, as discussed in the March 26,
2010 Memorandum, the relevant plan documents, from
1988 to 2005, stated that surviving spouses, specifically
and distinct from others covered by the plan, would
receive health insurance “for life without cost” upon the
death of their retiree spouse. (Id. at 2-3.)
Indeed, the plaintiffs point out that the relevant
plan documents, from 1988 until 2005 (including the
1999 SPD heavily relied upon by the Sixth Circuit),
consistently discussed impending caps on “retiree”
health benefits, but, just as consistently, stated that
surviving spouses would receive health care “without
cost” upon the death of the spouse.3 (Id. at 5-7.) The

3

As discussed in the summary judgment Memorandum, the
parties (in both cases) continue to dispute whether this “without
cost” language remained in the plan documents “in error,” and the

App. 116
plaintiffs also point to letters (discussed in the
summary judgment Memorandum) to surviving
spouses following the death of their spouse in which
Caterpillar stated that health benefits would be
“without cost.” (Id. at 8.)
Moreover, the summary judgment record indicated
that Caterpillar did not charge the VEBA Trust for
premiums for surviving spouses – as it did for the CLS
subclass, for instance – but rather directly paid the
premiums for surviving spouses until 2005. (Id.) To the
plaintiffs, “this confirms the fact that the surviving
spouse benefit was never intended by Caterpillar to be
limited by the premium cap imposed on retirees.” (Id.)
Therefore, “the claim asserted by the surviving spouse
subclass for a vested, no-cost health insurance benefit
did not accrue until December 2002 at the earliest,”
when Caterpillar notified them that they would be
responsible for paying health care premiums once the
VEBA Trust was exhausted. (Id. at 1-2.)
Moreover, the plaintiffs argue, because the Sixth
Circuit’s ruling was “principally based on the major
changes announced by Caterpillar in 1998 and 1999
regarding the imposition of a cap on benefits and the
introduction of the VEBA,” the assorted other changes
(the “shift to network, the managed care opinion, and
defendant maintains that other language stating that caps would
be imposed “per covered individual” dictate that surviving spouses
were to be subject to the caps. (See Docket No. 476 at 11-12.) The
court found in favor of the surviving spouse subclass on this issue
in the summary judgment Memorandum, and there is no apparent
reason to reconsider that conclusion now. (Docket No. 463 at 3132.)

App. 117
additional costs”) announced (at the latest) in 1998 and
1999 cannot be seen as triggering accrual for this
subclass. (Id. at 17.)
That is, while recognizing that the subclass was
subject to these changes, the plaintiffs maintain that
“there is no indication” from the Sixth Circuit’s opinion
that these moves “alone would have been sufficient to
put them on notice that [they] would be subject to
above-cap premium costs,” particularly because, as
discussed in the summary judgment Memorandum,
some costs had always been imposed on surviving
spouses and retirees, even those who indisputably
retired with “no cost” benefits under the 1988 CBA. (Id.
at 17-19.)4
4

The plaintiffs (both here and in Kerns) also argue that the
“unfettered” reservation-of-rights clause was not notice of
repudiation. (Id. at 13-17; See also Kerns Docket No. 276 at 6-7, 1720.) This lengthy argument is largely premised on the Sixth
Circuit’s line of case law holding that “a reservation of rights
clause cannot be imposed retroactively to take away vested
benefits.” (Id. citing e.g. Sprague v. GM, 133 F.3d 388, 400 (6th Cir.
1998)). Because, the plaintiffs argue, the rights of the surviving
spouse subclass had vested before the reservation-of-rights clause
was introduced (in the November 1999 SPD), the clause could not
affect those rights, and, therefore, the clause “had no relevance to
spouses of persons who had already retired, and so its inclusion
could not possibly have put the surviving spouse subclass on notice
of anything.” (Id. at 13.) This argument misses the point of the
Sixth Circuit opinion, which explored the record for conduct on
Caterpillar’s part indicating that it was not intending to abide by
promises previously made. Clearly, the reservation-of-rights
clause, from this perspective, is such evidence, no matter the Sixth
Circuit’s vesting rules. Additionally, the plaintiffs argue that the
1999 SPD contained additional language – not discussed in the
Sixth Circuit opinion – further indicating that the reservation of

App. 118
Under the logic of the Sixth Circuit decision, there
is no substantive distinction between the position of the
CLS subclass and the surviving spouse subclass, and,
therefore, the claims of the surviving spouse subclass
are time-barred. The plaintiffs’ argument that the
Sixth Circuit focused on the impending imposition of
the caps and the VEBA Trust as being key accrual
triggers simply misreads the opinion.
Over and over again, the Sixth Circuit deemed the
assorted changes (the Network, increased drug costs,
limits on dependants, increased dental and vision, etc.)
announced in the 1998 CBA and further explained in
the 1999 SPD as “major changes” to the plan benefits
that should have alerted the CLS subclass that the
promise of “free lifetime health care” under the 1988
CBA was repudiated. There is no dispute that all plan
recipients – surviving spouses, dependents, etc. – were
subject to these conditions and that these conditions
were announced more than six years prior to the filing
of this case. Additionally, the 1999 SPD contained the
reservation-of-rights clause, which the Sixth Circuit
rights was not truly “unfettered,” but was “subject to the terms
and conditions of the applicable documents.” (Id. at 15-16.) The
plaintiffs note that there were actually two 1999 SPDs – one that
went to retirees covered by the Network and one that went to all
other retirees – and that this later SPD (the “indemnity” SPD)
contained this further limiting language. (Id.) The plaintiffs
speculate that the Sixth Circuit may not have analyzed the “full
record” on the issue, as it quoted only “limited portions” of the
“network” SPD. (Id. at 16.) This court, however, cannot ignore the
holding of the Sixth Circuit, which, as noted above, recognized that
there was “subject to” language in the 1999 SPD but still concluded
that, even in light of such language, the 1999 reservation of rights
was unfettered and relevant for accrual purposes.

App. 119
concluded gave Caterpillar an “unfettered” right to
terminate the plan. This notice was given to subclass
members more than six years prior to the filing of this
case as well. If these notifications were sufficient to
start the clock for the CLS subclass, then they are
sufficient to start the clock for the surviving spouse
subclass as well.
From the perspective of the Sixth Circuit’s opinion,
the fact that Caterpillar repeatedly stated that
surviving spouses were entitled to “without cost” health
coverage is of little moment. Again, as explained in the
Sixth Circuit’s opinion, the plaintiffs’ theory is that the
defendant breached its promise – made in the 1988
CBA – to provide “no cost” health insurance. (Docket
No. 470 at 3.) While Caterpillar repeated the promise
in various plan documents, it was also clear, under the
Sixth Circuit’s reasoning, that the promise was broken
more than six years prior to the suit being filed –
specifically through the charges and costs imposed in
the 1998 CBA and the 1999 SPD.
Simply, the same actions that the Sixth Circuit
focused upon as triggering accrual for the CLS subclass
affected the surviving spouse subclass, and, therefore,
the claims of the surviving spouse subclass must be
considered time-barred as well. Under the logic of that
opinion, the surviving spouse subclass knew no later
than 1999 that Caterpillar was no longer providing no
cost, unalterable benefits, just as the CLS subclass did.
As the surviving spouse subclass seeks these same
benefits, their claims must be dismissed in light of the
Sixth Circuit’s opinion.

App. 120
III. Kerns
As noted above, the class in Kerns consists of
surviving spouses whose spouse retired from
Caterpillar between March 16, 1998 and January 10,
2005. These plaintiffs claim their right to unalterable,
lifetime benefits under the 1998 CBA. (Docket No. 40
Ex. 1 at 6.)
The defendant argues that, despite these factual
distinctions, the result compelled by the Sixth Circuit’s
opinion is the same. That is, “by 1998, and at the very
latest by 1999 (when Caterpillar issued a new SPD),”
the plaintiffs knew that Caterpillar was “not applying
the 1998 contract in such a manner as to provide
unalterable, cost-free surviving spouse benefits,” in
spite of the “no cost” language that remained in the
SPD and other plan documents. (Docket No. 267 at 7.)
That is, following the 1998 CBA, the plaintiffs (as
dependents or surviving spouses) were subject to the
Network, “with all of its associated co-pays and
deductibles,” increased co-pays for prescription drugs
and new limits on vision and dental care, and, under
the 1999 SPD, the “unfettered” reservation of rights.
(Id. at 8-9.) Consistent with the Sixth Circuit opinion,
the defendant argues, these changes marked a clear
repudiation of any promise (contained elsewhere in the
1998 CBA) to provide “no cost” health care. (Id.)
In response, the Kerns plaintiffs make similar
arguments to those advanced by the surviving spouse
subclass in Winnett. (Docket No. 276 at 4, 14-15.) That
is, they argue that the caps discussed in the 1998 plan
documents apply only to “retirees” and surviving
spouses are repeatedly distinguished as being entitled

App. 121
to “no cost” health benefits. (Id.) They point to
numerous letters in the record from Caterpillar to
surviving spouses, asserting that health care benefits
would be “no cost,” and to the fact that the VEBA Trust
was only charged for retirees’ premiums, not surviving
spouse’s premiums (issues not before the Sixth Circuit
in its most recent opinion). (Id. at 7-10.) The plaintiffs
maintain that Caterpillar’s representations that their
health benefits would be “no cost” were so strong that,
when Caterpillar attempted to charge premiums to this
group in 2005, it (and the union) received a flood of
complaints, and Caterpillar was forced to announce
that it would “waive” premiums for surviving spouses
whose spouse retired and died under the 1998 CBA.
(Id. at 12-13.)
The plaintiffs also focus on the fact that they are
suing under the 1998 CBA and not the 1988 CBA that
the Sixth Circuit determined was the source of the
plaintiffs’ claims in Winnett. (Id. at 22.) Therefore, to
the extent that the plaintiffs would be put on notice
that the defendant was not providing “lifetime no cost
health care benefits,” such notice had to come after the
1998 CBA was instituted in March 1998. (Id. at 21.)
And “the lifetime no cost” promise here must be viewed
in the context of the limitations of the 1998 CBA. That
is, “lifetime no cost” allowed for the associated charges
that were contained in the 1998 CBA, including the
Network, but it forbade premiums from being imposed
on the Kerns plaintiffs – premiums that were not
assessed until well within the filing window. (Id. at 22.)
While most of the plaintiffs’ briefing is a reassertion of the unsuccessful arguments discussed

App. 122
above in Winnett, this final point is persuasive. While
the plaintiffs in Kerns also claim entitlement to
“lifetime no cost” health care benefits, the Complaint
explicitly seeks “vested lifetime retiree healthcare
benefits to the members of the Class as set forth in the
1998 CBA at no cost . . .” and the Complaint requests
relief in the form of an injunction “to maintain the level
of retiree health care benefits . . . as required by the
terms of the 1998 CBA.” (Docket No. 40 Ex. 1 at 5.)
That is, unlike the plaintiffs in Winnett – who
explicitly sought to maintain the level of benefits under
the 1988 CBA (Winnett Docket No. 61 at 10), that is, no
Network or other assorted costs and restrictions, the
plaintiffs in Kerns seek restoration of the benefits
afforded by the 1998 CBA, which already included
those limitations. Therefore, institution of programs
such as the Network and increased co-pays under the
1998 CBA would not – unlike in Winnett – trigger
accrual of the plaintiffs’ claims here.
The only action by Caterpillar that arguably could
have alerted the plaintiffs to the fact that the “no cost”
benefits under the 1998 CBA might be restricted came
in the 1999 SPD – specifically the reservation-of-rights
clause therein. Even though the Sixth Circuit
concluded that the 1999 SPD purported to give
Caterpillar an “unfettered” right to terminate the
benefits of the 1998 plan, the court concludes that the
reservation of rights, standing alone, is not sufficient to
trigger the accrual of the claims of the Kerns class.
That is, while the Sixth Circuit referred to the
“unfettered” reservation of rights as a “significant”
element supporting the defendant’s argument in

App. 123
Winnett, that opinion makes clear that it was the
confluence of many repudiations that resulted in the
Winnett plaintiffs’ claims accruing prior to 2000. The
court repeatedly focused on the imposition of the
Network under the 1998 CBA, the increased
prescription drug costs, the restrictions on dependents,
and the increased vision costs, along with the
impending caps and the reservation-of-rights clause,
as, taken together, sufficient to trigger pre-2000 claim
accrual for the CLS subclass. (Docket No. 470 at 7.)
Not only was the reservation-of-rights clause only
one of these many elements, it, unlike the other
elements, did not give notice that Caterpillar was
actually reducing the scope of benefits provided under
the relevant collective bargain agreement. Rather, it
merely indicated that Caterpillar could, if it wanted to,
take away benefits in the future.5 Even viewing the
reservation-of-rights clause as “unfettered” and
“significant” to the claims accrual issue, it is too much
to say that that clause – alone – should have put the
plaintiffs on notice that Caterpillar was, in a “clear and
unequivocal” manner, repudiating its promise to
provide the benefits afforded by the 1998 CBA.

5

The plaintiffs claim that it is unclear how many of the Kerns class
actually received the 1999 SPD, which contained the reservationof-rights clause. (Docket No. 276 at 5.) The court’s decision need
not rest on this argument. Even if it were clear that all of the
Kerns plaintiffs received the 1999 SPD prior to April 13, 2000, the
court, again, does not view the reservation-of-rights clause therein
as sufficient to trigger claim accrual.

App. 124
Therefore, the defendants’ Motion to Reconsider in
Kerns will be denied.6
CONCLUSION
The defendant’s Motion to Reconsider in Winnett
will be granted. It appears that the only claims still
pending in that case are counterclaims asserted by
former third-party counter-plaintiff UAW against
Caterpillar, which have been severed for separate trial

6

As noted above, the defendant argues that the Sixth Circuit’s
decision in Wood justifies reconsideration of the court’s
determination in the summary judgment Memorandum that the
plaintiffs have a vested right to lifetime, premium-free health care
under the 1998 CBA. (Docket No. 267 at 10-13.) In Wood, the Sixth
Circuit determined that a CBA promise of “fully funded, lifetime
health care benefits” must be read along with a series of “Cap
Agreements” between the plaintiff’s union and the employer, which
limited the employer’s yearly per-retiree expenditures. 607 F.3d at
428-31. Taking all of the agreements together, the “only coherent
reading” was that the plaintiffs “are entitled to lifetime, capped
health care benefits.” Id. at 431. Caterpillar maintains that the
court should perform a similar analysis here; that is, read the “per
covered individual” language in the 1998 CBA as applying caps to
all plan participants and blending that with the”for life without
cost” language directly applicable to surviving spouses to find that
the surviving spouses are entitled to “for life capped benefits.”
(Docket No. 267 at 13.) In the summary judgment Memorandum,
the court – rejecting the “per covered individual” argument – found
that the language in the 1998 CBA (and the multitude of
subsequent documents) promising “for life without cost” benefits
meant what it said and, applying other relevant Sixth Circuit law,
concluded that the plaintiffs were entitled to premium-free health
care for life. (Docket No. 262 at 36.) Unlike in Wood, there is no
clearly conflicting language for the court to blend together, and,
therefore, there is no basis for the court to reconsider its earlier
ruling.

App. 125
following the conclusion of Winnett and Kerns. (Winnett
Docket No. 428.) In Kerns, the Motion to Reconsider
will be denied. However, the status of any damages
discovery prompted by the March 26, 2010
Memorandum is unclear. (Winnett Docket No. 474.)
Therefore, in the accompanying Order, the court will
set a telephone conference to discuss how to proceed.
An appropriate order will enter.
/s/Aleta A. Trauger
ALETA A. TRAUGER
United States District Judge

App. 126
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-0235
Judge Trauger
[Filed January 12, 2011]
__________________________
GARY T. WINNETT, et al., )
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
)
Defendant,
)
__________________________ )
Case No. 3:06-1113
Judge Trauger
__________________________
JUDITH K. KERNS, et al., )
)
Plaintiffs,
)
)
v.
)
)
)
CATERPILLAR INC.,
)
Defendant.
)
__________________________ )

App. 127
ORDER
For the reasons expressed in the accompanying
Memorandum, the defendant’s Motion to Reconsider in
Winnett (Docket No. 475) is GRANTED, and the
plaintiffs’ claims in that case are now all DISMISSED
and the injunction issued on October 16, 2008 is hereby
DISSOLVED. The defendant’s Motion to Reconsider in
Kerns (Docket No. 266) is DENIED, and the court’s
liability findings in that case are unchanged.
It is further ORDERED that a telephone
conference will be held with counsel on January 31,
2011 at 2:30 CST to discuss how to proceed as to the
remaining issues in these cases.
It is so ordered.
Enter this 12th day of January 2011.
/s/Aleta A. Trauger
ALETA A. TRAUGER
United States District Judge

App. 128

APPENDIX J
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-0235
Judge Trauger
[Filed March 26, 2010]
_____________________________
GARY T. WINNETT, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
)
Defendant/
)
Third-Party Plaintiff,
)
)
v.
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
)
Third-Party Defendants. )
_____________________________ )

App. 129
Case No. 3:06-1113
Judge Trauger
_____________________________
JUDITH K. KERNS, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
)
Defendant/
)
Third-Party Plaintiff,
)
)
v.
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
)
Third-Party Defendants. )
_____________________________ )
MEMORANDUM
These are two related, but not consolidated, cases.
As can be seen herein, the overlap in the relevant facts
dictates that it is in the interest of judicial economy to
address the pending motions in these two cases in one
opinion. In each case, pending before the court are
Motions for Summary Judgment filed by the remaining
third-party defendant, the International Union, UAW
(“UAW”), the plaintiffs, and the defendant Caterpillar.
(Winnett Docket Nos. 398, 404 and 410, respectively;

App. 130
Kerns Docket Nos. 207, 213, and 214, respectively.)1 In
both cases, the UAW’s motion will be granted, and
Caterpillar’s Third-Party Complaint against the UAW
will be dismissed. Also, in both cases, the plaintiffs’ and
Caterpillar’s motions will be granted in part and denied
in part.
RELEVANT FACTUAL AND PROCEDURAL
BACKGROUND
As has been discussed in several previous opinions,
the plaintiffs in these cases seek health insurance
benefits from defendant Caterpillar, and these cases
center around the meaning of certain language in
various labor agreements entered into by the UAW and
Caterpillar.2 The Winnett case is pursued by

1

As discussed below, an additional motion to re-open discovery in
both proceedings was filed by Caterpillar and that motion will be
denied.

2

Unless otherwise noted, the facts are drawn from the parties’
statements of material facts, (Winnett Docket Nos. 431, 435, 436,
448, 453, and 454; Kerns Docket Nos. 241, 243, 244, 251, and 256)
and related affidavits and exhibits. Although facts are drawn from
submissions made by both parties, on a motion for summary
judgment, all inferences are drawn in the light most favorable to
the non-moving party. See Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S 574, 586 (1986); McLean v. 988011 Ontario,
Ltd., 224 F.3d 797, 800 (6th Cir. 2000). As indicated above, the
court has issued several previous opinions in these cases that
provide additional factual background, including more lengthy
quotations of some of the relevant contractual provisions. See e.g.
Winnett v. Caterpillar, 496 F. Supp. 2d 904, 908-14 (M.D. Tenn.
2007); Kerns v. Caterpillar, 499 F. Supp.2d 1005, 1009-1017 (M.D.
Tenn. 2007). While some repetition from the previous opinions is
unavoidable, some basic familiarity with the dispute will be

App. 131
individuals who either worked for Caterpillar or who
had a spouse who did (Gary Winnett, Freda JacksonChittum, Casper Harris, William Dailey, Calvin
Grogan, Kenneth Hammer, Charles Waterfield, and
Michael Finn), and they pursue this litigation on behalf
of themselves and their class. The Kerns litigation is
pursued by three named plaintiffs, each of whom is the
“surviving spouse” of an individual who worked at
Caterpillar (Judith Kerns, Marcia Nalley, and Sandra
Stewart), and they pursue this litigation on behalf of
themselves and their class.
A. Basic Historical Background
The Caterpillar-UAW bargaining relationship began
in the late 1940s and, over time, the relationship
expanded to include employees at various Caterpillar
facilities, primarily in Illinois. For the relevant time
period, the UAW was the exclusive bargaining
representative for these employees, and, under federal
law, Caterpillar was obligated to negotiate with the
UAW before making any changes to the terms and
conditions of employment.

assumed, and, therefore, not every fact provided in the parties’
voluminous (and frequently highly repetitive) statements of
material facts is discussed herein. Additionally, on January 27,
2009, the Sixth Circuit issued an opinion reversing this court on
certain conclusions that the court reached in denying Caterpillar’s
Motion to Dismiss in Winnett. See Winnett v. Caterpillar, 553 F.3d
1000. As discussed herein, this opinion and the court’s previous
opinions substantially affect (and limit) the analysis and ultimate
conclusions, and the court has tailored the factual discussion
consistent with that analysis.

App. 132
During the course of their bargaining relationship,
Caterpillar and the UAW agreed to engage in multiplant bargaining for most represented employees. This
practice, known as “Central Bargaining,” resulted in a
labor contract, which included a Central Labor
Agreement (“CLA”) along with various related local
agreements and benefits agreements. Beginning in
1952, Caterpillar retirees began to be eligible for
limited medical coverage at defined monthly
contribution levels. By the time of the 1988 Agreement,
provisions for health insurance benefits, including
retiree health care, were set forth in an Insurance Plan
Agreement (“IPA”) between Caterpillar and the UAW,
along with a Group Insurance Plan (“GIP”) and a
Summary Plan Description (“SPD”), which was
designed to clearly summarize the important provisions
of the benefits agreement.
B. The 1988 Labor Agreement
As discussed in detail in previous opinions, Section
5 of the 1988 GIP set forth provisions regarding active
employee and retiree health care. Section 5.1 provided
that Caterpillar would provide coverage to employees
“without cost.” Section 5.15 provided that Caterpillar
would also provide coverage for otherwise eligible
retirees “without cost to any such retired Employee.”
The 1988 GIP also provided that, following the death of
a retired employee, coverage for the surviving spouse
“will be continued . . . for the remainder of [the]
surviving spouse’s life without cost.” (Kerns Docket No.
243 at 7.) The 1988 IPA also stated that “Termination
of this Agreement shall not have the effect of

App. 133
automatically terminating the Plan,” referring to the
GIP. (Winnett Docket No. 436 at 19.)
The 1988 SPD summarized the benefits of the 1988
labor agreement. As to retirees, the 1988 SPD stated
that, “[i]f you retire and are eligible for the immediate
receipt of a pension (with at least 5 years of credited
service) under the Non-Contributory Pension Plan, you
will be eligible for the Retired Medical Benefit Plan,
continued at no cost to you.” (Winnett Docket No. 431
at 14.) The 1988 SPD went on to say that, “[i]f an active
employee dies when eligible to retire or if a retired
employee dies, the surviving spouse will have coverage
for his or her lifetime at no cost to the survivor.” (Id.)
The 1988 SPD also contained a provision that allowed
Caterpillar, “subject to the applicable collective
bargaining agreements,” to terminate the employee
benefit plans. (Id.)
C. Negotiations and the Termination of the
1988 CLA
With the 1988 CLA set to expire later in the year, in
July 1991, both Caterpillar and the UAW gave notice
that they intended to terminate the 1988 CLA and
negotiate modifications to the various labor
agreements. In the Fall of 1991, Caterpillar and the
UAW commenced negotiations concerning a successor
labor agreement, with a labor dispute quickly
developing as to acceptable terms. One area of
particular dispute centered around changes to medical
benefits for existing and future retirees that was
proposed by Caterpillar. After a series of extensions,
the UAW terminated the 1988 labor contract on

App. 134
November 3, 1991 and commenced a selective strike at
certain Caterpillar facilities.
On March 5, 1992, Caterpillar advised the UAW
that it believed that the parties’ negotiations were at a
legal impasse. Thereafter, by letters dated March 31,
1992, Caterpillar announced (via notice to the UAW
and Caterpillar’s employees) that it would unilaterally
implement portions of its final contract offer, including
a health care coverage NetWork (which could result in
certain out-of-pocket costs for plan participants who
elected not to use NetWork physicians) and certain
changes to retiree benefit coverage that would result in
increased medical costs for the retiree. These changes
were implemented on April 6, 1992, and, that summer,
Caterpillar sent letters to the UAW and to all affected
employees, retirees, dependents and surviving spouses,
notifying them of the institution of the NetWork
effective July 1, 1992..
As continued negotiations failed to produce an
agreement, on November 20, 1992, Caterpillar advised
the UAW that, effective December 1, 1992, it would
implement additional provisions from its final offer,
including caps on the amount that Caterpillar would
pay for future retiree health coverage. That is,
beginning in the year 2000, individuals who retired on
or after January 1, 1992 would be responsible for an
undetermined amount of “above the cap” health care
costs.3 The December 1992 unilateral implementation,

3

For instance, a November 19, 1992 letter from Caterpillar to its
employees estimated that, in the year 2000, “the premium, if any,
will be relatively small – in the range of $20 to $30 a month,” and

App. 135
however, continued to provide that coverage for
surviving spouses would be “continued following the
death of a retired Employee . . . without cost” for the
“remainder of [the] surviving spouse’s life.” (Kerns
Docket No. 243 at 10.) The approximately 744
individuals who retired between January 1, 1992 and
December 1, 1992, were, according to Caterpillar,
subject to the unilaterally implemented terms.
It is not disputed that employees who retired prior
to January 1, 1992 are not subject to the retiree
medical cost caps Caterpillar implemented in
December 1992, although even pre-1992 retirees and
their surviving spouses have always incurred some
costs in the form of co-pays and/or limits on coverages.
Indeed, despite the fact that the 1988 GIP states that
retiree health benefits are provided at “no cost,” the
testimony from the preliminary injunction hearing in
Winnett indicated that retirees who retired under a “no
cost” scheme have always been responsible for the costs
of office visits (including visits to specialists) and
prescription drug co-payments. (Winnett Docket No.
298 at 256, 274, 365; Docket No. 299 at 549.)
D. Caterpillar Logistics Services - An Aside in
the Timeline
Caterpillar Logistics Services, Inc. (CLS) was
formed in 1987 as a Caterpillar subsidiary, the purpose
of which was to market Caterpillar’s global
warehousing and product distribution expertise to
the communication speculated that, by the year 2000, “the United
States might have a national health care program which could
eliminate the need for premiums.” (Docket No. 435 at 6.)

App. 136
third-party customers. As further discussed below, the
Winnett class contains a CLS subclass, which consists
of all hourly CLS employees (and their spouses) who
were represented by the UAW during their
employment and who retired between January 1, 1992
and March 16, 1998. In May 1988, Caterpillar and the
UAW entered into the “CLS Agreement,” which
guaranteed that certain services provided to third
parties would not be interrupted in the event of a
strike, and, in the event of a strike, the 1988 CLA
(including its benefits provisions) would remain in “full
force and effect” for CLS employees past its expiration
date and until the ratification of a successor agreement
for CLS employees. (Winnett Docket No. 436 at 26-28.)
Additionally, Section 5(a) of the CLS Agreement
provides that, upon ratification of a new CLA, “all
terms” of that new CLA, would be “automatically
applicable” to “Covered [CLS] Employees.” (Id.) The
CLS Agreement defines “Covered Employees” as “any
employees within units covered by the Central Labor
Agreement and who are engaged in work involving or
related to Caterpillar parts distribution or CLS work.”
(Id.) The parties agree that the 1988 CLA continued to
be in effect for CLS employees during the labor dispute
from November 4, 1991 through March 16, 1998, and
CLS employees, during this period, did not strike and
worked under the 1988 CLA, with their pay, working
conditions and benefits all being dictated by the terms
of the 1988 CLA. It is also undisputed that all members
of the CLS subclass retired prior to ratification of the
successor labor agreement in 1998, and, until that
ratification, received retirement benefits under the
1988 CLA.

App. 137
E. The March 1998 Agreement
Negotiations continued between the UAW and
Caterpillar until March 16, 1998, when a successor
agreement was finally ratified. The 1998 GIP continued
to include the same language in Section 5.15 that
stated that surviving spouses’ coverage “will be
continued followed the death of a retired Employee for
the remainder of [the] surviving spouse’s life without
cost.”4
The 1998 IPA and GIP contained amended
provisions concerning health benefits, including
provisions that Caterpillar had unilaterally
implemented in 1992, such as the NetWork and the
caps. Specifically, the 1998 GIP states that, effective
for employees retiring on or after January 1, 1992,
Caterpillar’s “maximum average annual cost per
covered individual for retiree medical benefits . . .
commencing January 1, 1999 shall be limited to the
average annual cost per covered individual in 1997
projected to 1999.” (Kerns Docket No. 241 at 40.) In
April and June 1998, after substantial internal
discussion, Caterpillar began to apply the NetWork
provisions and retiree medical caps (along with several
additional cost obligations for vision and dental
coverage) to the CLS subclass and sent announcements
regarding this to “all affected populations.” (Winnett
Docket No. 436 at 39.)

4

As discussed previously, Section 6.2(c) of the 1988, 1992, and
1998 labor agreements/implementations contained a similar
provision. (See Kerns Docket No. 243 at 8-13.)

App. 138
However, the actual financial impact of all of this
was tempered by the VEBA agreement. Under this
Agreement, Caterpillar and the UAW agreed to
contribute approximately $35 million in funds
previously accrued for active employees under the 1988
CLA to a Voluntary Employee Benefits Association
(VEBA). The VEBA, which was operated by an
independent trustee, paid expenses incurred by postJanuary 1, 1992 retirees and their dependents over and
above the monetary caps implemented by Caterpillar.
During the course of the 1998 CLA, most estimates
were that VEBA money would be sufficient to pay
medical “above the cap” costs through the end of the
1998 CLA in 2004.
After the 1998 labor agreement was reached,
Caterpillar prepared “Summary of Benefit Changes”
announcements, which advised that, consistent with
earlier representations, contributions from Caterpillar
would be limited as of 2000 for employees who retired
after January 1, 1992. But, the summary stated,
“VEBA assets will be used to cover the difference in
monthly premiums after the year 2000 until trust
assets are depleted. Retirees may be required to pay a
monthly premium for coverage after the trust is
depleted.” (Winnett Docket No. 431 at 48.)
In 1999, Caterpillar issued a new SPD to all
employees and retirees, which summarized the 1998
CLA. Referring to the VEBA and post-January 1, 1992
retirees, the 1999 SPD stated that, “once that fund is
depleted, monthly premium contributions from retirees
will be required.” (Id. at 51.) Consistent with previous
labor agreements, the 1999 SPD also stated that, “if

App. 139
you die while eligible to retire or following your
retirement, your surviving spouse will have coverage
for his or her lifetime without cost.” (Id.) The 1999 SPD
also reserved Caterpillar’s right to “discontinue or
change the plans in the future.” (Id.)
i. The LDSA
After the 1998 labor contract was signed, the UAW
and Caterpillar entered into a Labor Dispute
Settlement Agreement (LDSA). A primary purpose of
the LDSA was to “resolve all litigation . . . arising from,
related to or connected with the 1991-1998 labor
dispute.” (Winnett Docket No. 448 at 22.) In that
agreement, the UAW agreed to cease “funding or
otherwise supporting, directly or indirectly, any
litigation filed by itself, its members or third parties
against Caterpillar . . . arising out of, or related to or
connected with the Labor Dispute,” that is, the period
from November 1991 to March 1998. (Id.) As discussed
previously, the LDSA explicitly provides that claims
arising after ratification of the 1998 CLA are not
sufficiently connected to the Labor Dispute to implicate
this provision. 583 F. Supp.2d at 903; Kerns Docket No.
94 Ex. 8 at 1.
F. The 2004 Agreement and Costs Directly
Imposed
In late 2003 and early 2004, with the VEBA money
close to exhausted, Caterpillar and the UAW
commenced negotiations over a successor labor
contract. The parties agreed to terms on the successor
agreement in 2004, and that labor contract became
effective on January 10, 2005. Under this agreement,

App. 140
in lieu of a VEBA plan, Caterpillar agreed to pay 40
percent of the “above the cap” health care costs for
retiree medical coverage, as well as the “below the cap”
cost. The agreement also included medical benefit plan
design changes, such as the imposition of deductibles
and increased co-pays.
After considerable negotiations on the issue, the
2004 labor contract removed the “without cost for life”
language pertaining to surviving spouse medical
benefits that, in form and/or substance, had been in
every previous labor agreement discussed herein.
Indeed, the 2004 GIP contains new language that
clearly specifies that both retirees and their surviving
spouses must contribute toward their medical costs.
In October 2004, Caterpillar began directly charging
post-1992 retirees monthly premiums associated with
retiree medical costs in excess of the contractual caps.
Caterpillar maintains that it began deducting
premiums “at a much earlier time,” but the effect of the
deductions was obscured by the fact that VEBA was
covering the costs while it was funded. (Winnett Docket
No. 436 at 40.) The plaintiffs maintain that Caterpillar
made a series of “tenuous” announcements during the
1999-2003 time period, indicating that, while the VEBA
might one day be depleted, it was not a foregone
conclusion that health insurance premiums would ever
actually be paid by retirees, and, therefore, it was not
until this 2004 time period that Caterpillar’s changes
“hit home.”
In October 2005, Caterpillar representatives began
mailing letters to surviving spouses indicating that,
effective January 1, 2006, they would be required to

App. 141
pay a health care premium to maintain their coverage.
Shortly thereafter, Caterpillar began receiving
objections from some of these surviving spouses,
arguing that, based upon Caterpillar’s previous
representations, they were entitled to “without cost for
life” coverage. These surviving spouses pointed to,
among other things, letters that Caterpillar had sent
them following the death of their spouse, assuring
them that they would be entitled to coverage, for life,
“without cost.”
In April 2006, shortly after the Kerns lawsuit was
filed, Caterpillar announced that it would “waive”
premiums for those individuals whose spouse retired
(or was eligible to retire) from Caterpillar between
January 1, 1992 and January 10, 2005 and then died
prior to January 10, 2005, the effective date of the 2004
labor agreement. Caterpillar continues to charge
monthly premiums (usually well in excess of $100 per
month) for those surviving spouses whose Caterpillarretiree spouse died after January 10, 2005, that is,
after the labor agreement that removed the “without
cost” language as to surviving spouses was ratified.
Regardless of the date of the death, however,
Caterpillar, pursuant to the 2004 CLA, charges the
surviving spouse a $300 deductible before health
insurance applies and 10 percent of the post-deductible
costs, up to an out-of-pocket maximum of $750 per
year.
Beginning in 2006, Caterpillar began assessing
additional charges to the CLS subclass under the 2004
CLA. That is, deductibles of $300 per individual or
$600 for families before health insurance could apply,

App. 142
deductibles and new costs for dental and vision
coverage, along with 10 percent of the costs of
treatment up to an out-of-pocket maximum of $750 for
an individual and $1500 for a family per year.
i. The 2004 Agreement - limitations on
UAW’s conduct
The 2004 IPA also provides limitations on the
UAW’s conduct. Specifically, it states that the UAW
shall not “engage or continue to engage in or in any
manner sanction or encourage any strike, work
stoppage, slowdown, or other interruption or impeding
of work, or engage or continue to engage in any other
use of economic force for the purpose of securing any
modification, change, or termination of [the IPA or
GIP], or for the purpose of securing the establishment
of any new, different or additional plan for insurance or
other benefits for death, sickness, accident,
hospitalization or surgical or other medical services, or
other welfare plans for the benefit of Employees or
retired Employees, or the Dependents of either.”
(Winnett Docket No. 435 at 14-15.)
G. The UAW’s Conduct as to This Litigation
As has been discussed in previous opinions, one
issue in this case is whether the UAW has breached
contractual agreements (specifically the LDSA and the
2004 IPA) with Caterpillar by providing support to the
plaintiffs in this dispute. It is undisputed that the
UAW sponsors the Kerns litigation, and that the UAW
has retained Roger McClow and his firm to represent
the plaintiffs in Kerns.

App. 143
The UAW is not funding the Winnett lawsuit, has
not retained counsel to represent the plaintiffs in the
Winnett lawsuit, has informed local unions that it does
not sponsor the Winnett lawsuit, and the UAW is not
paying the attorneys’ fees and expenses of Winnett
counsel. Prior to the filing of the Winnett lawsuit,
UAW’s general counsel’s office contacted Michael
Mulder, an attorney for the Winnett plaintiffs, and
advised him of “potential pitfalls” in pursuing the
Winnett case.
The UAW does recognize that, on a couple of
occasions in 2006, senior representatives from the
UAW encouraged an individual plaintiff, Michael Finn,
who was pursuing a similar case against Caterpillar in
a federal district court in Illinois, to dismiss his
Complaint in Illinois and to re-file his Complaint in
this District, where it would be consolidated with
Winnett, all of which happened. Additionally, in March
2005, McClow, at the request of individual Caterpillar
workers in Peoria, Illinois visited with Caterpillar
retirees for the purpose of developing a possible retiree
lawsuit, but he ultimately elected not to represent
those individuals. And, prior to the filing of the Winnett
suit, McClow was retained by the UAW to be the
Union’s “eyes and ears as to what was going on with
that lawsuit.” (Winnett Docket No. 448 at 5.) There is
also no dispute that, in the time prior to the filing the
Winnett suit, various locals sent requests to the UAW
to look into their complaints about Caterpillar, and the
UAW did fact-finding as to the complaints from the
locals.

App. 144
Caterpillar also claims that the UAW has provided
support to the Winnett plaintiffs as the litigation has
proceeded. For instance, current and retired UAW
officials provided affidavits in support of the Winnett
plaintiffs’ position on the motion to transfer, and UAW
officials contacted the entity that administered the
VEBA to determine whether Caterpillar charged the
VEBA for coverage provided to surviving spouses.
Caterpillar claims that this information has been
useful to the plaintiffs in pursuing this litigation.
(Docket No. 448 at 5, 10.)
H. Procedural History
I. Winnett
The Winnett plaintiffs filed their Complaint in this
court on March 28, 2006. The Kerns plaintiffs filed
their lawsuit on April 13, 2006 in the Western District
of Tennessee. (Docket No. 243 at 42.) The Kerns
litigation was transferred to this court on November
16, 2006. Since that time, this court and the Sixth
Circuit have issued rulings that greatly influence the
court’s ruling here on the parties’ summary judgment
motions.
First, on May 16, 2007, this court denied
Caterpillar’s Motion to Dismiss in Winnett. See Winnett
v. Caterpillar, 496 F. Supp.2d 904 (M.D. Tenn. 2007).
In that opinion, after determining that the court had
jurisdiction, the court determined that the relevant
1988 agreements created “a vesting right in the
benefits at issue” and that those rights “vested when
the employees attained retirement or pension
eligibility.” Id. at 921-22. The court also concluded that

App. 145
the Winnett plaintiffs’ claims were timely under the
relevant six-year statute of limitations because the
“indefinite and contingent” nature of Caterpillar’s
communications from 1992 to 2003 would not make it
clear to the plaintiffs that they had suffered an injury
until Caterpillar actually began making the challenged
deductions directly from the employee in 2004, after
the VEBA was exhausted. Id. at 927-28. Lastly, the
court raised concerns about Count V, which alleged
that Caterpillar violated ERISA Section 102 by not
putting forth a compliant SPD following the December
1992 unilateral implementation (indeed, not putting
forth a new SPD until 1999). Id. at 928-29. The court
did not dismiss the count, but raised concerns that
discovery would show that the relief sought was
“duplicative” of other counts and that, through Count
V, the plaintiffs were impermissibly seeking to obtain
substantive relief for an alleged procedural violation of
ERISA. Id.
On July 20, 2007, the court granted Caterpillar’s
motion to certify an appeal of the court’s ruling to the
Sixth Circuit. Winnett v. Caterpillar, 2007 WL 2123905
(M.D. Tenn. July 20, 2007). In that opinion, the court
stated that it had previously “rejected Caterpillar’s
argument that actual retirement was necessary for
vesting.” Id. at *2. But, in light of the facts that
(1) “most of the plaintiffs” in Winnett “ground their
rights to lifetime no-cost retiree medical benefits” in
the 1988 contracts, (2) the 1988 labor contracts expired
on November 3, 1991, and (3) the plaintiffs and their
putative class members all retired after November 3,
1991, the court recognized that much of the Winnett
case rested on the court’s conclusion that the rights

App. 146
“vested” prior to retirement. Id. at *4-6. Therefore, the
court certified an appeal on this issue to the Sixth
Circuit. Id. at *7.
Shortly before certifying the appeal, the court
granted the Winnett plaintiffs’ motion for class
certification. Winnett v. Caterpillar, 2007 WL 2044098,
*1 (M.D. Tenn. July 12, 2007). Under Federal Rule of
Civil Procedure 23(b)(1)-(2), the court certified a main
class of retirees and surviving spouses “who are or were
participants or beneficiaries in Caterpillar’s plan that
provided for retiree medical insurance benefits; (2) for
whom the UAW had been the employees’ collective
bargaining representative at the time of their
retirement from Caterpillar,; and (3) who began
working for Caterpillar prior to the expiration of the
1988 labor agreement and who retired on or after
January 1, 1992, and before March 16, 1998, and
became eligible for the immediate commencement of a
monthly pension (with at least five years of credited
service) under the Non-Contributory Pension Plan
upon retirement; and, in the case of beneficiaries of
such retirees, who is a surviving participant spouse
whose employee spouse fulfilled the conditions above
leaving a spouse with a survivor pension.” Id. at *2.
The court also granted the Winnett plaintiffs’ motion to
certify three subclasses, that is, “(1) members of the
main class who were eligible to retire prior to January
1, 1992; (2) members of the main class who worked (or
whose employee spouses worked) under the CLS
Agreement, and (3) members of the main class who are
surviving spouses of Caterpillar retirees.” Id. at *13.

App. 147
On September 23, 2008, the Sixth Circuit ruled on
Caterpillar’s appeal in Winnett. The Sixth Circuit
recognized that most of the claims in Winnett turn “on
whether a 1988 collective labor agreement provided
workers with a right to no-cost retiree medical benefits
that vested as soon as the worker became eligible for
retirement or a pension,” and, reversing this court, the
Sixth Circuit held “that it did not.” 553 F.3d 1000, 1002
(emphasis in original). The Sixth Circuit concluded
that, under the plain language of the 1988 labor
agreement documents, “a claim based on retiree
medical benefits vesting before workers retired fails as
a matter of law.” Id. at 1008. The Sixth Circuit focused
on the “fundamental difference” between future
retirees and active retirees, that is, workers who have
not retired remain represented by a union and are free
to choose whether to retire under the labor agreement
in place at that time or whether to wait to retire and
take their chances that the union will get them better
terms in the next agreement. Id. at 1010. The Sixth
Circuit, while recognizing that the CLS subclass
members and the surviving spouses may continue to
have viable claims “based on separate contractual
provisions and distinct facts,” directed this court to
dismiss the plaintiffs’ claims “which depend exclusively
on the theory that retiree medical benefits vested
before retirement.” Id. at 1012.
While the appeal of the court’s ruling on
Caterpillar’s motion to dismiss was pending before the
Sixth Circuit, the court, after a three-day evidentiary
hearing, granted the Winnett plaintiffs’ Motion for
Preliminary Injunction as to the CLS subclass. Winnett
v. Caterpillar, 579 F. Supp. 2d 1008 (M.D. Tenn. Sept.

App. 148
16, 2008). The court found that, “to succeed on the
merits of their claim, the CLS subclass must show that
the CLS Agreement extended the 1988 CLA beyond its
expiration for the CLS subclass such that they retired
under that contract and that the 1988 GIP provided a
vested right to lifetime no-cost retiree benefits.” Id. at
1022-1023. The court found that the CLS agreement,
unambiguously, extended the 1988 CLA for the CLS
subclass such that they retired under the 1988 CLA.
Id. at 1025-27. Also, the court found that,
unambiguously, the 1988 GIP provided a vested right
to lifetime retiree health benefits, and that this finding
was supported by the extrinsic evidence produced
during the evidentiary hearing. Id. at 1032 (“even if the
language of the GIP were ambiguous, there is also
extrinsic evidence that indicates the parties intended
the benefits to vest.”)
The court also rejected a number of affirmative
defenses that Caterpillar continues to advance in this
litigation. Again, as to the six-year statute of
limitations, the court found that the CLS subclass
would not have clearly known that they had “suffered
an injury” until 2004, when the VEBA was exhausted
and Caterpillar actually began making the “challenged
deductions,” that is, rather than earlier, when
Caterpillar instituted the NetWork, made small
adjustments or sent messages implying that, in the
near future, Caterpillar retirees would be responsible
for premiums. Id. at 1040-41. (“Essentially, ‘no cost’
retirement health care to which the plaintiffs were
entitled was still available if the retiree stayed in
NetWork.”). The court also rejected Caterpillar’s
estoppel defense. Id. at 1042. After concluding that the

App. 149
CLS subclass had a substantial likelihood of succeeding
on the merits, rejecting these affirmative defenses, and
accounting for the other factors relevant to a motion for
preliminary injunction, the court issued a preliminary
injunction against Caterpillar, in favor of the CLS
subclass.5
ii. Kerns
On June 27, 2007, the court denied Caterpillar’s
Motion to Dismiss the Kerns litigation. Kerns v.
Caterpillar, 499 F. Supp. 1005 (M.D. Tenn. 2007). In
Kerns, the plaintiffs are surviving spouses of former
employees of Caterpillar who retired on or after March
5

Specifically, the court stated that “Caterpillar must provide the
CLS subclass with the same level of retiree healthcare currently
provided to Caterpillar retirees for whom the UAW had been the
employees’ collective bargaining representative at the time of their
retirement from Caterpillar and who retired before January 1,
1992. Caterpillar is enjoined from deducting premium charges for
the CLS subclass’ retiree healthcare coverage and from charging
the CLS subclass the following special charges, which are not part
of the 1998 ‘Caterpillar Hourly Retirees Central Agreement
Covered under the NetWork’ Plan: premiums to maintain their
retiree healthcare benefit; deductibles of $300 (individual) or $600
(family) before the health insurance applies; the retiree’s share of
a 90/10 split and maximum out-of-pocket payments, which require
the CLS subclass to pay 10% of the costs of their post-deductible
health care until the amount reaches the out-of-pocket maximums
of $750 (individual) or $1500 (family); and individual and family
deductibles for dental services and new costs for their vision plan.”
579 F. Supp. 2d at 1043. The court subsequently denied
Caterpillar’s Motion to Stay the preliminary injunction pending
appeal. Winnett v. Caterpillar, 2008 WL 5050103, *1 (M.D. Tenn.
Nov. 20, 2008). Caterpillar has appealed the preliminary
injunction ruling and that appeal is pending before the Sixth
Circuit. (Winnett Docket No. 310.)

App. 150
16, 1998 and before January 10, 2005. In ruling on the
motion, the court indicated that there was significant
evidence that the surviving spouses had a vested right
to “no cost” health care under the labor agreements at
issue and concluded that the proposed class only
applied to “surviving spouses,” although “a person who
is presently the spouse of a living retiree might become
a class member in the future, if and when he or she
should meet the class definition and become a
surviving spouse.” Id. at 1020-23.
The court also rejected Caterpillar’s argument that
the Kerns claims are moot. That is, while Caterpillar
maintains that it is not charging premiums to
individuals whose retiree-spouse died prior to March
10, 2005, as indicated above, Caterpillar maintains
that it has a legal right to charge these premium
payments. Also, under ERISA, the plaintiffs are
entitled to “clarify their rights to future benefits under
an ERISA plan” and to challenge “benefit
modifications” that Caterpillar has already made, in
terms of higher prescription drug co-payments, new
deductibles, new out-of-pocket maximums, and related
charges. Id. at 1024-25.
On July 12, 2007, the court granted the plaintiffs’
motion for class certification. Kerns v. Caterpillar, 2007
WL 2044092, *1 (M.D. Tenn. July 12, 2007). Pursuant
to Federal Rule of Civil Procedure 23(b)(1)-(2), the
court certified a class of “surviving spouses of former
hourly employees: (1) who were represented by the
UAW in collective bargaining; (2) who retired from
Caterpillar on or after March 16, 1998 and before
January 10, 2005, and (3) whose employment at

App. 151
Caterpillar’s facilities in Memphis, Tenn., York, Penn.,
Denver, Colorado, and Aurora, Peoria, East Peoria,
Mapleton, Mossville, Morton, Decatur, and Pontiac,
Illinois was governed by the CLAs and the related
collective bargaining agreements.” Id. at *2. Again, the
court ruled that the class could not include living
spouses. See id.
iii. UAW
Caterpillar filed a third-party Complaint against
the UAW and various local unions in both Winnett and
Kerns in 2007. (Winnett Docket No. 150; Kerns Docket
No. 82.) The UAW and the local unions moved to
dismiss. On May 1, 2008, the court dismissed most of
the claims asserted by Caterpillar, allowing only
Caterpillar’s breach of contract claims against the
UAW to proceed and only on the theory that the UAW
breached the 2004 labor agreements (Count III) and
the LDSA (count IV) by actively “encouraging and
supporting” the Winnett and Kerns lawsuits. See Kerns
v. Caterpillar, 583 F. Supp. 2d 885, 902-04 (M.D. Tenn.
2008).6

6

In decisions that apply to both cases, the court also (1) ruled that
the plaintiffs are not entitled to a jury trial on their claims (and
the plaintiffs’ trial against Caterpillar would be bifurcated) and
(2) severed the trial of the third-party proceedings from the case
asserted by the plaintiffs against Caterpillar. 2009 WL 3839755
(M.D. Tenn. Nov. 16, 2009); 2010 WL 424914, *5 (M.D. Tenn. Jan.
28, 2010).

App. 152
ANALYSIS
The plaintiffs in Winnett and Kerns seek lifetime nocost retiree health care benefits. Their claims are
brought under Section 301 of the Labor-Management
Relations Act (“LMRA”), 29 U.S.C. § 185, and under
Section 502(a)(1)(B) of the Employee Retirement
Income Security Act (“ERISA”), 29 U.S.C.
§ 1132(a)(1)(B).7 The defendant/third-party plaintiff,
Caterpillar, alleges that third-party defendant, the
UAW, breached a pair of agreements between the
parties by supporting the plaintiffs’ litigation, and,
therefore, among other things, Caterpillar is entitled to
damages and indemnification. The plaintiffs and
Caterpillar have moved for summary judgment against
each other, and the UAW has moved for summary
judgment on Caterpillar’s breach of contract claims.
I. Summary Judgment Standard
Federal Rule of Civil Procedure 56(c) requires the
court to grant a motion for summary judgment if “the
pleadings, the discovery and disclosure materials on
file, and any affidavits show that there is no genuine
issue as to any material fact and that the movant is
7

Section 301 of the LMRA states: “[s]uits for violation of contracts
between an employer and a labor organization representing
employees in an industry affecting commerce as defined in this
chapter . . . may be brought in any district court of the United
States having jurisdiction . . . .” 29 U.S.C. § 185(a). Section
502(a)(1)(B) of ERISA states that a “civil action may be brought by
a participant or beneficiary to recover benefits due to him under
the terms of his plan, to enforce his rights under the terms of the
plan, or to clarify his rights to future benefits under the terms of
the plan.” 29 U.S.C. § 1132(a)(1)(B).

App. 153
entitled to judgment as a matter of law.” If a moving
defendant shows that there is no genuine issue of
material fact as to at least one essential element of the
plaintiff’s claim, the burden shifts to the plaintiff to
provide evidence beyond the pleadings, “set[ting] forth
specific facts showing that there is a genuine issue for
trial.” Moldowan v. City of Warren, 578 F.3d 351, 374
(6th Cir. 2009); see also Celotex Corp. v. Catrett, 477
U.S. 317, 322-23 (1986). “In evaluating the evidence,
the court must draw all inferences in the light most
favorable to the [plaintiff].” Moldowan, 578 F.3d at 374.
“‘[T]he judge’s function is not . . . to weigh the
evidence and determine the truth of the matter, but to
determine whether there is a genuine issue for trial.’”
Id. (quoting Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 249 (1986)). But “the mere existence of a scintilla
of evidence in support of the plaintiff’s position will be
insufficient,” and the plaintiff’s proof must be more
than “merely colorable.” Anderson, 477 U.S. at 249,
252. An issue of fact is “genuine” only if a reasonable
jury could find for the plaintiff. Moldowan, 578 F.3d at
374 (citing Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986)).
II. The Plaintiffs’ Claims
A. Winnett
The plaintiffs argue that, even in light of the Sixth
Circuit’s ruling, there are still four avenues of recovery
available to this class or subclasses. That is, the
plaintiffs seek summary judgment as to liability for
(1) the group of class members who retired between
January 1 and December, 1992, who had the terms of

App. 154
the 1992 unilateral implementation imposed upon
them retroactively; (2) the CLS sub-class, (3) the
surviving spouse subclass, and (4) a claim on behalf of
the class as a whole to vested, no-cost health insurance
under the 1988 SPD. (Docket No. 405 at 1-2.)
i. The January 1-December 1992 subgroup
The plaintiffs claim that the 744 class members who
retired between January 1, 1992 and December 1, 1992
are entitled to benefits under the 1988 Plan because
“Caterpillar could not retroactively strip persons who
had already retired of their vested health care
benefits.” (Docket No. 405 at 6.) The plaintiffs argue
that retroactively applying an amendment to a
collective bargaining agreement that would reduce
benefits might render the contract illusory and it also
would be inconsistent with the notion that benefits
“vest” and cannot be taken away once employees retire.
(Id. at 6-7.)(citing for controlling authority Wulf v.
Quantum Chem. Corp, 26 F.3d 1368, 1378 (6th Cir.
1994)). Wulf stands for the proposition that, once a
right becomes vested in the employee, an agreement
that retroactively takes those rights away could very
well be illusory. See id. Moreover, the plaintiffs suggest
that it is unfair for Caterpillar to attempt to “claw

App. 155
back” retiree benefits through retroactive application.8
(Docket No. 405 at 8.)
In response, Caterpillar argues, correctly, that the
“1988 contract expired before the Pre-December 1992
Group Retired,” that is, there is no dispute that the
1988 Agreement terminated on November 3, 1991.
(Docket No. 439 at 2.) Therefore, under the Sixth
Circuit’s holding in Winnett, the individuals in this subgroup retired outside of the 1988 Agreement, and their
“retirement package . . . change[s] with the expiration
of their collective labor agreement,” that is, their
retirement benefits did not vest under the 1988
Agreement because they did not retire under that
Agreement. Winnett, 535 F.3d at 1011 (internal
quotation omitted). While, particularly in their reply
briefing, the plaintiffs cite an array of case law in
support of the court’s having jurisdiction to hear this
claim and argue this issue at considerable length from
a legal and equitable perspective, they fail to address
the basic issue, which is that the Sixth Circuit’s
Winnett opinion clearly forecloses recovery for this
subclass. (Docket No. 447 at 8-13.)

8

The plaintiffs also argue that the language in the 1988 IPA,
discussed above, that “Termination of the Agreement shall not
have the effect of automatically terminating the Plan,” referring to
the GIP, indicates that the November 3, 1991 termination did not
have the effect of terminating this subgroup’s right to benefits
under the 1988 Plan. (Docket No. 405 at 7.) The Sixth Circuit
considered this language (and another similar provision) in
Winnett and concluded that this language was not sufficient to vest
benefits under the 1988 Plan. 553 F.3d at 1009-10.

App. 156
As to the plaintiffs’ argument that retroactive
application is unfair, while this court clearly has
jurisdiction over this case, it does not have jurisdiction
to consider this argument, which, in the context of this
case, is an “unfair labor practice” argument and does
not arise under ERISA or the LMRA, because the
plaintiffs in this group retired outside of the 1988 Plan.
See e.g. Trollinger v. Tyson Foods, Inc., 370 F.3d 602,
608-09 (6th Cir. 2004)(“a federal district court does not
have jurisdiction to determine whether an employer
violates the NLRA by refusing to make contributions to
a pension plan during contract negotiations, which is
arguably an unfair labor practice.”) Therefore, the
claims of this group are not viable, and Caterpillar is
entitled to summary judgment on this aspect of the
plaintiffs’ case.9
ii. The CLS subclass
The plaintiffs also seek summary judgment as to
liability on the claims of the CLS subclass. (Docket No.
405 at 9.) As discussed above, at the preliminary
injunction stage, the court concluded that the CLS
9

The plaintiffs also repeatedly mention that Caterpillar does not
impose the 1992 CLA on individuals who retired between
November 3, 1991 and December 31, 1991; rather they get the
benefits of the 1988 CLA. (Docket No. 405 at 6.) In Winnett, the
Sixth Circuit cautioned against relying on extrinsic evidence that
is “irrelevant to when a worker’s right to retiree medical benefits
vests.” 553 F.3d at 1012. Here, under the Sixth Circuit’s holding in
Winnett, rights under the 1988 labor agreements would not vest for
anyone who did not retire under that agreement; how Caterpillar
may have voluntarily chosen to treat one group of individuals, in
this context, is not relevant to the vesting question as defined by
the Sixth Circuit.

App. 157
subclass retired with vested benefits pursuant to the
terms of the 1988 CLA. The plaintiffs’ argument here
essentially re-hashes the rationale that the court used
to arrive at its conclusion, which is fully explained in
the preliminary injunction Memorandum. (Docket No.
405 at 9-12.) In response, and in its own motion for
summary judgment, Caterpillar makes essentially the
same challenges and arguments that it made at the
preliminary injunction and Motion to Dismiss stage.
(Docket No. 439 at 7-9; Docket No. 413 at 16-19.)
As discussed above, after a thorough review of the
relevant documents and agreements at the preliminary
injunction stage, the court concluded that the CLS
agreement unambiguously extended the 1988 CLA
beyond its expiration for the CLS subclass such that
they retired under that contract and that the 1988 GIP
provided a vested right to lifetime “no-cost” retiree
healthcare benefits. Obviously, the language of the CLS
Agreement has not changed in the intervening period
between rounds of briefing. Therefore, the plaintiffs are
entitled to summary judgment on the issue of liability
as to this subclass.10 That said, in the intervening

10

As to all remaining plaintiffs, Caterpillar re-hashes its argument
that the claims are time-barred and barred by the doctrine of
estoppel. (Docket No. 439 at 21-25.) As to the statute of limitations
issue, as discussed in the preliminary injunction opinion, the
relevant issue under both ERISA and the LMRA is “when the
plaintiffs should have become aware of Caterpillar’s alleged breach
of its contractual obligation,” and the court determined that, the
“indefinite and uncertain” language that Caterpillar had used
regarding caps and potential future costs, the de minimis nature
of some additional charges, and the fact that no-cost health care
was essentially still available if the patient remained in the

App. 158
period between the issuance of the preliminary
injunction and the briefing here, the Sixth Circuit
issued an opinion that has considerable impact on the
scope of liability. See Reese v. CNH America LLC, 574
F.3d 315 (6th Cir. July 27, 2009)
At issue in Reese was a collective bargaining
agreement that also granted retirees lifetime healthcare benefits upon retirement. Id. at 318. The
agreement provided that “no contributions” would be
required from employees “for the Health Care Plans.”
Id. As here, as health care costs skyrocketed, the
employer in Reese and the union bargained for certain
adjustments to the health care benefits scheme,
including a preferred-provider network that threatened
NetWork all indicated that it was not until October 10, 2004, when
Caterpillar started directly charging the plaintiffs, that “the clock”
began to run, and, therefore, the claims were not barred by the sixyear statute of limitations. 579 F. Supp. 2d at 1039-42. In largely
relying on past arguments, Caterpillar has offered nothing that
would persuade the court to decide this question differently here,
and this conclusion extends to the “surviving spouse” subclass in
Winnett and the Kerns class as well, as these groups were likewise
not subject to direct charges until well within the six-year window.
Caterpillar also rehashes its estoppel argument, arguing that,
under this “flexible” doctrine, in fairness, the plaintiffs should not
be allowed to retain the benefits of the 1998 and 2004 plans
without accepting the costs. (Docket No. 439 at 24-25.) In the
preliminary injunction opinion, the court rejected this argument
on the theory that improvements to benefits over time are expected
in the labor negotiation context and “do not undermine the
principle that vested benefits cannot be altered without the
retirees’ consent.” 579 F. Supp. 2d at 1042. There is no reason to
deviate from this conclusion here, and this conclusion is extended
to the “surviving spouse” subclass in Winnett and the Kerns class
as well.

App. 159
to increase certain costs for individuals who retired
under the Health Care Plan. A class of retirees sued,
seeking a declaratory judgment that they were entitled
to life-time health care and that their benefits could not
be reduced. Id.
The first issue was the whether the benefits
provided by the labor agreement vested. Reese explains,
as this court has in previous opinions, that, in resolving
a claim for vested health care benefits stemming from
a collective bargaining agreement, the court uses basic
canons of contractual interpretation, looking to the
“explicit language” of the agreement for “clear
manifestations of intent” to vest. That is, based upon
the entire contract, the court examines whether the
language of the contract indicates that the parties
intended to make benefits under the contract
unalterable by subsequent labor agreements. Id. at
321; Yotlon v. El Paso Tenn. Pipeline, 435 F.3d 571,
578-79 (6th Cir. 2006). As noted above, as to the basic
vesting question, under Reese, there is nothing for the
court to re-consider, as the court applied this analysis
previously and determined that there was an
unambiguous intent to vest. See Winnett, 579 F. Supp.
2d at 1023-32.
However, as Caterpillar correctly points out, Reese
recognizes that health care benefit plans present a
unique issue, as labor agreements often lack precision
on the issue, and bargainers frequently “have a history”
of altering benefits over the course of the labor
relationship. 574 F.3d at 324. Indeed, in Reese, while
the labor agreement said “no contributions” from the
retiree would be required, “no party to the case – the

App. 160
union, the employer, the retirees – viewed the benefits
in this way.” Id. That is, even if the plan states “no
contributions,” it is not appropriate, in light of practical
reality, to conclude that the health coverage obtained
by someone who retired under a “no contributions”
scheme “would be fixed and irreducible into perpetuity
for all employees who retired under it.” Id. at 325.
Rather, a “no contributions” scheme, “at best, under
our cases, establish[es] a right to lifetime health-care
benefits, but not benefits that could not change from
CBA to CBA.” Id. In short, Reese stands for the
proposition that, even if the retiree has a vested right
to lifetime health benefits from his employer, unless
there is some exceptional language that dictates that
benefits can “never vary,” that retiree is entitled to
“lifetime benefits subject to reasonable changes.” Id. at
326.
The court went on to state that “this conclusion
makes sense not only in the narrow circumstances of
this case but also within the broader context of ERISA,
which contemplated just this sort of flexibility.” Id.
Indeed, citing House Reports from the time of the
passage of ERISA, the court concluded that deeming
“ancillary benefits” vested would “seriously complicate
the administration and increase the cost of plans whose
primary function is to provide retirement income.” Id.
at 326-27 (internal quotation omitted). The matter of
these “ancillary benefits,” going forward – contract to
contract – , is “left to employers, employees and unions
to handle by contract.” Id. at 327.
In conclusion, the court in Reese stated that, while
the plaintiffs were entitled to vested lifetime retiree

App. 161
health benefits, they had no entitlement to health
benefits “maintained precisely at the level provided for”
by the collective bargaining agreement under which
they retired. Id. That is, while the former employer
“cannot terminate all health-care benefits for retirees,”
it “may reasonably alter them.” Id. The Sixth Circuit
then “le[ft] it to the district court to decide how and in
what circumstances” benefits may be altered and “to
decide whether it is a matter amenable to judgment as
a matter of law or not.” Id.
As noted above, in issuing the preliminary
injunction, this court concluded that the CLS subclass
was entitled to health care benefits under the 1988
CLA and enjoined Caterpillar “from deducting
premium charges for the CLS subclass’ retiree
healthcare coverage and from charging the CLS
subclass the following specific charges . . . deductibles
of $300 (individual) or $600 (family) before health
insurance applies; the retiree’s share of a 90/10 split
and maximum out-of-pocket payments, which require
the CLS subclass to pay 10% of the costs of their postdeductible health care until the amount reaches the
out-of-pocket maximums of $750 (individual) or $1500
(family); and individual and family deductibles for
dental services and new costs for their vision plan.” 579
F. Supp. 2d at 1043.
Plainly, the intervening Reese decision dictates that
a retiree’s vested right to health coverage from his
employer is subject to reasonable changes to “ancillary”
aspects of the plan. Therefore, Reese cannot be read
consistently with some of the restrictions set forth in
the preliminary injunction. That is, adjustments to

App. 162
vested retiree benefit coverage that resulted in a
relatively modest deductible and out-of-pocket
maximum costs cannot be viewed, in light of Reese, as
unacceptable. This is particularly so because, as
discussed above and as in Reese, health care coverage,
even for retirees under the 1988 CLA, has never
actually been no cost; that is, as recognized by all
parties, co-pays and charges for office visits have
always been a part of the costs borne by retirees with
vested benefits under the 1988 CLA.11 (Docket No. 436
at 10, Docket No. 454 at 13.)
That said, charging significant monthly premiums
(often well in excess of $100 per month) to the CLS
subclass cannot be viewed as a “reasonable” or
“ancillary” change. The 1988 CLA provided that health
benefits will be provided at “no cost.” Even if
reasonable adjustments through continued collective
bargaining resulted in other acceptable incidental
medical costs, the imposition of monthly premium
charges, just to maintain the “no cost” benefit, goes too
far. The evidence in this case shows that these
premiums impose considerable yearly costs on the
retiree and, moreover, the imposition of a premium for

11

Indeed, testimony from class members and David Stevens
(Senior Labor Relations Consultant for Caterpillar) during the
preliminary injunction hearing demonstrated that, even under the
1988 Plan, retirees would have to pay for costs of the office visit to
their doctor and a specialist, along with co-payments on
prescription drugs. (Docket No. 298 at 256, 274, 365; Docket No.
299 at 549.) Indeed, at the close of testimony, the court stated that
“what has become clear to me during this hearing is that [the CLS
subclass members] all along have been paying a certain amount of
their healthcare costs.” (Docket No. 299 at 567-68.)

App. 163
the mere maintenance of health care coverage is flatly
inconsistent with the letter and spirit of the notion that
health care coverage will be provided at “no cost.”
Therefore, the court will find that, as a matter of
law, Caterpillar violated ERISA and the LMRA by
charging premiums to CLS class members, and the
court will continue to enjoin Caterpillar from charging
health care premiums to the CLS class members. The
other charges that were subject to the preliminary
injunction must be recognized as alterable under Reese.
Therefore, the court finds that these charges are
permissible, and the court will lift the injunction
(prospectively) as to these charges.12
iii. Surviving spouse subclass
Next, the plaintiffs move for summary judgment on
the issue of liability on the claims of the surviving
spouse subclass, whose spouses all retired under the
1992 unilateral implementation. (Docket No. 405 at
12.) As noted above, the 1992 unilateral
implementation (as well the agreement that came
before and after it) provided that, referring to surviving
spouses, “coverage will be continued following the
death of a retired Employee for the remainder of [the]
surviving spouse’s life without cost.” (Id. at 13.) The

12

As the parties have not had an opportunity to brief the issue, the
court will not take a position at this time as to whether Caterpillar
is entitled to attempt to recoup funds expended in relation to the
deductibles and other “ancillary” charges that the court enjoined
Caterpillar from assessing through the preliminary injunction.
Absent resolution by the parties, this would be an issue for
consideration during any damages briefing.

App. 164
plaintiffs argue that this provision unambiguously
provides the surviving spouse subclass with vested, no
cost lifetime health insurance. (Id.) As the plaintiffs
point out, the court, in the preliminary injunction
opinion, determined that this language, as contained in
the 1988 labor agreement, provided considerable
evidence that the parties intended these benefits to
vest. Winnett, 579 F. Supp.2d at 1030.
In response, Caterpillar argues that, in 1992, these
subclass members were not “surviving spouses,” but
dependents, and, therefore, the language does not
apply to them. (Docket No. 439 at 10.) Also, Caterpillar
claims that “there is no evidence to suggest the
subclass members ever saw or considered the 1992 GIP
document that contains the ‘for life without cost’
language,” but there is evidence that they received
materials indicating that Caterpillar would begin
implementing caps on retiree benefits. (Id.) Also,
Caterpillar contends that this provision must be “read
in conjunction with other provisions that clearly
contemplated cost-sharing,” including those issued by
Caterpillar during the lengthy labor dispute during
which co-payment obligations, the NetWork, and caps
were discussed. (Id. at 11.)
Simply put, the 1992 unilateral implementation
means what it says. That is, while the language is in
force, once a retired employee dies, the surviving
spouse is entitled to “continued” coverage “without
cost.” This is precisely the type of “explicit language”
and “clear manifestation of intent” that must be found
before the court can conclude, as a matter of law, that
the parties intended benefits to vest under the

App. 165
agreement. Yotlon v. El Paso Tenn. Pipeline, 435 F.3d
571, 578-79 (6th Cir. 2006). Caterpillar, for all of its
efforts to find a way around the clear language, cannot
point to a single provision in the 1992 unilateral
implementation that negates the plain language
discussed above. The language here is plainly
unambiguous and indicates that the 1992 unilateral
implementation provided surviving spouses with vested
no-cost medical benefits.13
Again, however, under Reese, the finding that the
benefits have vested leaves open the question of the
scope of those benefits. First, as discussed above,
Caterpillar argues that “the evidence demonstrates the
surviving spouse subclass has suffered no actual injury
attributable to premiums,” because Caterpillar has
“waived” premiums for this subclass.14 (Docket No. 413
13

Caterpillar argues that “the failure to exclude the ‘life without
cost’ language from the 1998 contract constitutes a mutual or
unilateral mistake.” (Docket No.439 at 11.) This argument is
without merit, among other things, because the rights of the
surviving spouses vested here under the 1992 unilateral
implementation, which Caterpillar drafted and imposed, not the
1998 agreement. See also Spectrum Health v. Valley Truck Parts,
2008 WL 5273627, *4 (W.D. Mich Dec. 17, 2008)(“Valley Truck was
not entitled to ignore the Plan’s plain language, even if it were the
result of an unintended drafting error.”); Humphrey v. United Way
of Texas Gulf Coast, 590 F. Supp. 2d 837, 848 (S.D. Tex. 2008)(“in
the ERISA context . . . drafting errors are strictly construed
against the drafter of the plan document . . . to allow a plan drafter
to reform an unambiguous ERISA plan because of its own
unilateral mistake is not appropriate.”)

14

Throughout briefing, Caterpillar has maintained that its waiver
of premiums rendered the complaints of this sub-group moot. As
discussed in the Kerns Motion to Dismiss opinion, because

App. 166
at 24). Indeed, Caterpillar contends that it “is not
charging the surviving spouse subclass members for
any premiums or other costs associated with the caps.”
(Docket No. 439 at 12); but see Docket No. 451 at
10)(Caterpillar recognizing that it does charge
premiums to a “handful of individuals” who “became
surviving spouses during the term of the 2004
contract.”)
Under the discussion above and Reese, Caterpillar
is clearly prohibited from charging premiums to the
Winnett surviving spouse subclass, because they have
a vested right to “no cost” health care benefits and
because, as concluded above, premiums are not a
reasonably alterable benefit under a “no cost” scheme.15
Caterpillar maintains that it has a legal right to charge premiums
to this sub-group, and because, under ERISA, the plaintiffs are
entitled to “clarify their rights to future benefits under the plan”
and to challenge “benefit modifications” that Caterpillar has
already made, the claims of these groups are not moot. 499 F.
Supp. 2d at 1024-25; see also Winnett, 2007 WL 2044098, at *4-5.
15

As noted above, Caterpillar does charge a premium to certain
surviving spouses, including those whose retiree-spouses died on
or after March 10, 2005. As discussed in the Kerns section, the
court concludes that the date of retirement determines whether the
rights vested, not the date of death. Therefore, Caterpillar is not
allowed to charge premiums to these Winnett surviving spouses,
regardless of when their spouse died. While the plaintiffs claim
that such surviving spouses are in the Winnett class (Docket No.
443 at 10), they recognize that it is not clear how many surviving
spouses would fall into this category, and additional discovery will
be necessary to determine the precise nature of the subclass and
damages thereto. (Docket No. 405 at 12.)(“As of December 1, 2006,
there were approximately 545 class member survivors. By now, the
number is undoubtedly greater as on that same date there were

App. 167
As noted above, however, Caterpillar, pursuant to
the 2004 CLA, does charge the surviving spouse a $300
deductible before health insurance applies and 10
percent of the post-deductible costs, up to an out-ofpocket cost of $750. (Docket No. 436 at 49-50.) These
are essentially identical charges to those that the court
found to be permissible under Reese, even though “no
cost” health benefits vested for this sub-class.
Therefore, through this opinion and subsequent order,
Caterpillar is cautioned that it may not charge health
insurance premiums to this subclass, but the
“ancillary” costs from the 2004 CLA, about which the
plaintiffs complain here, must be viewed as permissible
under Reese.
iv.

The 1988 SPD

The plaintiffs argue that the entire Winnett class is
“entitled to vested no-cost retiree health insurance
under the clear terms of the SPD in effect between
October 31, 1991 and March 16, 1998.” (Docket No. 405
at 17.) As noted above, the 1988 SPD provides that, “[i]f
you retire and are eligible for the immediate receipt of
a pension (with at least 5 years of credited service)
under the Non-Contributory Pension Plan, you will be
eligible for the Retired Medical Benefit Plan, continued
at no cost to you.” (Docket No. 431 at 14.)
The plaintiffs argue that, because a new SPD was
not issued until 1999, the language in the 1988 SPD
over 3,000 class member retirees who were married and living.
Any disputes about the precise makeup of this subclass can be
resolved in the damage phase of the case when further information
from the defendant will be available.”)

App. 168
controls and, therefore, the entire class, which had all
retired by the time of the 1999 SPD, is entitled to
vested no-cost health benefits pursuant to the 1988
SPD. (Docket No. 405 at 18.) In support, the plaintiffs
rely on a series of cases in which the Sixth Circuit
found that, between conflicting language in an SPD
and an active labor agreement, the language in the
SPD controlled. See Helwig v. Kelsey-Hayes Co., 93
F.3d 243, 250 (6th Cir. 1996); Haus v. Bechtel Jacobs
Co., LLC, 491 F.3d 557, 564 (6th Cir. 2007). The
plaintiffs then launch into a lengthy discussion of two
notices that Caterpillar did issue to UAW-represented
Caterpillar employees that described the changes to
retiree benefits brought about through the 1992
unilateral implementation. (Docket No. 405 at 19-25.)
The plaintiffs challenge these notices as “misleading
and incomplete” and argue that they did not provide
the relevant employees with a good understanding of
the benefit plan changes. (Id.)
As discussed above, while the court did not dismiss
this claim (“Count V”) at the Motion to Dismiss stage,
it did express considerable concern that the plaintiffs
were attempting to obtain substantive relief for a
procedural violation of ERISA, which is not permitted.
Winnett, 496 F. Supp. 2d at 928. That is, even if
Caterpillar did not comply with ERISA’s procedural
requirements to specify “the circumstances which may
result in disqualification, ineligibility, or denial or loss
of benefits” by (1) not timely issuing an SPD after the
1992 unilateral implementation or (2) by providing an
unclear explanation of the changes to the 1988 CLA,
substantive recovery for these procedural violations is
not permitted. Id. at 929 (citing Lake v. Metro Life Ins.

App. 169
Co., 73 F.3d 1372, 1378 (6th Cir. 1996); see also 29
U.S.C. § 1022(b); Sears v. Union Central Life Ins. Co,
222 Fed. Appx. 474, 478-79 (6th Cir. 2007) (because
failure to issue an SPD is a procedural violation,
injunctive or substantive relief was not recoverable).
It is clear from the plaintiffs’ briefing that the initial
concerns raised by the court three years ago were wellfounded. This claim, at bottom, alleges that
Caterpillar’s SPD-issuing policy during this time period
was flawed and provided improper notice. This claim
seeks substantive and injunctive relief for a procedural
violation, and, therefore, the claim is not permitted.
Moreover, the Sixth Circuit, in Winnett, found that,
through the reservation of rights clause in the 1988
SPD, “the company may discontinue the retirement
benefits of employees who have yet to retire when the
agreement [not the SPD] ends.” Winnett, 553 F.3d at
1010 (emphasis in original)(internal quotation
omitted). Therefore, under settled ERISA law and the
Sixth Circuit’s holding in Winnett, the issues
surrounding the timing of the SPD and the notice
provided to the class cannot provide the relief sought
here, and Caterpillar is entitled to summary judgment
on this issue.
B. Kerns
As noted above, the Kerns class is comprised of
individuals who are surviving spouses of Caterpillar
employees who retired between March 16, 1998 and
January 10, 2005.16 That is, all of the class members’
16

At one point, the plaintiffs also assert that “surviving spouses of
deceased employees who died while eligible to retire on or after

App. 170
spouses retired under a collective bargaining
agreement that provided that health care benefits “will
be continued following the death of a retired Employee
for the remainder of the surviving spouse’s life without
cost.” (Docket No. 243 at 12.) As discussed above in the
surviving spouse section in Winnett, the court has
concluded that this language is sufficient to
unambiguously vest in the surviving spouse a right to
lifetime “no cost” health benefits.17
Caterpillar offers a series of affirmative defenses,
most of which have been, in large part, addressed in
the Winnett discussion. Again, the court finds no merit
in Caterpillar’s “mistake” argument. That is, given the
unambiguous language of the agreement and given
that this language was repeated time and time again,

March 16, 1998 and before January 10, 2005 have a vested right
to lifetime health benefits . . . regardless of the expiration of the
contract.” (Docket No. 218 at 3.) This group of individuals is
facially outside of the scope of the class that was certified, all three
class representatives’ spouses retired from Caterpillar, and
argument did not focus on these individuals, so it is not clear on
what grounds the plaintiffs seek relief for these individuals.
17

In the Motion to Dismiss opinion, the court noted that, at that
stage, despite “strong evidence” of an intent to vest, it would be
premature “to rule on the merits as to whether the plaintiffs have
a vested right in the lifetime benefits they seek.” Kerns, 499 F.
Supp. 2d at 1019. As discussed above, in light of the full record at
the summary judgment stage, the court concludes that, using
standard canons of contractual interpretation, the language “will
be continued following the death of a retired Employee for the
remainder of the surviving spouse’s life without cost,”
unambiguously demonstrates an intent to vest the benefits for the
surviving spouse.

App. 171
Caterpillar’s argument that this specific language as to
surviving spouses was left in in error is not viable.18
Caterpillar also, as in Winnett, argues that the
claims here are time-barred. (See Docket No. 246 at 13;
Docket No. 219 at 4.) The court has repeatedly
explained why these claims are not time-barred, and
there is no reason to reiterate that discussion here.19
Caterpillar also argues, again, that the claims of the
surviving spouses are moot. (See Docket No. 219 at 8.)
The court has also repeatedly addressed this issue and
concluded that, because, among other things, the
18

While it is not necessary to consider extrinsic evidence here, the
extrinsic evidence submitted plainly supports the plaintiffs’
position that there was no mistake. See Cole v. ArvinMeritor, 549
F.3d at 1064, 1075 (6th Cir. 2008)(where the contract language is
unambiguous, the court is to apply that language without recourse
to extrinsic evidence.) As discussed in previous opinions, the Kerns
plaintiffs have submitted letters from Caterpillar to class members
upon the death of their spouse in which Caterpillar represents that
health care coverage will continue at “no cost,” and the plaintiffs
have also submitted evidence that appears to show that
Caterpillar did not charge the VEBA for surviving spouse
premiums. (See Docket Nos. 223 Ex. 10; Docket No. 218 at 13.) In
response, Caterpillar largely relies on self-serving deposition
testimony from its own representatives, while conceding that the
VEBA was not charged for surviving spouses and that it sent the
letters discussed above to surviving spouses.. (Docket No. 246 at
7-13; Docket No. 219 at 6-7.)
19

The court does find that, contrary to the Kerns plaintiffs’
argument, Caterpillar did not waive the statute of limitations
defense by not asserting it in its answer, as the Kerns class has
failed to show prejudice from the omission and, given the
prominence of this issue in the related Winnett case, prejudice
would be very difficult to show. See Moore, Owen, Thomas & Co. v.
Coffey, 992 F.2d at 1439, 1445 (6th Cir. 1993).

App. 172
plaintiffs are entitled to seek declaratory relief under
ERISA, and because Caterpillar still asserts that it has
the right to withhold premiums and other benefits from
the surviving spouses, the claims of this group are not
moot. Friends of the Earth, Inc. v. Laidlaw
Environmental Servs. (TOC), Inc., 528 U.S. 167, 189
(2000)(mootness is not implicated unless the facts
make it “absolutely clear” that the challenged conduct
will not reasonably recur).
That said, there is no dispute that, for class
members whose spouse retired and then died all
between 1992 and 2005, “Caterpillar is not charging . . .
for any premiums or other costs associated with the
caps.” (Docket No. 240 at 16.) Caterpillar maintains,
however, that it is permitted to (and does) charge
premiums to surviving spouses whose spouse retired
from Caterpillar prior to the ratification of the 2004
labor agreement but died after that agreement was
ratified. (Id. at 17-18.) Caterpillar argues that any
claims by this portion of the Kerns class are foreclosed
by the Sixth Circuit’s opinion in Winnett. That is,
Caterpillar argues that, because Winnett holds that one
must retire under the Plan in order to vest in retiree
benefits under it, in order to qualify for “surviving
spouse” retiree benefits, the individual must fully
qualify as a “surviving spouse” during the term of the
plan, that is, the spouse must retire and die during the
term of the Plan. (Id. at 19.)
The court does not read Winnett this broadly. The
primary issue before the Sixth Circuit in Winnett was
whether rights could vest while the employee was “in
service,” and the court concluded that they could not,

App. 173
largely because there is a “difference between retired
workers and those who are still represented by a
union.” That is, workers must “balance the certainty of
particular retirement benefits against the potential to
keep earning money, while accepting the risk that a
future collective bargaining agreement’s retirement
benefits may not be as favorable.” 553 F.3d at 1010-11.
Caterpillar’s interpretation, that Winnett stands for
the proposition that all “contingencies upon which their
right to benefits depended” must be met during the
period that the agreement is in force, is simply not
supported by the primary rationale for the Winnett
decision. Indeed, the decision more clearly stands for
the proposition that the “key moment” at which future
benefits vest is the moment of retirement. (Docket No.
253 at 15-16.) Therefore, the court concludes that a
surviving spouse is not precluded from relief simply
because her retiree-spouse happened to die after the
ratification of the 2004 agreement.2021
The court has concluded that lifetime benefits
vested for the Kerns class and Caterpillar has no viable
20

As noted in a prior opinion, while the Kerns class consists only
of “surviving spouses,” the size of the Kerns class may grow in the
future, as the living Caterpillar retirees who retired under the
1998 Plan pass on. Kerns, 499 F. Supp. 2d at 1023.
21

In a footnote, providing little explanation, Caterpillar argues
that, because the 1998 CLA was “superseded” by the 2004 CLA,
the plaintiffs’ claim here falls under the exclusive jurisdiction of
the NLRB. (Docket No. 253 at 15-16.) This argument is facially
without merit because the statutes under which the plaintiffs sue
provide that the plaintiffs may sue if a contract under which they
had rights was breached.

App. 174
affirmative defenses. The court, then, turns to the
Reese analysis to determine whether the changes to the
benefit plans at issue here run afoul of the dictates of
that decision.
Consistent with the discussion above, the Kerns
class does not primarily complain about premium costs
because Caterpillar has waived premiums for most of
class. Rather, the class complains that, “effective
January 1, 2006, Caterpillar reduced the health care
benefits for surviving spouses by: (1) imposing new
deductibles, co-insurance and increased out-of-pocket
costs” and (2) requiring “some class members [with
post-ratification spouse deaths] to pay a monthly
premium and stating that it has the right to charge a
monthly premium for all class members (though it is
‘waiving it’ for the time being for some).” (Docket No.
218 at 2.)
To be clear, even though the language of the
relevant labor agreement states that benefits are “no
cost,” the Kerns class does not assert that they are
entitled to absolutely free medical benefits; rather, they
“object to paying any cost increases above those set
forth in the 1998 GIP,” which, they claim, are: an
annual deductible ($300 per individual and $600 per
family), an annual out-of-pocket maximum charge
($1,000 per individual and $2,000 per family), and coinsurance that, effective January 1, 2006, requires
them to pay 10 percent of in-network costs (rising to 20
percent in 2008) and a range from 10 percent to 50
percent of out-of-network costs depending on the
service rendered. (Docket No. 241 at 16.) The plaintiffs
also assert that Caterpillar has not reimbursed

App. 175
plaintiff Stewart for increased prescription drug copayments that it imposed on her from January 1 to
November 1, 2006. (Docket No. 240 at 9.)
For the same reasons as expressed in Winnett, the
court finds that these additional charges, while
undoubtedly imposing a financial burden on the class
members, are “reasonable” and ancillary charges under
Reese. As in Reese, while the plan documents say “no
cost” or “no contributions,” “no party to the case – the
union, the employer, the retirees – viewed the benefits
in this way.” 574 F.3d at 324. That is, the Kerns
plaintiffs concede that they are responsible for, at least,
a $5/$15 (generic/brand) prescription drug co-payment
and the assorted additional medical charges (including
out-of-pocket costs) that come from seeing an out-ofnetwork physician under the 1998 GIP, along with the
costs of office visits. (Docket No. 250 at 17; Docket No.
240 at 4; Docket No. 253 at 15.) That is, aside from the
imposition of premiums, the Kerns plaintiffs are not
objecting to “costs,” only “increased costs.”
This Plan, like the plan in Reese, is subject to
reasonable adjustments, as part of the give-and-take of
labor negotiations. Therefore, as in Winnett, Caterpillar
has not violated ERISA or the LMRA by instituting
these additional charges. However, for the same
reasons as in Winnett, premiums to maintain health
insurance coverage constitute a “different animal” from
increased charges once an individual is using the
health care system. Caterpillar may not lawfully
charge premiums to the Kerns class members,
regardless of the date of the death of the retiree-spouse.
The surviving spouses who have been charged

App. 176
premiums because their spouses died after March 10,
2005 have been damaged and their rights under ERISA
and the LMRA have been violated.
C. Third-Party Complaint
On May 1, 2008, in essentially identical opinions
that ruled on the UAW’s Motion to Dismiss in Winnett
and Kerns, the court dismissed much of Caterpillar’s
third-party Complaint against the UAW and several
local labor unions. See Winnett, 2008 WL 1943995;
Kerns, 583 F. Supp.2d 885. Indeed, the court dismissed
all but Caterpillar’s claims (asserted under Counts III
and IV of its third-party Complaint) that the UAW
breached the 2004 labor agreements (Count III) and
the LDSA (Count IV) by actively “encouraging and
supporting” the Winnett and Kerns lawsuits. See Kerns,
583 F. Supp. 2d at 902-04. Discovery has shown that
Caterpillar’s remaining claims against the UAW are
without merit and should be dismissed.
First, Count IV alleges that, by “actively
sponsor[ing], fund[ing], encourag[ing], and support[ing]
the Kerns lawsuit, and “actively encourag[ing] and
support[ing]” the Winnett litigation, the UAW breached
the LDSA, which, as noted above, prohibits the UAW
from “funding or otherwise supporting, directly or
indirectly, any litigation filed by itself, its members or
third parties against Caterpillar . . . arising out of, or
related to or connected with the Labor Dispute,” that
is, the period from November 1991 to March 1998. (See
Kerns, 583 F. Supp. 2d at 902; Winnett Docket No. 448
at 22.) As discussed in the Motion to Dismiss opinion,
the LDSA explicitly provides that claims arising after
ratification of the 1998 CLA are not sufficiently

App. 177
connected to the Labor Dispute to implicate this
provision. 583 F. Supp.2d at 903; Kerns Docket No. 94
Ex. 8 at 1.
At the Motion to Dismiss stage, the UAW argued
that, because the plaintiffs’ claims in the Winnett and
Kerns litigation arose when the premiums and other
costs were first directly assessed, the claims arose after
ratification of the 1998 CLA. Kerns, 583 F. Supp.2d at
903. At that time, the court did not dismiss Count IV
because Caterpillar had met its mild burden to state a
claim upon which relief could be granted. Id. Now,
however, the court has determined (repeatedly) that
the plaintiffs’ claims arose several years after
ratification and, therefore, the provision of the LDSA
under which Caterpillar sued cannot provide relief.
Therefore, Count IV will be dismissed.
Count III is a breach of contract claim based upon
the 2004 labor contracts. As discussed in the court’s
previous opinion, the 2004 labor contracts contain no
explicit promise from the UAW “not to encourage or
support any claims by Caterpillar retirees for vested
benefits.” Id. at 902. Yet, Caterpillar alleges that the
UAW has breached the provision that prohibits the
UAW from “engag[ing] or continu[ing] to engage in or
in any manner sanction[ing] or encourag[ing] any
strike, work stoppage, slowdown, or other interruption
or impeding of work, or engag[ing] or continu[ing] to
engage in any other use of economic force for the
purpose of securing any modification, change, or
termination of [the IPA or GIP], or for the purpose of
securing the establishment of any new, different or
additional plan for insurance or other benefits for

App. 178
death, sickness, accident, hospitalization or surgical or
other medical services, or other welfare plans for the
benefit of Employees or retired Employees, or the
Dependents of either.” (Winnett Docket No. 435 at 1415.)(emphasis added).
Caterpillar also alleges that the UAW’s conduct has
breached the 2004 labor contracts through
“subversion.” Kerns, 583 F. Supp.2d at 902. While, in
its previous opinion, the court expressed some concerns
about the viability of Caterpillar’s Count III claims in
the long run, the court found, that, “[v]iewing these
allegations in the light most favorable to Caterpillar,
these allegations are sufficient to withstand a Rule
12(b)(6) attack.” Id.
Now, as to Winnett, the UAW argues that there is
no factual basis for Caterpillar’s claim that it
“encouraged or supported” the Winnett litigation.
(Winnett Docket No. 402 at 11-12.) That is, it is
undisputed that the UAW is not funding the Winnett
litigation, has not retained counsel for the Winnett
plaintiffs and is not paying any fees or expenses
associated with that case, and that, prior to the filing
of the Winnett lawsuit, Michael Saggau of the UAW’s
general counsel’s office spoke to counsel for the Winnett
plaintiffs, advising them of “pitfalls” associated with
this type of litigation. (Id. at 12.)
Moreover, the UAW argues, even if, prior to the
Winnett filing, Mr. McClow visited some Caterpillar
retirees to discuss a potential lawsuit, that conduct
falls well short of “encouraging or supporting” the
Winnett litigation. (Id. at 13.) Finally, while, after
Winnett was filed, UAW representatives (1) submitted

App. 179
affidavits in support of the plaintiffs’ position on issues
such as the motion to transfer, (2) encouraged Mr. Finn
to move his case to this District and (3) conducted
discovery into issues such as whether Caterpillar had
billed the VEBA for surviving spouse medical expenses,
these facts only show that the UAW was “seeking to
protect its own interests, particularly the UAW’s
interest in minimizing the time and expense of the
lawsuits on the UAW.” (Id. at 14.) That is, knowing
that “many of the key witnesses and documents” in the
case would come from the UAW, the UAW sought to
have this litigation conducted in a single, easilyassessable location, that is, Nashville, Tennessee. (Id.)
And, on the conducting investigation/VEBA issue, the
UAW argues that Caterpillar, having sued the UAW,
can hardly complain when the UAW takes steps to
discover the facts of the litigation in an attempt to
vigorously defend itself. (Winnett Docket No. 452 at 6.)
While there is no dispute that the UAW is
supporting the Kerns litigation financially and
otherwise, the UAW argues that “the 2004 Labor
Agreement does not preclude” the UAW’s sponsorship
of the litigation. (Kerns Docket No. 211 at 12.) The
UAW points out that there is no “covenant not to sue”
in the 2004 labor agreements between the UAW and
Caterpillar and no other explicit language that would
prohibit the UAW from supporting this litigation. (Id.
at 14.) While there is a “no strike” provision in the 2004
IPA (quoted above), the UAW argues that “notably
absent from the list of specific conduct in which the
UAW may not engage is a prohibition on sponsoring
litigation.” (Id.)

App. 180
Additionally, the UAW argues, Caterpillar’s
“subversion” argument must be rejected. That is, while
breach may, in certain circumstances, be inferred from
actions that are “inconsistent with” the existence of a
contract, the UAW’s actions here are not “inconsistent
with” the existence of the 2004 labor agreements, as
the UAW is sponsoring the Kerns plaintiffs’ argument
that they have a vested right to health benefits under
a pre-2004 labor agreement. (See id. at 19.) This is
particularly so here, where “the UAW and Caterpillar
have long resorted to litigation to clarify their
contractual rights” and to challenge each other’s
“interpretation or execution of the parties’ various
agreements.” (Id. at 17.)
In a consolidated response, Caterpillar notes (again)
that the UAW is sponsoring the Kerns lawsuit and rehashes its evidence (the McClow meeting, the VEBA
investigation, the motion to transfer affidavits, the
discussion with Finn, etc.) in support of the argument
that the UAW is “encouraging” the Winnett lawsuit.
(Winnett Docket No. 437 at 4-9.) Next, Caterpillar
argues that the UAW is “subverting” the 2004 labor
agreement and breaching the implied covenant of good
faith and fair dealing implied therein because it is
“frustrat[ing] the purpose of the[] contract.” (Id. at 913)(citing, e.g. Safeco v. City of White House, Tenn., 36
F.3d 540, 548 (6th Cir. 1994); 23 WILLISTON ON
CONTRACTS § 63:1 (refusal to recognize existence of
a contract or to act consistently with the existence of a
contract may be a breach).. Rather than a typical labor
dispute between the parties over the meaning of a
contract term, Caterpillar argues, the UAW is seeking
to invalidate the terms of the 2004 agreement, which

App. 181
specify that retirees and their surviving spouses are to
pay specific dollar amounts for medical care. (Id. at 11.)
As indicated by the lack of “on point” case law
Caterpillar put forth in support of its subversion
argument, this is simply not a situation in which a
“breach by subversion or bad faith” argument can
credibly be raised. The UAW is simply not acting
inconsistently with the existence and validity of the
2004 labor agreement or that agreement’s covenant of
good faith and fair dealing by supporting the argument
that the plaintiffs have rights that vested under an
earlier agreement. See generally Safeco, 36 F.3d at 548.
The UAW is not supporting a position that disclaims
the existence of the 2004 agreement or a position that
is flatly inconsistent with its terms; it is, rather,
supporting a position that the plaintiffs are not bound
by certain regulations in that agreement because of the
language of an earlier agreement. Caterpillar’s
subversion argument, therefore, fails as a matter of
law.
Next, Caterpillar argues that the UAW’s conduct
here is explicitly prohibited by the 2004 IPA language
that prohibits the UAW from using “any other . . .
economic force for the purpose of securing any
modification, change or termination of this Agreement.”
(Winnett Docket No. 437 at 13.) While Caterpillar
concedes that this language is contained in what is
“essentially a no strike clause,” through this language,
“the provision goes beyond the typical no strike clause.”
(Id. at 14.) Absent from Caterpillar’s briefing is any
case law that has extended language of this type to
prohibit the support and funding of litigation.

App. 182
Caterpillar is attempting to stretch this provision
well beyond its reasonable interpretation. The “other
use of economic force” language is surrounded by
specific examples of prohibited conduct – all of which
fall into the category of “causing a labor disruption.”
That is, this catch-all provision appears to be a term of
art that seeks to prohibit conduct that would disrupt
Caterpillar’s ability to produce its products in a timely
manner. See also Brown v. Pro Football, 782 F. Supp.
125, 135 (D.D.C. 1991)(“‘economic force’ . . . includes
strikes, lockouts, pickets, and the hiring of replacement
workers.”). While Caterpillar makes a clever argument,
there is no indication – either from the contract or the
record – that a broad prohibition on the support of
litigation was the parties’ intent, and there certainly
would be much clearer and more logical ways to convey
the point.
Rather, as the UAW points out, litigation over the
terms of a collective bargaining agreement is a fairly
common and accepted practice between these parties,
and to say that the parties would have intended,
through such vague and ill-connected language, to
prohibit the support of litigation surrounding the labor
agreement strains credulity. (Winnett Docket No. 452
at 12-13.) In sum, Caterpillar’s argument that the “use
of economic force” catch-all bars the UAW’s conduct
here fails as a matter of law. Therefore, Caterpillar
cannot point to a provision in the 2004 labor agreement
that the UAW has breached through its conduct in
either case. With no viable arguments remaining,

App. 183
Caterpillar’s third-party Complaint against the UAW
will be dismissed.22
CONCLUSION
All liability issues between the parties (other than
the UAW’s counterclaims against Caterpillar) are
resolved by this opinion.
The Winnett plaintiffs are entitled to judgment as a
matter of law on their remaining ERISA and LMRA
claims as to the CLS subclass and the “surviving
spouse” subclass, with potential damages having been
incurred as to both of those subclasses due to
Caterpillar’s charging of premiums (but only
premiums) to those subclasses as described above.
Caterpillar is entitled to summary judgment on the
other remaining claims in Winnett, and the court,

22

On March 18, 2009, in both the Winnett and Kerns litigation,
Caterpillar filed a Motion to Re-Open Discovery for the Limited
Purpose of Deposing Roger J. McClow, or in the Alternative, to
Strike the Declaration of Roger J. McClow. (Winnett Docket No.
458; Kerns Docket No. 259.) The premise of this motion is that,
throughout this litigation, McClow has been shielded from all
manner of discovery by counsel’s invocation of attorney-client
privilege, yet McClow submitted an affidavit in summary
judgment briefing refuting Caterpillar’s assertion that he was
working for the UAW when he met with the retirees in 2005.
(Kerns Docket No. 260 at 1.) Caterpillar asks the court to either
(1) compel Mr. McClow to appear for deposition to answer
questions about the matter in his affidavit or (2) disregard and
strike the affidavit. (Id. at 2.) As should be clear from the
discussion herein (including the fact that the court has not relied
on McClow’s affidavit in reaching its conclusions), Caterpillar’s
claims fail regardless of the challenged statements in McClow’s
affidavit, and, therefore, Caterpillar’s motion will be denied.

App. 184
through the attached Order, will amend the
preliminary injunction entered earlier to reflect this.
The Kerns plaintiffs are entitled to judgment as a
matter of law on their remaining ERISA and LMRA
claims, as the court finds that it was and would be
improper for Caterpillar to charge premiums (but only
premiums) to this class as described above, and
potential damages have been incurred by this class to
the extent that Caterpillar has charged premiums to
certain members of this class, that is, those whose
spouses died after the ratification of the 2004 Labor
Agreement. Caterpillar is entitled to summary
judgment on the other aspects of the plaintiffs’ claims
in Kerns.
An appropriate order will enter.
/s/Aleta A. Trauger
ALETA A. TRAUGER
United States District Judge

App. 185
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-0235
Judge Trauger
[Filed March 26, 2010]
_____________________________
GARY T. WINNETT, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
)
Defendant/
)
Third-Party Plaintiff,
)
)
v.
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
)
Third-Party Defendants. )
_____________________________ )
Case No. 3:06-1113
Judge Trauger
_____________________________
JUDITH K. KERNS, et al.,
)
)
Plaintiffs,
)

App. 186
v.

)
)
CATERPILLAR INC.,
)
)
Defendant/
)
Third-Party Plaintiff,
)
)
v.
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
)
Third-Party Defendants. )
_____________________________ )
ORDER
For the reasons expressed in the accompanying
Memorandum, the Motion for Summary Judgment filed
by the third-party defendant, the International Union,
UAW (“UAW”), in these cases (Winnett Docket No. 398
and Kerns Docket No. 207) is GRANTED and
Caterpillar’s Motion to Re-Open Discovery for the
Limited Purpose of Deposing Roger J. McClow, or in
the Alternative, to Strike the Declaration of Roger J.
McClow (Winnett Docket No. 458; Kerns Docket No.
259) is DENIED. Caterpillar’s Third-Party Complaint
against the UAW in these cases is DISMISSED.
The Motions for Summary Judgment filed by the
Winnett (Docket No. 404) and Kerns plaintiffs (Docket
No. 213) and by Caterpillar in these cases (Winnett
Docket No. 410 and Kerns Docket No. 214) are
GRANTED IN PART AND DENIED IN PART as
described in the attached Memorandum. In Winnett,

App. 187
Caterpillar remains enjoined from deducting premium
charges for the CLS subclass’ retiree healthcare
coverage but, going forward, Caterpillar is no longer
enjoined from charging the other “specific charges”
mentioned in the court’s September 16, 2008 Order
(Winnett Docket No. 307).
As the liability issues that would have been the
subject of the June 2010 and August 2010 trials set in
these cases have been resolved, those trial settings will
be removed from the calendar. The parties have
indicated that additional discovery into damages will
be necessary.
It is so ordered.
Enter this 26th day of March 2010.
/s/Aleta A. Trauger
ALETA A. TRAUGER
United States District Judge

App. 188

APPENDIX K
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-cv-01113
District Judge Trauger
Magistrate Judge Brown
Class Action
[Filed July 12, 2007]
_____________________________
JUDITH K. KERNS, MARCIA )
NALLEY, and SANDRA L.
)
STEWART, on behalf of
)
themselves and a similarly
)
situated class,
)
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR, INC.,
)
)
Defendant.
)
_____________________________ )
MEMORANDUM
Currently pending before the court is a motion for
class certification filed by the plaintiffs (Docket No. 60),
the defendant’s response thereto (Docket No. 66), and

App. 189
the plaintiffs’ reply (Docket No. 67). For the reasons
explained herein, the plaintiffs’ motion will be granted.
I. Introduction
This is an action for vested lifetime health care
benefits. The plaintiffs are surviving spouses of former
employees of Caterpillar, Inc. (“Caterpillar”) who
retired on or after March 16, 1998 and before January
10, 2005. According to the plaintiffs, this lawsuit was
precipitated by Caterpillar’s announcement in 2005
that, beginning in 2006, class members would be
required to pay monthly premium sharing co-payments
and that, effective in 2006, 2008, and 2010, Caterpillar
was modifying the health care benefits, including
making a series of increases to the prescription drug
co-payments and imposing new deductibles and annual
out-of-pocket maximums paid by the class.
On April 13, 2006, the plaintiffs originally filed this
action in the Western District of Tennessee (W.D.
Tenn. Case No. 2:06-cv-2213). The plaintiffs seek relief
under § 301 of the Labor Management Relations Act
(“LMRA”), 29 U.S.C. § 185, and under § 502 of the
Employee Retirement Income Security Act (“ERISA”),
29 U.S.C. § 1132, from the defendant Caterpillar for
breach of a collective bargaining agreement (“CBA”)
and a welfare benefit plan.
The defendant provided health care benefits for the
plaintiffs’ spouses and the proposed class pursuant to
successive CBA’s with the United Auto Workers
(“UAW”). According to the plaintiffs, the parties to the
CBA’s intended for these health care benefits for
surviving spouses to vest and to continue beyond the

App. 190
expiration of any particular contract. The plaintiffs
claim that the defendant breached its promise to pay
lifetime health benefits to surviving spouses at no cost
when, in 2005, Caterpillar began charging surviving
spouses for a portion of their medical care. The
plaintiffs also complain they were charged increased
co-payments for prescription drugs and other out-ofpocket expenses.
The plaintiffs seek declaratory judgment,
preliminary and permanent injunctive relief requiring
Caterpillar to maintain the level of health care benefits
as required by the terms of the 1998 CBA, an order for
the defendant to pay damages, plus interest, to the
class for any losses suffered, an order for the defendant
to pay damages for mental distress and anguish, and
award of attorney’s fees, punitive damages and costs,
and any further relief.
On September 29, 2006, the defendant filed a
motion to dismiss, contending that the court lacks
subject matter jurisdiction over the plaintiffs’ LMRA
and ERISA claims; that the plaintiffs cannot maintain
an action on behalf of a hypothetical group of “future”
surviving spouses that cannot be readily identified; and
that the claims of current surviving spouses--i.e., those
who became surviving spouses while the 1998 labor
contracts were in effect--are moot. (W.D. Tenn. Docket
No. 31).
On November 9, 2006, the defendant filed a motion
to transfer the case to the Central District of Illinois.
(W.D. Tenn. Docket No. 36). The Honorable Jon Phipps
McCalla denied the defendant’s motion to transfer by
order entered November 9, 2006, and, instead,

App. 191
transferred the case to the Middle District of
Tennessee, where a companion case, Winnett v.
Caterpillar, Inc., 3:06-cv-00235, was already pending.1
(W.D. Tenn. Docket No. 39). On November 30, 2006,
the plaintiffs filed their response in opposition to the
defendant’s motion to dismiss. (Docket No. 50).
On June 27, 2007, the court denied Caterpillar’s
motion to dismiss, finding that the court had subject
matter jurisdiction over this suit and that the
plaintiffs’ surviving spouses claims were not moot. The
court further found that it was too early in this
litigation to determine whether the plaintiffs’ right to
lifetime, no-cost health benefits vested under the 1998
CLA and previous contracts. (Docket Nos. 77 and 78).
The plaintiffs have now filed a motion for class
certification. (Docket No. 60). They seek to represent a
putative class under Federal Rule of Civil Procedure
23(a) and (b) consisting of surviving spouses of former
hourly employees: (1) who were represented by the
UAW in collective bargaining; (2) who retired from
Caterpillar on or after March 16, 1998 and before
January 10, 2005; and (3) whose employment at
Caterpillar’s facilities in Memphis, TN, York, PA,
Denver, CO, and Aurora, Peoria, East Peoria,
Mapleton, Mossville, Morton, Decatur and Pontiac, IL
was governed by the Central Labor Agreements and
the related CBA’s. (Docket No. 60 at 1-2). The plaintiffs
assert that, based on the information provided thus far
by Caterpillar, there are about 375-430 persons who
currently meet the proposed class definition.
1

The Winnett case has not been consolidated with the instant case.

App. 192
II. Facts
The relevant facts of this case are set forth in the
court’s memorandum opinion entered on June 27, 2007,
and are incorporated herein by reference. (Docket No.
77 at pp. 1-18).
III. Analysis
The principal purpose of class actions is to achieve
efficiency and economy of litigation, both with respect
to the parties and the courts. See Gen. Tel. Co. v.
Falcon, 457 U.S. 147, 159, 102 S. Ct. 2364, 72 L.Ed.2d
740 (1982). The Supreme Court has observed that, as
an exception to the usual rule that litigation is
conducted by and on behalf of individual named
parties, “[c]lass relief is ‘peculiarly appropriate’ when
the ‘issues involved are common to the class as a whole’
and when they ‘turn on questions of law applicable in
the same manner to each member of the class.’” Id. at
155 (quoting Califano v. Yamasaki, 442 U.S. 682, 70001, 99 S. Ct. 2545, 61 L.Ed.2d 176 (1979)). The Court
directs that, before certifying a class, district courts
must conduct a “rigorous analysis” of the prerequisites
of Rule 23 of the Federal Rules of Civil Procedure. See
Falcon, 457 U.S. at 161. The Sixth Circuit has stated
that district courts have broad discretion in deciding
whether to certify a class, but that courts must exercise
that discretion within the framework of Rule 23.
Coleman v. Gen. Motors Acceptance Corp., 296 F.3d
443, 446 (6th Cir. 2002); In re Am. Med. Sys., Inc., 75
F.3d 1069, 1079 (6th Cir. 1996).
Although a court considering class certification may
not inquire into the merits of the underlying claim, a

App. 193
class action may not be certified merely on the basis of
its designation as such in the pleadings. See Eisen v.
Carlisle & Jacquelin, 417 U.S. 156, 178, 94 S. Ct. 2140,
40 L.Ed.2d 732 (1974); In re Am. Med. Sys., Inc., 75
F.3d at 1079. In evaluating whether class certification
is appropriate, “it may be necessary for the court to
probe behind the pleadings....” Falcon, 457 U.S. at 160;
see also In re Am. Med. Sys., Inc., 75 F.3d at 1079;
Weathers v. Peters Realty Corp., 499 F.2d 1197, 1200
(6th Cir. 1974). Moreover, the party seeking class
certification bears the burden of establishing its right
to it. See Alkire v. Irving, 330 F.3d 802, 820 (6th Cir.
2003); Senter v. Gen. Motors Corp., 532 F.2d 511, 522
(6th Cir. 1976).
A. The plaintiffs have demonstrated that they meet
the requirements of Rule 23(a).
Any party seeking class certification must meet all
four prerequisites of Rule 23(a)--numerosity,
commonality, typicality, and adequacy of
representation--before a class can be certified. See Fed.
R. Civ. P. 23(a); In re Am. Med. Sys., Inc., 75 F.3d at
1079. The court will discuss each of these prerequisites
in turn.
Before moving to this discussion, however, the court
notes that, in response to the plaintiffs’ motion for class
certification, Caterpillar attacks the court’s jurisdiction
over the plaintiffs’ claims. Caterpillar also argues that
the plaintiffs’ claims are moot. These are the same
arguments Caterpillar advanced in its motion to
dismiss, which the court already has rejected.
Moreover, the court should not consider the merits
when ruling on a motion for class certification. Fox v.

App. 194
Massey-Ferguson, Inc., 172 F.R.D. 653, 660 (E.D. Mich.
1995)(in ruling on a motion for class certification, “the
court should not consider the merits of the action.
Rather, the court must accept all of the factual
allegations . . . as being correct and draw all reasonable
inferences from these facts.”).
1. The plaintiffs have demonstrated numerosity.
Rule 23(a)(1) requires that the class be “so
numerous that joinder of all members is impracticable.”
Fed. R. Civ. P. 23(a)(1). In Senter, the Sixth Circuit
explained that there is “no specific number below which
class action relief is automatically precluded” and that
it is the circumstances of the case, not a strict
numerical test, that determines impracticability of
joinder. See Senter v. Gen. Motors Corp., 532 F.2d 511,
523 n. 24 (6th Cir. 1976). When class size reaches
substantial proportions, however, the impracticability
requirement is usually satisfied by the numbers alone.
In re Am. Med. Sys., Inc., 75 F.3d at 1079.
Apart from class size, factors that courts should
consider in determining whether joinder is
impracticable include the geographical dispersion of
class members, the injunctive nature of the action, how
easily class members can be identified, judicial
efficiency, fear of harassment, and the relatively small
size of individual claims. See Alba Conte & Herbert
Newberg, 1 Newberg on Class Actions § 3:6 (4th ed.
2003) (hereinafter “Newberg”); see also Saur v. Snappy
Apple Farms, Inc., 203 F.R.D. 281, 286 (W.D. Mich.
2001).

App. 195
There are over 400 surviving spouses in this
proposed class. (Docket No. 60 at 10). The plaintiffs
state that there may be additional class members who
are not yet identified who will become class members
in the future. (Id. at 11). The proposed class members
are elderly and live in many different states. (Id. at 12).
The court finds that the size of the proposed class,
consisting of elderly and geographically dispersed
persons, fulfills the numerosity requirement. See e.g.,
Bittinger v. Tecumseh Prods. Co., 123 F.3d 877, 884-85
(6th Cir. 1997)(affirming district court’s certification of
class, agreeing that the joinder of 1100 retirees and
surviving spouses would be impracticable); Reese v.
CNH Am., LLC, 227 F.R.D. 483, (E.D. Mich.
2005)(citing Bittinger and finding that joinder of
approximately 1450 retirees and surviving spouses is
impracticable, thus the numerosity requirement is
fulfilled).
2. The
plaintiffs
commonality.

have

demonstrated

In order to establish commonality, the plaintiffs
must demonstrate that “there are questions of law or
fact common to the class” under Rule 23(a)(2). See Fed.
R. Civ. P. 23(a)(2). One leading treatise characterizes
the commonality prerequisite as interdependent with
the numerosity prerequisite. See Newberg § 3:10. It
notes that these two factors form the conceptual basis
for determining whether a class action is the
appropriate vehicle for the resolution of a particular
matter. See id.
The Sixth Circuit has characterized the
commonality requirement as “qualitative rather than

App. 196
quantitative” and has observed that “[v]ariations in the
circumstances of class members are acceptable, as long
as they have at least one issue in common.” See Bacon,
370 F.3d at 570; In re Am. Med. Sys., Inc., 75 F.3d at
1080. It has also noted that not every common issue
will satisfy this requirement but rather that “[w]hat we
are looking for is a common issue the resolution of
which will advance the litigation.” See Sprague v. Gen.
Motors Corp., 133 F.3d 388, 397 (6th Cir. 1998).
Here, the class members and the proposed class
members share the common legal questions of whether
the negotiated agreements provide for fully paid
lifetime health care benefits without cost and whether
Caterpillar’s challenged actions are actionable under
the LMRA and ERISA. While there may be some
distinctions in the facts supporting class members’
claims, the commonality requirement of Rule 23(a)(2)
does not require that all questions of law or fact be
common. The issue of whether Caterpillar violated
vested rights under either the LMRA or ERISA would
resolve a common issue for the entire group. In
Bittinger, the Sixth Circuit held that the common
question of whether a collective bargaining agreement
guaranteed lifetime, fully-funded benefits was
sufficient to establish commonality. 123 F.3d 877, 884;
see also Fox v. Massey-Ferguson, Inc., 172 F.R.D. 653,
661 (E.D. Mich. 1995) (finding that commonality was
present where all proposed class members sought the
same continuing lifetime health care benefits allegedly
promised to them in collective bargaining and
insurance agreements, even though there may have
been distinct oral and written representations on which
the plaintiffs relied). The court finds that the plaintiffs

App. 197
in the instant case have established the necessary
commonality under Rule 23(a).
3. The plaintiffs have demonstrated typicality.
Rule 23(a)(3) requires that “the claims or defenses
of the representative parties are typical of the claims or
defenses of the class.” Fed. R. Civ. P. 23(a)(3).
Typicality requires the representative to be a member
of the class and share at least a common element of fact
or law with the class. Senter v. Gen. Motors Corp., 532
F.2d 511, 525 (6th Cir. 1976). “Like the test for
commonality, the test for typicality is not demanding
and the interests and claims of the various plaintiffs
need not be identical.” Reese v. CNH Am., LLC, 227
F.R.D. 483, 487 (E.D. Mich. 2005)(citing Bittinger, 123
F.3d at 884)); see also Rutherford v. City of Cleveland,
137 F.3d 905, 909 (6th Cir. 1998)(recognizing that the
commonality and typicality requirements “tend to
merge,” and that “[b]oth serve as guideposts for
determining whether . . . maintenance of a class action
is economical and whether the named plaintiff’s claim
and the class members are so interrelated that the
interests of the class members will be fairly and
adequately protected in their absence.”)).
Together with Rule 23(a)(4)’s requirement that the
representative party adequately protect the interests of
the class, the typicality requirement focuses on the
characteristics of the class representatives. See
Newberg § 3:13. The Sixth Circuit has adopted
Newberg’s characterization of the typicality
requirement. As depicted in this characterization,
“[t]ypicality determines whether a sufficient
relationship exists between the injury to the named

App. 198
plaintiff and the conduct affecting the class, such that
the court may properly attribute a collective nature to
the challenged conduct. In other words, when such a
relationship is shown, a plaintiff’s injury arises from or
is directly related to a wrong to a class, and that wrong
includes the wrong done to the plaintiff. Thus, a
plaintiff’s claim is typical if it arises from the same
event or practice or course of conduct that gives rise to
the claims of other class members, and if his or her
claims are based on the same legal theory.” See In re
Am. Med. Sys., Inc., 75 F.3d at 1082 (citing 1 Alba
Conte & Herbert Newberg, Newberg on Class Actions
§ 3:13 (3d ed. 1992)). A representative’s claim may be
considered typical, despite the fact that evidence
relevant to his or her claim varies from other class
members, some class members would be subject to
different defenses, and the members may have suffered
varying levels of injury. See Bittinger, 123 F.3d at 884885.
In the instant case, Caterpillar argues that the
plaintiffs cannot satisfy Rule 23’s typicality
requirement because their claims are moot. Caterpillar
also argues that because some of the plaintiffs can
prove their claims without necessarily proving the
claims of the putative class members, the typicality
requirement cannot be met.
The court already has rejected Caterpillar’s
argument that the plaintiffs’ claims are moot, and the
court finds that the typicality requirement necessary
for class certification is satisfied in this case. The
named representatives, like the proposed class
members, contend that Caterpillar is wrongfully

App. 199
threatening to modify, or already has modified, the
level of health insurance benefits to which they
allegedly are entitled under the governing CBA and
plans. Their claims are based on the same legal theory-that the relevant agreements provide retirees and
surviving spouses of retirees fully-paid lifetime health
care benefits without cost.
Factually, Kerns, Nalley, and Stewart are similarly
situated to the other surviving spouses in the proposed
class. Kerns’ and Nalley’s husbands retired on or after
January 1, 1992, and before January 10, 2005, under
the negotiated 1998 CLA and its Benefit Agreements
and Plans (including the 1998 IPA and GIP). Kerns’
and Nalley’s husbands died on June 10, 2002, and May
26, 2003, respectively, during the effective term of the
negotiated 1998 CLA and its Benefit Agreements and
Plans. Stewart’s husband stopped working on or about
August 14, 1998, and went on disability status. He died
on June 28, 2004, after the expiration of the 1998 CLA
and before January 10, 2005 (the effective date of the
2004 CLA and its Benefit Agreements and Plans). It is
unclear whether he retired from Caterpillar or was
eligible to retire when he died; in any event, the
plaintiffs’ theory is that Stewart is entitled to the
vested lifetime health care benefits at no cost as his
surviving spouse.2 Nalley is on Medicare while Kerns
and Stewart are not.

2

The plaintiffs point out that they are awaiting the complete files
from Caterpillar providing this information. (Docket No. 67 at 5).
The plaintiffs have produced two documents indicating that Mr.
Stewart had a retirement date of September 1, 1998. (Id. at 5-6.)

App. 200
In Reese v. CNH America LLC, the court certified a
class of retirees and surviving spouses. The retirees
had worked at facilities in five states and had retired
over a ten-year period. The class representatives were
all retirees. As the case progressed, additional
surviving spouses “grew into” the class and became
class members, but all of the class representatives
remained retirees. The court in Reese found that the
proposed class met all the requirements for
certification, noting that, “like the test for
commonality, the test for typicality is not demanding
and the interests and claims of the various plaintiffs
need not be identical.” 227 F.R.D. 483, 487-88. As in
Reese, the court here finds that the “factual and legal
variations . . . do not render the proposed Class
unworkable; nor do they demonstrate a lack of
commonality and/or typicality.” 227 F.R.D. at 488.
4. The plaintiffs have demonstrated adequate
representation.
Rule 23(a)(4) requires that “the representative
parties will fairly and adequately protect the interests
of the class.” Fed. R. Civ. P. 23(a)(4). The Sixth Circuit
has recognized that this adequacy of representation
requirement encompasses two criteria: (1) the
representative plaintiffs must have common interests
with unnamed members of the class; and (2) it must
appear that the representative plaintiffs will vigorously
prosecute the interests of the class through qualified
counsel. Senter, 532 F.2d at 525. The first criterion,
that of common interest, essentially requires that there
be no antagonism or conflict of interest between the
representative plaintiffs and the other members of the

App. 201
class that they seek to represent. See In re Am. Med.
Sys., 75 F.3d at 1083. The second criterion inquires into
the competency of counsel. See id. The Sixth Circuit
has observed that the adequacy of representation
prerequisite overlaps with the typicality requirement
because, “in the absence of typical claims, the class
representative has no incentives to pursue the claims
of the other class members.” Id. That court has also
noted that this prerequisite is essential to due process
because a final judgment in a class action is binding on
all class members. Id.
As to the first criterion, the named plaintiffs share
a keen interest in declaring the rights of the entire
class to vested, lifetime health care benefits under the
1998 agreements and plans, without any premiumsharing payment by them and without the
modifications that have reduced their benefits and
imposed new out-of-pocket costs since January 1, 2006.
Caterpillar’s actions have been directed at the entire
proposed class, and the class members have been
affected in the same way (i.e., by Caterpillar’s alleged
unlawful withdrawal or modification of their
healthcare insurance benefits). Caterpillar has not
demonstrated that any antagonism exists among or
between the named plaintiffs and the proposed class
members. Thus, the court finds that Kerns, Nalley, and
Stewart will fairly and adequately protect the interests
of the class.
As to the second criterion, the plaintiffs assert that
their class representatives and counsel have aptly
demonstrated their adequacy throughout the long
history of this litigation. (See Docket No. 250 at 55.)

App. 202
Counsel has pursued discovery, successfully opposed
Caterpillar’s motion to dismiss, and prepared this class
certification motion. Additionally, the plaintiffs assert
that plaintiffs’ counsel has “extensive experience in
employment discrimination and specifically class action
litigation before federal courts around the country.”
(See id. at 55-56.) The court has no reason to question
counsel’s qualifications, and the defendant does not
contest the competency of plaintiffs’ counsel. (Docket
No. 66; Docket No. 67 at 10). Accordingly, the plaintiffs
satisfy the second criterion of adequate representation
and have, therefore, demonstrated that adequate
representation exists in this case.
B. The proposed class meets the requirements of
Rule 23(b)(1) and (2).
Having found that the plaintiffs have demonstrated
the existence of each Rule 23(a) prerequisite,3 the court
now must determine whether the plaintiffs’ case also
falls within at least one of the subcategories of Rule
23(b). See In re Am. Med. Sys., 75 F.3d at 1079. The
plaintiffs contend that the facts here mandate class
certification under either subsection (b)(1) or (b)(2).
Caterpillar opposes class certification, but asserts that,
if the court decides to certify any class or subclass in
this matter, the plaintiffs’ claims should be certified
only pursuant to Rule 23(b)(2) because the plaintiffs
seek injunctive and declaratory relief applicable to the
class as a whole. (Docket No. 66 at 3).

3

Indeed, Caterpillar does not dispute numerosity, commonality,
the adequacy of class counsel, or the fulfillment of the
prerequisites of Rule 23(b)(1). (Docket No. 66).

App. 203
Rule 23(b)(1) provides that an action may be
maintained as a class action if the above four
requirements of Rule 23(a) are met and if “the
prosecution of separate actions by or against individual
members of the class would create a risk of” either one
of the following:
(A) inconsistent or varying adjudications
with respect to individual members of the
class which would establish incompatible
standards of conduct for the party
opposing the class, or
(B) adjudications with respect to
individual members of the class which
would as a practical matter be dispositive
of the interests of the other members not
parties to the adjudications or
substantially impair or impede their
ability to protect their interests[.]
Fed. R. Civ. P. 23(b)(1).
In the instant case, the plaintiffs assert that, if this
action does not proceed as a class action, the surviving
spouses could file a multitude of individual lawsuits in
numerous jurisdictions challenging Caterpillar’s
actions. Varying decisions, at odds with one another,
could result. Caterpillar could then be required to
continue to pay the full cost of insurance for some and
not others. This result is the very result Rule 23(b)(1)
is intended to avoid. See Fox v. Massey-Ferguson, 172
F.R.D. 653, 665 (E.D. Mich. 1995)(where the
prosecution of separate actions could lead to
inconsistent adjudications which would fail to establish

App. 204
congruous standards of conduct for Massey-Ferguson,
certification under Rule 23(b)(1) was appropriate). As
explained by the court in Massey-Ferguson:
If each retiree [or surviving spouse]
separately adjudicated his or her claim,
different results are inevitable, especially
considering the fact that the retirees
reside in different states. This would lead
to the obvious conclusion that [the
defendant] could prevail in some cases
and lose in others which, in turn, would
lead to inconsistent and, perhaps,
inequitable results. Moreover,
adjudications with respect to individual
members could substantially impair the
interests of those persons who are not
parties to this lawsuit.
172 F.R.D. at 665. The court agrees with the plaintiffs.
Absent class certification, if over 400 surviving spouses
file individual lawsuits to challenge Caterpillar’s
modifications to their health insurance benefits,
Caterpillar likely would face “incompatible standards
of conduct paying the full-costs of benefits for some but
not others.” Reese, 227 F.R.D. 483, 489 (certifying class
under Rule 23(b)(1) where retirees claimed the
defendant violated ERISA and LMRA in denying
retirement healthcare benefits). The court finds that,
because of the risk of inconsistent judgments,
certification is appropriate under Rule 23(b)(1).
Rule 23(b)(2) authorizes “mandatory” class actions
under which potential class members do not have an
automatic right to notice or a right to opt out of the

App. 205
class. See Reeb v. Ohio Dep’t of Rehab. & Corr., 435
F.3d 639, 645 (6th Cir. 2006). Certification under this
rule is appropriate where “the party opposing the class
has acted or refused to act on grounds generally
applicable to the class, thereby making appropriate
final injunctive relief or corresponding declaratory
relief with respect to the class as a whole.” Fed. R .Civ.
P. 23(b)(2). In other words, class actions may be
maintained under this rule when the primary relief
sought is injunctive or declaratory. See id. advisory
committee’s note (noting that Rule 23(b)(2) “does not
extend to cases in which the appropriate final relief
relates exclusively or predominately to money
damages”).
Here, the plaintiffs seek injunctive and declaratory
relief to end Caterpillar’s modifications to their health
care benefits. Caterpillar’s actions in this regard
“affected the entire proposed class,” making equitable
relief appropriate. See Fox v. Massey-Ferguson, Inc.,
172 F.R.D. at 665 (granting certification under Rule
23(b)(1) and (b)(2)). The plaintiffs’ request for
declaratory and injunctive relief predominates over any
monetary relief which may also be available.
Caterpillar concedes that the court could certify a
class under Rule 23(b)(2) because the plaintiffs’
“primary request for relief is injunctive and declaratory
in nature--they ask the Court to declare that their
rights to free lifetime retiree medical benefits were
‘vested’ and could not be changed, and restoration to
that status.” (Docket No. 66 at 15). Accordingly, the
court finds that certification under Rule 23(b)(2) as well
as (b)(1) is appropriate.

App. 206
Rule 23(c)(1)(B) provides that, once a class is
certified, the court must enter an order that “define[s]
the class.” Rule 23(c)(1)(C) further provides that an
order defining the class may be thereafter further
refined, altered, or amended. If necessary, the court
can alter, amend, or further refine the class at a later
time.
IV. Conclusion
For the reasons explained herein, the plaintiffs’
motion for class certification (Docket No. 60) will be
GRANTED.
An appropriate order will enter.
/s/Aleta A. Trauger
ALETA A. TRAUGER
United States District Judge

App. 207
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-cv-01113
District Judge Trauger
Magistrate Judge Brown
Class Action
[Filed July 12, 2007]
_____________________________
JUDITH K. KERNS, MARCIA )
NALLEY, and SANDRA L.
)
STEWART, on behalf of
)
themselves and a similarly
)
situated class,
)
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR, INC.,
)
)
Defendant.
)
_____________________________ )
ORDER
For the reasons expressed in the accompanying
Memorandum, the plaintiffs’ motion for class
certification (Docket No. 60) is GRANTED. The court
certifies a class, pursuant to Rule 23(b)(1) and (2),
consisting of the following:

App. 208
surviving spouses of former hourly
employees: (1) who were represented by
the UAW in collective bargaining; (2) who
retired from Caterpillar on or after March
16, 1998 and before January 10, 2005;
and (3) whose employment at
Caterpillar’s facilities in Memphis, TN,
York, PA, Denver, CO, and Aurora,
Peoria, East Peoria, Mapleton, Mossville,
Morton, Decatur and Pontiac, IL was
governed by the Central Labor
Agreements and the related collective
bargaining agreements. Any person who
is presently the spouse of a living retiree
cannot be a class member at this time.
The named plaintiffs are hereby designated as class
representatives, and the plaintiffs’ counsel is
designated as class counsel.
It is so ordered.
Entered this 12th day of July 2007.
/s/Aleta A. Trauger
ALETA A. TRAUGER
United States District Judge

App. 209

APPENDIX L
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-cv-01113
District Judge Trauger
Magistrate Judge Brown
Class Action
[Filed June 27, 2007]
_____________________________
JUDITH K. KERNS, MARCIA )
NALLEY, and SANDRA L.
)
STEWART, on behalf of
)
themselves and a similarly
)
situated class,
)
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR, INC.,
)
)
Defendant.
)
_____________________________ )
MEMORANDUM
Currently pending before the court is a motion to
dismiss by the defendant (Docket No. 42), the plaintiffs’
response thereto (Docket No. 50), and the defendant’s

App. 210
reply to that response (Docket No. 56). For the reasons
explained herein, the defendant’s motion will be
DENIED.
I. Introduction
This is an action for vested lifetime health care
benefits. The plaintiffs are surviving spouses of former
employees of Caterpillar, Inc. (“Caterpillar”) who
retired on or after March 16, 1998 and before January
10, 2005. According to the plaintiffs, this lawsuit was
precipitated by Caterpillar’s announcement in 2005
that, beginning in 2006, class members would be
required to pay monthly premium sharing co-payments
and that, effective in 2006, 2008, and 2010, Caterpillar
was modifying the health care benefits, including
making a series of increases to the prescription drug
co-payments and imposing new deductibles and annual
out-of-pocket maximums paid by the class.
On April 13, 2006, the plaintiffs filed this action in
the Western District of Tennessee (W.D. Tenn. Case
No. 2:06-cv-2213). On September 29, 2006, the
defendant filed a motion to dismiss. (W.D. Tenn.
Docket No. 31). On November 9, 2006, the defendant
filed a motion to transfer the case to the Central
District of Illinois. (W.D. Tenn. Docket No. 36).
The Honorable Jon Phipps McCalla denied the
defendant’s motion to transfer by order entered
November 9, 2006, and transferred the case to the
Middle District of Tennessee, where a companion case,
Winnett v. Caterpillar, Inc., 3:06-cv-00235, is pending.1
1

The Winnett case has not been consolidated with the instant case.

App. 211
(W.D. Tenn. Docket No. 39). On November 30, 2006,
the plaintiffs filed their response in opposition to the
defendant’s motion to dismiss. (Docket No. 50).
The plaintiffs seek relief under § 301 of the Labor
Management Relations Act (“LMRA”), 29 U.S.C. § 185,
and under § 502 of the Employee Retirement Income
Security Act (“ERISA”), 29 U.S.C. § 1132, from the
defendant Caterpillar for breach of a collective
bargaining agreement (“CBA”) and a welfare benefit
plan.
The defendant provided health care benefits for the
plaintiffs’ spouses and the class pursuant to successive
CBA’s with the United Auto Workers (“UAW”).
According to the plaintiffs, the parties to the CBA’s
intended for these health care benefits for surviving
spouses to vest and to continue beyond the expiration
of any particular contract. The plaintiffs claim that the
defendant breached its promise to pay lifetime health
benefits to surviving spouses at no cost when, in 2005,
Caterpillar began charging surviving spouses for a
portion of their medical care. The plaintiffs also
complain they were charged increased co-payments for
prescription drugs and other out-of-pocket expenses.
The plaintiffs seek declaratory judgment,
preliminary and permanent injunctive relief requiring
Caterpillar to maintain the level of health care benefits
as required by the terms of the 1998 CBA, an order for
the defendant to pay damages, plus interest, to the
class for any losses suffered, an order for the defendant
to pay damages for mental distress and anguish, an
award of attorney’s fees, punitive damages and costs,
and any further relief. The plaintiffs also seek to

App. 212
represent a putative class under Federal Rule of Civil
Procedure 23(a) and (b) consisting of surviving spouses
of former hourly employees: (1) who were represented
by the UAW in collective bargaining; (2) who retired
from Caterpillar on or after March 16, 1998 and before
January 10, 2005; and (3) whose employment at
Caterpillar’s facilities in Memphis, TN, York, PA,
Denver, CO, and Aurora, Peoria, East Peoria,
Mapleton, Mossville, Morton, Decatur and Pontiac, IL
was governed by the Central Labor Agreements and
the related CBA’s. (Docket No. 60 at 1-2).
In its motion to dismiss, Caterpillar contends that
the court lacks subject matter jurisdiction over the
plaintiffs’ LMRA and ERISA claims. (Docket No. 43 at
11-16). In addition, Caterpillar contends that the
plaintiffs cannot maintain an action on behalf of a
hypothetical group of “future” surviving spouses that
cannot be readily identified. (Docket No. 43 at 16-18).
Caterpillar also contends that the claims of current
surviving spouses--i.e., those who became surviving
spouses while the 1998 labor contracts were in effect-are moot. (Docket No. 43 at 18-20). Therefore,
Caterpillar concludes, this case should be dismissed
pursuant to Federal Rule of Civil Procedure 12(b)(1).
In response, the plaintiffs assert that the court has
subject matter jurisdiction over this suit; the plaintiffs’
rights and the rights of the proposed class members
vested under the 1998 Central Labor Agreement
(“CLA”) and previous contracts, regardless of the
expiration of the 1998 agreements and regardless of the
date the retiree died; that their proposed class consists
only of present surviving spouses; and that the claims

App. 213
of those surviving spouses are not moot. (Docket No.
80).
II. Facts
The facts are taken from the parties’ briefs filed in
connection with Caterpillar’s motion to dismiss as well
as those briefs submitted in connection with the
plaintiffs’ motion for class certification, the evidence
submitted in support of those briefs, and the Amended
Complaint. Where facts are disputed, the court so
notes.
A. The Caterpillar-UAW Collective Bargaining
Relationship
The Caterpillar-UAW bargaining relationship began
with the UAW’s 1948 certification as the union for
Caterpillar employees in East Peoria, Illinois. (Aff. of
David W. Stevens, ¶ 8, Docket No. 44). Over time,
Caterpillar’s UAW bargaining relationship expanded to
include employees at multiple facilities, primarily in
Illinois. (Id., ¶¶ 9-10). Eventually, Caterpillar and the
UAW agreed to engage in multi-plant bargaining for
most Caterpillar UAW-represented employees. (Id.
¶ 9). This came to be known as “Central Bargaining,”
and the resulting labor contracts included a CLA, and
related local agreements and benefits agreements. (Id.)
During the parties’ nearly 60-year collective
bargaining relationship, Caterpillar and the UAW have
negotiated a series of labor contracts governing the
terms and conditions of employment for the company’s
UAW-represented employees, including their retiree
benefits. (Id., ¶ 11). As part of their bargaining
relationship, the parties also have historically

App. 214
negotiated changes in the benefits for existing retirees
and their spouses, which have been uniformly
acquiesced in by retirees, their dependents, and
surviving spouses. (Id.)
B. Pre-1988 CLAs and SPDs
Historically, medical benefits for retirees’ surviving
spouses have not been set forth in the CLA’s
themselves, but in separate Insurance Plan
Agreements (“IPA’s”) and attached Group Insurance
Plans (“GIP’s”). These benefits were also described in
the SPD’s. (Ex. 3 to Docket No. 50, Aff. of James
Richard Atwood at 6-9). According to James Richard
Atwood, who is the administrative assistant to UAW
International Vice President and Director and of the Ag
Imp Department with respect to all matters relating to
Caterpillar negotiations and contract administration,
over the decades, these negotiated agreements and
plans set forth a vested right to lifetime health care
benefits for surviving spouses. (Id. ¶¶ 18, 21).
Section 5.15 on page 25 of the “1976 CLA Insurance
Plan Agreement and Group Insurance Plan for
12/17/1976 (effective on the Monday following
ratification) until 10/1/1979 CLA” (“1976 IPA”) provides
as to surviving spouses:
[S]uch Dependents’ Coverage will be
continued following the death of a retired
Employee for the remainder of his
surviving spouse’s life without cost.
(Ex. 10 to Docket No. 50). Section 6.2(c) on page 40 of
the 1976 IPA provides as to surviving spouses:

App. 215
[S]uch Dependents’ Coverage for any such
surviving spouse . . . will continue in
effect . . . for the remainder of her life
without cost.
(Id.)
Section 5.15 on page 26 of the “1979 Benefit Plans
and Agreements, UAW and Local 974 Insurance
Program, Retirement Plan and Supplemental
Unemployment Benefit Plan” (“1979 IPA”) provides as
to surviving spouses:
[S]uch Dependents’ Coverage will be
continued following the death of a retired
Employee for the remainder of his
surviving spouse’s life without cost.
(Ex. 4 to Docket No. 50). Section 6.2(c) on pages 45-46
of the 1979 IPA provides as to surviving spouses:
[S]uch Dependents’ Coverage for any such
surviving spouse . . . will continue in
effect . . . for the remainder of her life
without cost.
(Id.)
C. The 1988-91 Insurance Benefits
1. The 1988 IPA and GIP
The 1988 CLA, like the preceding CLA’s, did not
contain any language substantively providing or
incorporating by reference any health insurance
benefits, including retiree health care. (Aff. of David W.
Stevens, ¶ 12, Docket No. 44). Rather, such benefits

App. 216
were set forth in the 1988 IPA between Caterpillar and
the UAW, along with the appended 1988 GIP. (Id.,
¶ 12, Exs. 1-2). The 1988 IPA was effective by its terms
until October 1, 1991. (Id., ¶ 12, Ex. 1, § 9.) Pursuant
to Section 2 of the 1988 IPA, Caterpillar agreed to
“continue to maintain for eligible Employees the Group
Insurance Plan which was in effect on the day
preceding the date…” of the 1988 IPA, subject to the
amendments outlined in the 1988 IPA. (Id., ¶ 12, Ex. 1,
§ 2.) The 1988 IPA further provided that the
“provisions of the Group Insurance Plan as in effect on
September 30, 1988, shall continue in effect until
amended pursuant to the foregoing and thereafter to
the extent not amended pursuant to the foregoing.”
(Id., ¶ 12, Ex. 1, § 3.) It further provided: “Termination
of this Agreement shall not have the effect of
automatically terminating the Plan.” (Id., Ex. 1, § 9).
Section 2.1 of the 1988 GIP provided that
Caterpillar would “maintain the Plan herein
described…” and would “pay such part of the cost
thereof as is not provided by Employee
contributions….” (Id., ¶ 12, Ex. 2, § 2.1). Section 5 of
the 1988 GIP set forth provisions regarding active and
retiree health care. (Id., ¶ 12, Ex. 2, § 5.) As is relevant
to this case, paragraph 5.1 provided that:
A benefit shall be provided in accordance
with this Section only for an Employee,
while coverage for such benefit is in effect
with respect to him, or a Dependent of an
Employee, while Dependents’ Coverage
for such benefit is in effect with respect to
such Employee. Benefits in accordance

App. 217
with this Section will be provided by his
Employer without cost to the Employee
except as otherwise provided in
paragraph 6.1(a) [Termination of
Coverage]….
(Id., ¶ 12, Ex. 2, § 5.1.).
With respect to retirees and surviving spouses,
Section 5.15 on page 32 of the 1988 GIP provided:
Retired Employees who satisfy the
requirements hereinafter set forth shall
be entitled to the same benefits provided
in this Section V as if they were
Employees. Coverage in accordance with
this paragraph 5.15 shall be provided
without cost to any such retired
Employee. Such benefits to the extent
provided in this paragraph 5.15 will be
provided after his retirement from active
service for a retired Employee if he has at
least 5 years of credited service under the
Non-Contributory Pension Plan at his
retirement and is eligible for the
immediate commencement of a monthly
pension under the Non-Contributory
Pension Plan or would be eligible for such
immediate commencement but for his
election to defer commencement of his
pension. Coverage shall take effect on his
retirement date….
***

App. 218
Dependents’ Coverage shall be in effect in
accordance with this paragraph 5.15
while Personal Coverage is in effect with
respect to (a) all Dependents of a retired
Employee who were covered hereunder on
the day preceding his retirement and
(b) any person who becomes a Dependent
after the retirement of a retired Employee
if such retired Employee either was
covered for Dependents’ Coverage prior to
retirement or had no Dependents prior to
retirement, and such Dependents’
Coverage will be continued following
the death of a retired Employee for
the remainder of his surviving
spouse’s life without cost. For
purposes of this paragraph 5.15 only, the
terms “Employee” and “Employee’s”,
wherever appearing in other sections
hereof, shall be deemed to read “retired
Employee” and “retired Employee’s”,
respectively.
(Id., ¶ 12, Ex. 2, ¶ 5.15)(emphasis added). Section 6.2(c)
on page 56 provides as to surviving spouses:
[S]uch Dependents’ Coverage for any such
surviving spouse . . . will continue in
effect . . . for the remainder of her life
without cost.
(Id.)

App. 219
2. The 1988 SPD
In addition to the above documents, UAWrepresented employees were provided with a SPD (the
“1988 SPD”). (Id., ¶ 13, Ex. 3.) According to Caterpillar,
as active employees during the term of the 1988 labor
contracts, all of the named plaintiffs or their
Caterpillar spouses would have received the 1988 SPD.
(Id., ¶ 13.) With respect to retiree medical benefits, the
1988 SPD advised active employees:
If you retire and are eligible for the
immediate receipt of a pension (with at
least 5 years of credited service) under
the Non-Contributory Pension Plan, you
will be eligible for the Retired Medical
Benefit Plan, continued at no cost to you.
(Id., ¶ 13, Ex. 3, p. 38.)
With respect to surviving spouse health insurance,
the 1988 SPD stated:
If an active employee dies when eligible to
retire or if a retired employee dies, the
surviving spouse will have coverage for
his or her lifetime at no cost to the
survivor.
(Id., ¶ 13, Ex. 3, p. 36.)
Finally, the 1988 SPD contained the following “Plan
Termination Provisions”:
Subject to the applicable collective
bargaining agreements, the company
reserves the right to terminate the

App. 220
employee benefit Plans. A Plan
termination may result in the denial or
loss of benefits that a participant or
beneficiary might otherwise expect to
receive.
***
Insurance
If the Insurance Plan were to terminate,
medical benefits would be payable only
for services or materials received, and
hospital confinements which commenced,
prior to the date of termination; and
disability benefits would be payable only
for disabilities that commenced prior to
such date.
(Id., ¶ 13, Ex. 3, p. 98.)
D. Expiration of the 1988 Labor Contracts and the
1992 Unilateral Implementations
Prior to the expiration of the 1988 labor contracts,
both Caterpillar and the UAW gave notice in July 1991,
pursuant to Section 8(d) of the National Labor
Relations Act, of their intent to terminate and
negotiate modifications to the 1988 labor contracts,
including the 1988 IPA. (Id., ¶ 14, Exs. 4-5.) Thereafter
in the fall of 1991, Caterpillar and the UAW
commenced negotiations. (Id., ¶ 15.) A labor dispute
quickly emerged regarding acceptable terms for the
successor agreements. (Id.) Caterpillar’s proposals
included, inter alia: (a) the introduction of a health care
network, whereby active employees and retirees within

App. 221
a covered area would be required to receive services
from an “in-network” provider, or else pay a defined
percentage of the cost of the services; and (b) monetary
limits or “caps” on the amounts Caterpillar would pay
for future retiree health coverage. (Id., ¶ 16.)
Caterpillar and the UAW provided information
regarding these proposals to represented employees.
(Id., ¶ 17, Exs. 6-7.)
On September 28, 1991, Caterpillar and the UAW
agreed to extend the 1988 labor contracts. (Id., ¶ 18.)
This extension continued until midnight on November
3, 1991, when the UAW canceled the extension,
terminated the 1988 labor contracts, and commenced a
selective strike at certain CLA facilities.2 (Id.)
By letter dated March 5, 1992, Caterpillar advised
the UAW that it believed the parties’ negotiations were
at a legal impasse. (Id., ¶ 20.) Thereafter, by letters
dated March 31, 1992, Caterpillar advised the UAW
and its UAW-represented employees that, effective
April 6, 1992, the Company would unilaterally
implement portions of its final contract offer. (Id., ¶ 20,
Exs. 9-10.) The terms to be implemented included the

2

The only exception was at those CLA facilities covered by a
separate agreement negotiated by Caterpillar and the UAW called
the Caterpillar Logistics Services (“CLS”) Agreement. (Id., ¶ 19,
Ex. 8.) The CLS Agreement continued the 1988 labor contracts for
CLA employees working at a facility covered by the CLS
Agreement until after the parties negotiated a successor labor
agreement. (Id., ¶ 19, Ex. 8, p. 5.) The record does not reflect at
this time whether any members of the proposed Kerns class bear
any relationship to the CLS Agreement.

App. 222
health care network provisions applicable to active and
retired employees. (Id., ¶ 20.)
E. The UAW’s Response
Implementation

to

Caterpillar’s

In response to Caterpillar’s announcement, the
UAW expanded the work stoppage it had commenced
in November 1991. (Id., ¶ 21.) The UAW, disagreeing
that Caterpillar had the right to institute new terms of
employment, also filed unfair labor practice charges
with the NLRB, alleging that Caterpillar’s unilateral
action violated § 8(a)(5) of the NLRA because no lawful
impasse existed in the parties’ negotiations. (Id., ¶ 21.)
The NLRB investigated the UAW’s allegations and
determined the charges had no merit. (Id.) Caterpillar
then was entitled to declare and unilaterally
implement its proposed changes. The UAW then
withdrew the charges. (Id., ¶ 21.)
While the UAW’s charges were pending, it
announced on April 14, 1992 that it was recessing its
work stoppage against Caterpillar and ordering its
members back to work. (Id., ¶ 22.)3

3

Relying on the Seventh Circuit’s decision in McNealy v.
Caterpillar Inc., 139 F.3d 1113, 1120-23 (7th Cir. 1998), the
defendant contends that the UAW’s action in this regard created
an implied-in-fact successor labor contract that included the terms
Caterpillar implemented in 1992. However, the plaintiffs argue
that that decision was subsequently vacated by a 2000 NLRB
ruling. (Docket No. 113 at 6).

App. 223
F. Caterpillar’s Second Unilateral Implementation
After the UAW recessed its strike and UAWrepresented employees returned to work under
Caterpillar’s implemented terms, the parties continued
to negotiate over the terms of successor labor contracts.
(Id., ¶ 23.) These negotiations during the remainder of
1992 did not produce an agreement. (Id.) Accordingly,
by letter dated November 20, 1992, Caterpillar advised
the UAW that, effective December 1, 1992, it would
unilaterally implement additional provisions of its final
offer, including the above-described caps on the amount
Caterpillar would pay for future retiree health coverage
for post-January 1, 1992 retirees. (Id., ¶ 24; Ex. 11.) A
summary of these changes was sent to all UAWrepresented employees and affected retirees. (Id., ¶ 25;
Ex. 12-13.) Unlike the April 1992 implementation, the
UAW did not file charges with the NLRB or otherwise
seek to challenge the December 1992 implementation.
(Id., ¶ 26.)
Caterpillar’s 1992 unilaterally implemented benefit
plans documents set forth new provisions in Section
5.15 as to retirees who retire after January 1, 1992,
and then set forth the old, prior lifetime language for
surviving spouses:
Effective for Employees retiring on and
after January 1, 1992, the Company’s
maximum average annual cost per
covered individual for retiree medical
benefits . . . commencing January 1, 1999
shall be limited to the average annual
cost per covered individual in 1997
projected to 1999.

App. 224
***
Retiree contributions toward coverage in
each year after 1998 will be equal to the
average annual cost per covered
individual . . . in the second prior year . . .
projected forward 2 years minus the limit
on the Company’s cost described above.
***
[S]uch Dependents’ Coverage will be
continued following the death of a retired
Employee for the remainder of his
surviving spouse’s life without cost.
(§ 5.15, pp. 37-38 of Ex. 6 to Docket No. 50). Section
6.2(c) on pages 68-69 provides as to surviving spouses:
[S]uch Dependents’ Coverage for any such
surviving spouse . . . will continue in
effect . . . for the remainder of her life
without cost.
(Ex. 6 to Docket No. 50).
G. The 1998 CLA and Establishment of the VEBA
Caterpillar and the UAW continued negotiations
until March 1998, at which time they reached
agreement on comprehensive successor labor contracts
that incorporated, inter alia, the unilaterally
implemented retiree health care provisions described
above (i.e., the networks and the caps). (Id., ¶ 27.) Like
the 1988 CLA, the new 1998 CLA did not contain any
health insurance provisions. (Id.) Rather, the parties
agreed to a new IPA (the “1998 IPA”) with appended

App. 225
GIP (the “1998 GIP) that contained the amended
provisions. (Id., ¶ 27, Exs. 14-15.) The 1998 labor
contracts were ratified by Caterpillar’s UAWrepresented active employees, including the employeespouses through whom the named plaintiffs derived
their benefits as dependents. (Id. ¶¶ 24-25).
The 1998 IPA was effective by its terms until April
1, 2004. (Ex. to Docket No. 50, § 9.) The 1998 IPA
further provided that the “provisions of the Group
Insurance Plan as in effect on September 30, 1991,
shall continue in effect until amended pursuant to the
foregoing and thereafter to the extent not amended
pursuant to the foregoing.” (Id. § 3.) It further
provided: “Termination of this Agreement shall not
have the effect of automatically terminating the Plan.”
(Id. § 9).
Pursuant to Section 2 of the 1998 IPA, Caterpillar
would “maintain the Plan herein described…” and
would “pay such part of the cost thereof as is not
provided by Employee contributions….” (Id. § 2.1).
Under Section V, entitled “Medical Expense
Benefits,” Section 5.1 on page 38 of the 1998 IPA and
GIP provides:
A benefit shall be provided in accordance
with this Section only for an Employee,
while coverage for such benefit is in effect
with respect to such Employee. Benefits
in accordance with this Section will be
provided to such Employee, retired
Employee, and Dependents thereof for the

App. 226
duration of any Agreement to which this
Plan is a part.
(Ex. 7 to Docket No. 50).
Section 5.15 on page 59 of the 1998 IPA and GIP
provides the same language as before the 1992
unilateral implementations:
[S]uch Dependents’ Coverage will be
continued following the death of a retired
Employee for the remainder of his
surviving spouse’s life without cost.
(Ex. 7 to Docket No. 50). Section 6.2(c) on page 104
provides as to surviving spouses:
[S]uch Dependents’ Coverage for any such
surviving spouse . . . will continue in
effect . . . for the remainder of her life
without cost.
(Id.)
Concurrent with the above agreements, Caterpillar
and the UAW also agreed to contribute approximately
$35 million in funds previously accrued for active
employees under the 1988 CLA to a voluntary
employee benefits association4 (“VEBA”). (Id., ¶ 30,
Exs. 18-19.) The VEBA was independent of Caterpillar
4

See 26 U.S.C. § 501(c)(9) (VEBA is a tax-exempt program
providing to members, their dependents, or designated
beneficiaries life, sick, accident, or other benefits “if no part of the
net earnings of such association inures (other than through such
payments) to the benefit of any private shareholder or
individual.”).

App. 227
and was created to pay expenses incurred by postJanuary 1, 1992 covered retirees and their dependents,
over and above the caps implemented by Caterpillar in
1992. (Id., ¶¶ 30-31, Ex. 20.) Beyond agreeing to the
redistribution of this money, Caterpillar made no
promise to provide any additional or future funding to
the VEBA. (Id., ¶ 30.)
H. The 2004 Labor Contracts
By the time the 1998 labor contracts were nearing
expiration, the money Caterpillar and the UAW had
agreed to contribute to the VEBA was almost
completely depleted. (Id., ¶ 32.) Accordingly, by letters
dated December 2, 2002, September 2, 2003 and July
9, 2004, post-1991 retirees were advised that,
consistent with the terms of the 1998 IPA and GIP, if
and when the money in the VEBA was exhausted, the
retirees could or would have to begin paying premiums
in the amount of health care coverage costs that
exceeded the caps. (Id., ¶ 32; Exs. 21-23.)
During this same time period, Caterpillar and the
UAW commenced negotiations over successor labor
contracts and eventually agreed upon terms of
successor labor contracts on December 15, 2004. (Id.,
¶ 33.) Once again, their agreement included an IPA
(the “2004 IPA”) and a GIP (the “2004 GIP”). (Id.) In
pertinent part, Caterpillar and the UAW agreed that,
rather than having retirees pay 100 percent of the costs
of retiree health insurance above the caps (as had been
previously established in 1992 and allegedly ratified in
1998), on a going forward basis, Caterpillar would
share in the “above the cap” costs on a 40/60 basis. (Id.)

App. 228
For the first time, the lifetime language for
surviving spouses was absent from Section 5.15, which
became Section 5.30(b) at pages 71-72, and Section
6.2(c), which became Section 6.2(b) at page 81. (Ex. 1 to
Docket No. 50, Aff. of James Richard Atwood). Under
new Sections 5.31 and 5.32 at pages 72-76, there were
new deductibles, co-insurance, out-of-pocket maximums
and related changes. (Id.) The prescription drug copayments were increased in Section 5.11(c) at pages 4142 to $5/$20/$35.5 (Id.)
I. Caterpillar’s Alleged 2005 Modifications to the
Health Care Benefits and Communications with
the Class
On October 10, 2005, Caterpillar sent the class
letters stating that:
This letter is to update you on some of the
benefit items that impact you as a result
of the bargaining agreement signed by
Caterpillar Inc. and the United Auto
Workers (UAW) effective January 10,
2005.
The agreement provides that survivors ...
will pay healthcare premiums effective
February 1, 2005. Since the agreement

5

According to the plaintiffs and disputed by Caterpillar, under the
2004 IPA and GIP (effective January 10, 2005) the new $5/$20/$35
prescription drug co-payments were to take effect on January 1,
2006 only for retirement dates on or after January 10, 2005, and
not before. (Docket No. 50 at 8 n.6). The plaintiffs contend that
Caterpillar unlawfully applied the changes to class members
whose deceased spouses retired prior to January 10, 2005. (Id.)

App. 229
went into effect, we have taken the time
to verify our records. We have delayed
healthcare premiums to ensure that we
charge correctly.
***
If you choose to maintain your medical
coverage, healthcare premiums will start
effective January 1, 2006. You will not be
required to pay premiums retroactively
from February 1, 2005 through December
31, 2005. You will receive a premium
invoice directly in the mail in January or,
if applicable, the premium will be
deducted from your February 1, 2006
pension check for January coverage. In
early November, you will receive an
enrollment kit with a Personal Fact Sheet
from Fidelity acknowledging your new
premium rates. Your new premium rates
are as follows: [listing various monthly
premium sharing co-payments of $87,
$174, $170, $83 and $166].
(Ex. 3 to Docket No. 50). The defendant sent Sandra
Stewart letters announcing that in order to keep her
health care benefits, beginning in January 2006, she
would have to pay $87 per month (see Pls.’ Exs. 2-3,
6/17/2006 Affidavit of Sandra Stewart with
attachments, including Caterpillar 10/10/2005 and
11/14/2005 letters to Stewart). For 6 months in 2006
(January until June), Caterpillar deducted $87 per
month from the survivor pension benefit for Sandra
Stewart for this monthly premium sharing payment

App. 230
(sees Pls.’ Ex. 2-3, earning statement dated February
1, 2006, showing a monthly deduction of $87).
In late 2005, Caterpillar sent out enrollment
packets to class members, again listing monthly
premium sharing co-payments for class members to
pay in 2006 (see Pls.’ Ex. 3, November 14, 2005
Caterpillar mailing to Stewart).
In February 2006, Caterpillar began deducting $87
per month for Sandra Stewart’s coverage beginning in
January (see Pls.’ Exs. 2-3). Caterpillar deducted $87
each month for 6 months and later refunded those
monies to her.
On March 29, 2006, Caterpillar sent a letter to
Class members (see Pls.’ Ex. 3) stating:
You received a letter dated October 10,
2005 regarding healthcare premiums to
begin on January 1, 2006. The letter
indicated that you would begin paying the
retiree premium for your healthcare
coverage. There has been a delay in the
collection of this premium. As a result,
the premium will begin effective April 1,
2006 for healthcare coverage during that
month. You will not be required to pay
premiums retroactively. You will receive
a premium invoice directly in the mail in
April, which will be due May 1 or, if
applicable, the premium will be deducted
from your May 1, 2006 pension check for
April coverage. Your new premium rates
are as follows: [listing various coverages

App. 231
in 2006 for $87, $174, $170, $83 and $166
per month].
The plaintiffs filed this lawsuit on April 13, 2006.
Within a few days, on April 17, 2006, Caterpillar sent
class members a letter (see Pls.’ Exs. 2-3) stating:
You were previously informed that
Caterpillar would begin collecting retiree
premiums for healthcare coverage (in
letters dated October 10, 2005 and March
29, 2006). To date, you have not been
charged while Caterpillar evaluated other
options regarding your healthcare
premiums. As a result of this review,
Caterpillar has elected to waive your
healthcare premiums. You will not be
charged a premium for healthcare
coverage.
(Id., ¶ 34; Ex. 24.) All affected surviving spouses were
so advised and, to date, they have not been charged any
premiums. (Id., ¶ 34).
J. The Named Plaintiffs
Plaintiff Kerns is the surviving spouse of former
Caterpillar employee Jerome Kerns. (Id. ¶ 33). Mr.
Kerns retired from Caterpillar in September 1998 and
died in June 2002. (Id.) Plaintiff Nalley is the surviving
spouse of former Caterpillar employee Bernard Nalley.
(Id.) Mr. Nalley retired from Caterpillar in September
1998 and died in May 2003. (Id.) Plaintiff Stewart is
the surviving spouse of former Caterpillar employee
Elmer Stewart. (Id.) Mr. Stewart never retired from

App. 232
Caterpillar; rather, he died in June 2004 while on longterm disability leave. (Id.)
III. Standard of Review
The defendant has brought this motion pursuant to
Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6).
When a defendant attacks subject matter jurisdiction
under Rule 12(b)(1), the plaintiff must meet the burden
of proving jurisdiction. Golden v. Gorno Bros., Inc., 410
F.3d 879, 881 (6th Cir. 2005). In addition, the district
court is empowered to resolve factual disputes when
necessary to resolve challenges to subject matter
jurisdiction. United States v. Ritchie, 15 F.3d 592, 598
(6th Cir. 1994), cert. denied, 513 U.S. 868, 115 S. Ct.
188, 130 L.Ed.2d 121 (1994). In so doing, the court may
consider evidence outside the pleadings, and the record
may be supplemented by affidavits. Nichols v.
Muskingum Coll., 318 F.3d 674, 677 (6th Cir. 2003);
Rudd v. Baker Furniture, 967 F. Supp. 984, 989 (M.D.
Tenn. 1997). The court can do so without converting
the Rule 12(b)(1) motion into a motion for summary
judgment. Rudd, 967 F. Supp. at 989 (citing Ohio Nat’l
Life Ins. Co. v. United States, 922 F.2d 320, 325 (6th
Cir. 1990)).
IV. Analysis
A. The court has jurisdiction over the plaintiffs’
Section 301 LMRA claims.
Caterpillar contends that the court lacks
jurisdiction to decide the plaintiffs’ Section 301 LMRA
claims for benefits that allegedly arose under an
expired or superseded labor contract. According to the
defendant, the plaintiffs ground their claims in the

App. 233
1998 IPA and appended GIP, and because that contract
expired in April 2004 and was superseded by
subsequent labor contracts, the court lacks jurisdiction
over the plaintiffs’ LMRA claims. In support of its
position, Caterpillar cites Bauer v. RBX Indus., Inc.,
368 F.3d 569, 579 n.5 (6th Cir. 2004)(“a federal court
does not have jurisdiction to hear a § 301 claim
premised upon an expired or superseded contract”);
Heussner v. Nat’l Gypsum Co., 887 F.2d 672, 676 (6th
Cir. 1989)(same); and Adcox v. Teledyne, Inc., 21 F.3d
1381 (6th Cir. 1994)(same).
However, the facts of the cases relied on by the
defendant to support its contention that the court lacks
subject matter jurisdiction are distinguishable. In
Heussner, the plaintiffs sought to collect benefits
accruing after the expiration of a CBA, on the theory
that the successor agreement was entered into
invalidly. 887 F.2d at 677. The Sixth Circuit
determined that the district court lacked jurisdiction
under § 301(a) over questions of the validity of
collective bargaining contracts. Id. In Bauer, which
involved a hybrid § 301 claim (unlike the instant case),
the union reached a settlement that abrogated the
previous CBA and extinguished benefits that had been
provided by the prior CBA. 368 F.3d at 579. The Sixth
Circuit held that: “The only contract in existence . . .
was the Settlement. The Plaintiffs do not allege that
RBX breached the Settlement, and to the extent they
argue the Settlement was invalid, ‘[d]istrict courts do
not . . . possess subject matter jurisdiction under
Section 301(a) in cases concerning the validity of a
contract.’” Id. at 578-79. The court specifically rejected
the plaintiffs’ claim that the benefits sought had vested

App. 234
and thus could not have been affected by the
settlement, “given that the terms of the Plans either
specifically disclaim[ed] vesting or [were] silent on the
issue.” Id. at 584. Adcox involved a hybrid § 301 claim
of “special distribution” benefits that did not vest
before they were abolished by a successor contract,
which the plaintiffs challenged as invalid. 21 F.3d
1381. The Sixth Circuit found that the district court
had properly determined that it lacked jurisdiction to
entertain a challenge under § 301 to validity of a CBA
that had been superseded by a settlement agreement.
Id. at 1388-89.
In this case, the plaintiffs seek to collect benefits
that they claim accrued or vested before the CBA’s
expiration in April 2004. Thus, unlike the plaintiffs in
Heussner, Bauer, and Adcox, the instant plaintiffs do
not challenge the validity of any CBA or related
agreement. Neither do the plaintiffs seek to modify any
CBA or related agreement. Instead, these plaintiffs
contend that the benefits they seek vested before
ratification of a new contract, and thus survived. See
Int’l Union UAW v. Yard-Man, Inc., 716 F.2d 1476,
1479-80 (6th Cir. 1983)(“In settling a claim for vested
benefits, the retiree does not modify the collective
bargaining agreement.”). Heussner, Bauer, and Adcox,
then, are not controlling.
Section 301(a) of the LMRA provides federal
jurisdiction over claims alleging breach of a CBA. 29
U.S.C. § 185(a); see Armistead v. Vernitron Corp., 944
F.2d 1287, 1293 (6th Cir. 1991); Adcox, 21 F.3d at 1385;
Textron Lycoming Reciprocating Engine Div., Avco
Corp. v. UAW, 523 U.S. 653, 656-57, 118 S. Ct. 1626,

App. 235
1678-79 (1998). Although a retiree health care benefit
plan constitutes a welfare benefit plan under ERISA,
29 U.S.C. § 1001 et seq., unlike pension benefit plans,
retiree health care benefit plans are not subject to
mandatory vesting requirements. Maurer v. Joy Techs.,
Inc., 212 F.3d 907, 914 (6th Cir. 2000). If lifetime
health care benefits exist for the plaintiffs, it is because
the UAW and Caterpillar agreed to vest a welfare
benefit plan. Golden v. Kelsey-Hayes Co., 73 F.3d 648,
654 (6th Cir. 1996); see also Boyer v. Douglas
Components Co., 986 F.2d 999, 1005 (6th Cir. 1993).
If a welfare benefit has not vested, “‘after a CBA
expires, an employer generally is free to modify or
terminate any retiree medical benefits that the
employer provided pursuant to that CBA.’” Bittinger v.
Tecumseh Prods. Co., 83 F. Supp.2d 851, 857 (E.D.
Mich.1998) (quoting Am. Fed’n of Grain Millers v. Int’l
Multifoods, 116 F.3d 976, 979 (2d Cir. 1997)). If a
welfare benefit has vested, the employer’s unilateral
modification or reduction of those benefits constitutes
a LMRA violation. Maurer, 212 F.3d at 914; Yolton v.
El Paso Tenn. Pipeline Co., 435 F.3d 571, 578 (6th Cir.
2006).
“If benefits have vested, then retirees must agree
before the benefits can be modified, even by a
subsequent CBA between the employer and active
employees.” Maurer, 212 F.3d 907, 918. “If the parties
intended to vest benefits and the agreement
establishing this is breached, there is an ERISA
violation as well as a LMRA violation.” Maurer, 212
F.3d at 914 (citation omitted). Whether the parties to
a CBA provided for health insurance benefits for

App. 236
retirees that would vest upon eligibility for retirement
is a question of the intent of the parties. See Yard-Man,
716 F.2d at 1476. Therefore, the plaintiffs’ claims
require us to interpret the CBA, and the suit is
properly before the court under Section 301 of the
LMRA, 29 U.S.C. § 185.
B. The court has jurisdiction over the plaintiffs’
ERISA claims.
The court’s ruling as to jurisdiction over the
plaintiffs’ Section 301 LMRA claims does not
automatically determine its ruling as to jurisdiction
over the plaintiffs’ ERISA claims because “the court’s
power to entertain the ERISA claims springs from a
different statutory provision, as the court has
jurisdiction over a § 1132(a)(1)(B) action pursuant to 29
U.S.C. § 1132(e)(1).” Bauer, 368 F.3d 569, 582 (finding
that the court lacked jurisdiction over the plaintiffs’
ERISA claims, and specifically rejecting the plaintiffs’
claims that their welfare benefits had vested because
the terms of the plans either specifically disclaimed
vesting or were silent on the issue).
Precedents such as Adcox, Heussner, and Bauer
dictate that federal courts have no power to hear an
ERISA claim regarding a welfare benefit plan that has
been superseded. Bauer, 368 F.3d at 584. However, the
plaintiffs here assert that their rights to lifetime health
benefits had vested contractually before termination of
the CBA, and, therefore, the Union could not bargain
them away and Caterpillar cannot now refuse to pay
them. The same argument was made by the plaintiffs
in Adcox. See 21 F.3d 1381, 1388-89. There, the court
found that, because the benefits did not by the terms of

App. 237
the governing contract vest, and the CBA had been
superseded by a subsequent contract, the district court
lacked jurisdiction under § 1132 to entertain a
challenge to the first agreement’s validity. See id. In
the instant case, the plaintiffs contend that the
pertinent language evidences an intent for their
benefits to vest. The court has found that plaintiffs are
not challenging the validity of any contract. Thus, as
the court has jurisdiction over the instant plaintiffs’
Section 301 LMRA claims, so does the court over the
plaintiffs’ ERISA claims under Sections 502(e) and (f)
of ERISA, 29 U.S.C. § 1331.
C. At this stage of the litigation, it would be
premature for the court to rule on the merits as to
whether the plaintiffs have a vested right in the
lifetime health benefits they seek.
The CBA’s are contracts and, as a result, the court
applies general principles of contract law to determine
whether the retiree benefits sought in this case are
vested. Yard-Man, 716 F.2d at 1479-80. Yard-Man
recognized that parties to CBA’s can agree to vest
benefits that survive the termination of the agreement.
Id. at 1479. Whether the benefits vest depends upon
the intent of the parties. Golden, 73 F.3d at 654.
“Courts can find that rights have vested under a CBA
even if the intent to vest has not been explicitly set out
in the agreement.” Maurer, 212 F.3d at 915. In Golden,
the Sixth Circuit clarified that, in determining the
intent of the parties to a CBA, “basic rules of contract
interpretation apply.” Golden, 73 F.3d at 654.
Courts “should first look to the explicit language of
the collective bargaining agreement for clear

App. 238
manifestations of intent.” Yard-Man, 716 F.2d at 1479.
Moreover, courts “should also interpret each provision
in question as part of the integrated whole. If possible,
each provision should be construed consistently with
the entire document and the relative positions and
purposes of the parties.” Id. As in all contracts, the
collective bargaining agreement’s terms must be
construed so as to render none nugatory and avoid
illusory promises. Id. at 1479-80. When ambiguities
exist, courts may look to other words and phrases of
the document and other extrinsic evidence. Id. at 1480;
see also Golden, 73 F.3d at 654; UAW v. BVR
Liquidating, 190 F.3d 768, 774 (6th Cir. 1999)(extrinsic
evidence is admissible to determine an intent to vest
benefits when the language of the collective bargaining
agreement is ambiguous). The court should review the
interpretation ultimately derived from its examination
of the language, context, and other indicia of intent for
consistency with federal labor policy. Yard-Man, 716
F.2d at 1479-80. With these principles in mind, the
court considers whether the instant plaintiffs have a
vested right to the lifetime medical benefits they seek.
a. Durational language of the CBA, IPA, and
GIP
The governing CBA contains no provisions related
to health benefits. Retiree health benefits are
addressed in two other documents, the IPA and the
GIP. The IPA, like the CBA, was effective by its terms
until April 1, 2004. The IPA expressly states:
“Termination of this Agreement shall not have the
effect of automatically terminating the Plan.” “The
Plan” refers to the GIP. This language indicates that,

App. 239
even though the Agreement (the CBA) expires by its
terms on April 1, 2004, the GIP and the concomitant
benefits provided thereby need not also expire.
Section 5.1 on page 38 of the GIP, under Section V
entitled “Medical Expense Benefits,” provides:
A benefit shall be provided in accordance
with this Section only for an Employee,
while coverage for such benefit is in effect
with respect to such Employee. Benefits
in accordance with this Section will
be provided to such Employee,
retired Employee, and Dependents
thereof for the duration of any
Agreement to which this Plan is a
part.
(Ex. 7 to Docket No. 50)(emphasis added). Caterpillar
reads this language to say that health benefits
(including retiree health benefits) lasted only as long as
the labor contracts themselves. (Docket No. 56 at 5-6).
This type of specific durational language, urges
Caterpillar, is fundamentally inconsistent with the
plaintiffs’ claim of vesting. (Id. at 6). Conversely, the
plaintiffs read this language to require that Caterpillar
provide benefits to employees, retirees, and dependents
at least for the duration of the labor contracts. Thus,
say plaintiffs, this language does not defeat their claim
of vesting; if anything, it renders the language of the
governing document ambiguous and opens up the
court’s inquiry to extrinsic evidence.
As in Smith v. ABS Indus., Inc., 890 F.2d 841 (6th
Cir. 1989), the court finds that both the plaintiffs and

App. 240
Caterpillar “have presented plausible interpretations
of the contractual language of the retiree benefits
plan.” Id. at 846. Thus, extrinsic evidence may be
properly introduced to resolve the ambiguity. Id.; see
also Park-Ohio Industries, 876 F.2d 894 (“both parties
have offered plausible interpretations of the agreement
drawn from the contractual language itself [which]
demonstrates that the provision is ambiguous. Neither
of the two proffered interpretations is frivolous nor
unreasonable on its face, and inquiry should be
permitted into extrinsic circumstances.”). Moreover,
Caterpillar’s reading of Section 5.1 of the 1998 GIP
seemingly contradicts the IPA’s express statement that
termination of the CBA “shall not have the effect of
automatically terminating” the GIP. Yard-Man
admonishes the court, whenever possible, to construe
each provision of the contract consistently with one
another and with the entire document.
b. Language tying retiree health benefits to
pension eligibility
The relevant language of the 1998 GIP is as follows:
5.15 Retiree Medical Insurance. Retired
Employees who satisfy the requirements
hereinafter set forth shall be entitled to
the same benefits provided in this Section
V as if they were Employees, subject to
the provisions of paragraph 6.1(iv).
***
For Employees retiring on and after May
1, 1992, such benefits to the extent
provided in this paragraph 5.15 will be

App. 241
provided after his retirement from active
service if he has accrued at least 10 years
of credited service (5 years if hired after
age 60) under the Non-Contributory
Pension Plan after the earlier of age 45 or
the date he has accrued 20 years of
credited service under the NonContributory Pension Plan and at his
retirement is eligible for the immediate
commencement of a monthly pension
under the Non-Contributory Pension Plan
or would be eligible for such immediate
commencement but for his election to
defer commencement of his pension.
Coverage shall
retirement date.

take

effect

on

his

***
Dependents’ Coverage shall be in effect in
accordance with this paragraph 5.15
while Personal Coverage is in effect with
respect to all Dependents of a retired
Employee who were covered hereunder on
the day preceding his retirement, and
such Dependents’ Coverage will be
continued following the death of a retired
Employee for the remainder of his
surviving spouse’s life without cost.
(Ex. 7 to Docket No. 50). Section 6.2(c) on page 104
reiterates as to surviving spouses:
[S]uch Dependents’ Coverage for any such
surviving spouse . . . will continue in

App. 242
effect . . . for the remainder of her life
without cost.
(Id.) Significantly, this language links retiree and
surviving spouses medical benefits to pension
eligibility. The Sixth Circuit has held that this
constitutes strong evidence of vesting. For example, in
Yolton, a 2006 case, the Sixth Circuit affirmed the
district court’s finding that the plaintiffs’ benefits had
vested, explaining that
. . . the district court interpreted the
language of the agreement and found
evidence that the defendants intended to
confer lifetime benefits upon the
plaintiffs. Of particular significance to the
district court was language in the Group
Insurance Plan that tied benefits to the
pension plans . . . . Because the pension
plan is a lifetime plan and the health
insurance benefits are tied to the pension
plan, the district court found that the
health insurance benefits were vested and
intended to be lifetime benefits.
435 F.3d at 580. In Golden, similar language in each of
the CBA’s tied retiree benefits and surviving spouse
eligibility for health insurance coverage to eligibility for
vested pension benefits. 73 F.3d at 656. The Sixth
Circuit affirmed the district court’s finding that,
“[s]ince retirees are eligible to receive pension benefits
for life . . . the parties intended that the company
provide lifetime health benefits as well.” Id. Similarly,
in McCoy v. Meridian Auto. Sys., Inc., 390 F.3d 417
(6th Cir. 2004), the Sixth Circuit affirmed the district

App. 243
court’s finding that the retiree plaintiffs had
established a likelihood of success on the merits of their
claim. Id. at 426. After finding that the collective
bargaining agreement in that case incorporated a
supplemental agreement, the Court held, “Because the
Supplemental Agreement ties eligibility for retirementhealth benefits to eligibility for a pension, in other
words, there is little room for debate that the retirees’
health benefits vested upon retirement under Golden
. . . .” Id. at 422; see Cole v. ArvinMeritor, Inc., 2006 WL
2620305, *7 (E.D. Mich. 2006)(because, inter alia, the
governing contract ties retiree health benefits to
pension status, it “constitutes an enforceable
contractual promise of lifetime retiree health benefits
to accompany lifetime pension benefits.”).
Likewise, in this case, the language of paragraph
5.15 of the 1998 GIP unambiguously ties retiree health
benefits to pension eligibility. Under the controlling
law, such language constitutes strong evidence of an
intent to vest.
c. The Yard-Man inference
“Retirement benefits are typically understood as a
form of delayed compensation for present services, for
which workers forego present wages.” Terrell v. Dura
Mech. Components, Inc., 934 F. Supp. 874, 881 (N.D.
Ohio 1996)(citing Allied Chem. Workers v. Pittsburgh
Plate Glass Co., 404 U.S. 157, 180)). As one court
remarked: “It is unlikely that workers would leave a
significant portion of their remuneration to the
contingencies of future bargaining agreements,
especially since they are presumably aware that the

App. 244
union is not obliged to bargain for continued benefits
for retirees.” Id. (citing Yard-Man, 716 F.2d at 1482).
Indeed, the Sixth Circuit in Yard-Man explained
that retiree benefits are, in a sense, “status” benefits
that carry an inference that they continue as long as
the requisite status is maintained. Yard-Man, 716 F.2d
at 1483. “This contextual factor,” according to the Sixth
Circuit, can buttress “the already sufficient evidence of
such intent in the language of the agreement itself.”
Golden, 954 F. Supp. at 1184 (citing Yard-Man, 716
F.2d at 1482).
Although the Yard-Man decision has generated
controversy and its viability has been challenged, YardMan remains good law. See Yolton, 435 F.3d at 579-80
(“There is no need to revise, reconsider, or overrule
Yard-Man.”); Golden, 73 F.3d at 656 (“After considering
the arguments the defendant makes, and the cases it
cites, we conclude that Yard-Man is still good law, and
controls this case.”)
d. Extrinsic evidence
Next, having determined that the language of the
governing contracts is ambiguous, it is appropriate for
the court to consider extrinsic evidence, if any, of
Caterpillar’s alleged intent to confer lifetime health
benefits to surviving spouses. However, at this early
stage of the proceedings, there has not been significant
discovery on this matter. (Docket No. 50 at 19). The
plaintiffs represented to the court by brief filed on
November 30, 2006, that “[d]uring discovery and
review of benefit files, Plaintiffs expect to locate

App. 245
additional evidence confirming that these are vested
lifetime benefits.” (Id. at n.10).
In their memorandum filed on April 26, 2007 in
reply to Caterpillar’s response to the plaintiffs’ motion
for class certification, the plaintiffs reference
Caterpillar’s medical expense survivor’s coverage
hourly forms for Plaintiffs Kerns and Nalley, which
indicate, according to the plaintiffs, that at the time
their spouses died, Caterpillar intended that they, as
surviving spouses, would have “lifetime” coverage “at
no cost.” (Docket No. 67 at 5, Exs. 10 & 11). The
plaintiffs represent that they “expect to locate similar
forms for other class members once Defendant
produces the additional files.” (Id.) The plaintiffs
further argue that, “at this stage of the case, without
significant discovery, it would be premature” for the
court to make a substantive determination as to
whether Caterpillar intended to provide vested lifetime
benefits to the surviving spouses. (Id. at 15).
The discovery cutoff deadline for this case, as
established by the Joint Initial Case Management
Order entered on December 29, 2006, is November 30,
2007. (Docket No. 98 at 4). Dispositive motions, in
which the parties could better argue their positions
with regard to vesting and present evidence gleaned
through discovery in support of their positions, are not
due until May 16, 2008. (Id.) The court finds that it is
too soon in this case to issue a ruling as a matter of law
as to whether the plaintiffs’ benefits are vested and
when, if ever, they vested. It is clear that the plaintiffs’
claims should not be dismissed at this stage,
notwithstanding Caterpillar’s urging, considering the

App. 246
language of the GIP tying retiree health benefits to
pension eligibility, which the Sixth Circuit has found
constitutes significant evidence of an intent to vest
benefits.
D. The proposed class is limited to surviving
spouses.
Caterpillar seeks dismissal of the plaintiffs’ claims
on behalf of “future” surviving spouses, alleging that
these claims fail because such a group does not exist at
this time. Nor, urges Caterpillar, is there any
reasonable level of certainty as to who may fall within
that group. (Docket No. 43 at 16). Caterpillar points
out that no named Plaintiff falls within this purported
group. (Id.)
In response to Caterpillar’s motion to dismiss, the
plaintiffs contend that it is common for individuals to
“grow into” the class definition after the suit is filed.
(Docket No. 50 at 4). Later, in their reply to
Caterpillar’s response to the plaintiff’s motion for class
certification, the plaintiffs clarify that the proposed
class does not include persons who are not, at this time,
surviving spouses. (Docket No. 67 at 2). Stated
differently, the plaintiffs explain that “[a]ny person
who is presently the spouse of a living retiree cannot
presently be a class member.” (Id.) This clarification
resolves the concerns raised by Caterpillar in its
motion to dismiss regarding the claims of a
hypothetical group of future surviving spouses. A
person who is presently the spouse of a living retiree
might become a class member in the future, if and
when he or she should meet the class definition and
become a surviving spouse. The proposed class,

App. 247
however, only includes surviving spouses--not spouses
of living former employees.
E. The named plaintiffs’ claims are not moot.
Caterpillar contends that the plaintiffs’ surviving
spouse claims must be dismissed because the plaintiffs
did not suffer any Article III injury-in-fact and their
claims are moot. According to Caterpillar, although the
company notified surviving spouses of 1998-2004
retirees who died while the 1998 labor contracts were
in effect of their obligation to contribute premium
payments, Caterpillar later notified those surviving
spouses by letter that it was waiving their premiums
and, to date, none have been charged any premiums.
Caterpillar also contends that the named plaintiffs
have not suffered any injury in fact because Caterpillar
only threatened to modify benefits and never actually
modified benefits.
On the other hand, the plaintiffs allege that, as to
the monthly premium sharing copayments, Caterpillar
charged Plaintiff Stewart $87 per month from January
until June 2006. Even though Caterpillar later
refunded the money and stated (after this lawsuit was
filed) that it had “elected to waive” the class member’s
healthcare premiums, the plaintiffs contend that
Caterpillar could impose monthly health care premium
sharing co-payments on the class at any time, should it
change its mind. The plaintiffs also allege that,
effective January 2006, Caterpillar changed the health
care benefits by requiring higher prescription drug copayments, new deductibles, new out-of-pocket
maximums, and related charges, and that Caterpillar
threatens to make further increases in 2008 and 2010.

App. 248
The plaintiffs seek the restoration of the benefits they
enjoyed prior to the January 1, 2006 changes.
“Under Article III of the Constitution, [a federal
court’s] jurisdiction extends only to actual cases and
controversies. [A federal court] has no power to
adjudicate disputes which are moot.” McPherson v.
Mich. High. Sch. Athletic Ass’n, Inc., 119 F.3d 453, 458
(6th Cir. 1997) (internal quotation omitted). In general,
“a defendant’s voluntary cessation of a challenged
practice does not deprive a federal court of its power to
determine the legality of the practice. If it did, the
courts would be compelled to leave the defendant free
to return to his old ways.” Friends of the Earth v.
Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 189
(2000) (internal quotation omitted). A defendant’s
voluntary conduct may moot a case only if “subsequent
events make it absolutely clear that the allegedly
wrongful behavior could not reasonably be expected to
recur,” id., and if “interim relief or events have
completely and irrevocably eradicated the effects of the
alleged violation.” Ammex, Inc. v. Cox, 351 F.3d 697,
705 (6th Cir. 2003) (citing County of Los Angeles v.
Davis, 440 U.S. 625, 631(1979)). The “heavy burden” of
demonstrating that the challenged conduct will not
resume rests on the party claiming mootness. Friends
of the Earth, 528 U.S. at 189; Ammex, Inc., 351 F.3d at
705.
On this record, viewed in the light most favorable to
the plaintiffs, the court cannot find that Caterpillar has
met this burden. Although Caterpillar represented to
the plaintiffs in its April 17, 2006 letter that it “will
not” impose premiums on the plaintiffs, Caterpillar

App. 249
consistently has maintained the position in this lawsuit
that the plaintiffs’ benefits are not vested and that
Caterpillar has a legal right to modify or terminate
benefits at any time. Thus, Caterpillar’s voluntary
decision to waive the premiums for now in light of its
position that the benefits are not vested and are subject
to change does not “make it absolutely clear that the
allegedly wrongful behavior could not reasonably be
expected to recur.”
Moreover, Section 502(a)(1)(B) of ERISA specifically
allows plan participants to bring an action for a
declaratory judgment to clarify their rights to future
benefits under an ERISA plan.
If a plan participant or beneficiary
believes that benefits promised to him
under the terms of the plan are not
provided, he can bring a suit seeking
provision of those benefits. A participant
or beneficiary can also bring suit
generically to “enforce his rights” under
the plan, or to clarify any of his rights to
future benefits. Any dispute over the
precise terms of the plan is resolved by a
court under the de novo review standard.
Aetna Health Inc. v. Davila, 542 U.S. 200, 210 (2004).
Here, the plaintiffs are participants in a negotiated
ERISA benefit plan. They brought this lawsuit in part
to clarify their rights to future benefits under the plan
and to challenge the benefit modifications Caterpillar
already has made, such as higher prescription drug copayments, new deductibles, new out-of-pocket
maximums, and related charges. The plaintiffs are

App. 250
entitled to have those issues resolved now, and they
should not have to wait until Caterpillar changes its
mind and later elects to require them to pay healthcare
premiums or implements the additional changes to
their benefits. See Aetna Health Inc. v. Davila, 542 U.S.
200, 210 (2004); Pilot Life Ins. Co. v. Dedeaux, 481 U.S.
51, 53 (1987)(“Under the civil enforcement provisions
of § 502(a), a plan participant or beneficiary may sue to
recover benefits due under the plan, to enforce the
participant’s rights under the plan, or to clarify rights
to future benefits. Relief may take the form of accrued
benefits due, a declaratory judgment on entitlement to
benefits, or an injunction against a plan
administrator’s improper refusal to pay benefits.”).
The court finds that Caterpillar’s actions have
raised a definite and concrete controversy regarding
the plaintiffs’ rights to benefits under the plan and,
therefore, the plaintiffs may bring this action to clarify
their rights to future benefits under the plan. The
plaintiffs’ claims are not moot.
V. Conclusion
For the reasons explained herein, the defendant’s
motion to dismiss (Docket No. 42) will be denied.
An appropriate order will enter.
/s/Aleta A. Trauger_
ALETA A. TRAUGER
United States District Judge

App. 251
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-cv-01113
District Judge Trauger
Magistrate Judge Brown
Class Action
[Filed June 27, 2007]
_____________________________
JUDITH K. KERNS, MARCIA )
NALLEY, and SANDRA L.
)
STEWART, on behalf of
)
themselves and a similarly
)
situated class,
)
)
Plaintiffs,
)
)
v.
)
)
CATERPILLAR, INC.,
)
)
Defendant.
)
_____________________________ )
ORDER
For the reasons expressed in the accompanying
Memorandum, the defendant’s motion to dismiss
(Docket No. 42) is DENIED.
It is so ordered.
Entered this ___ day of ______, 2007.

App. 252
/s/Aleta A. Trauger
ALETA A. TRAUGER
United States District Judge

App. 253

APPENDIX M
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:06-CV-1113
Hon. Aleta A. Trauger
[Filed December 6, 2017]
_____________________________
JUDITH K. KERNS, et al.,
)
)
Class Plaintiffs,
)
)
v.
)
)
CATERPILLAR INC.,
)
)
Defendant/
)
Third-Party Plaintiff,
)
)
v.
)
)
INTERNATIONAL UNION,
)
UAW, et al.
)
)
Third-Party Defendants. )
_____________________________ )

App. 254
JOINT STIPULATION OF CALCULATIONS
FOR PRINCIPAL DAMAGES AND
PREJUDGMENT INTEREST
Kerns Class Plaintiffs and Defendant Caterpillar
Inc. submit the following Joint Stipulation of
Calculations of Principal Damages and Prejudgment
Interest pursuant to Section 6 of R.517 (approved in
R.518; see also R.519-522, 524) as follows:
1. On August 28, 2017, Plaintiffs filed a motion for
prejudgment interest (R.510). While Caterpillar
preserves its position that no damages are due to any
class members, if damages are to be paid, Caterpillar
agreed that an award of prejudgment interest is
appropriate (R.517).
2. On September 27, 2017, the parties filed a Joint
Stipulated Report with its Ex. A (R.517). An order
approving the Joint Stipulated Report and its Ex. A
was entered September 29, 2017 (R.518). Section 6 on
page 3 of the September 27, 2017 Joint Stipulated
Report stated:
The parties propose that within 35 days after
approval of this report by the Court, they file a
stipulated list showing the principal amount,
prejudgment interest amount, and total for each
class member who is listed on Ex. A. If the
parties should encounter any disputes they
cannot resolve regarding the prejudgment
interest calculations, on or by the above 35 day
due date for the report, they will each file a
statement of their position. If the parties agree
upon all the calculations, the Court shall enter

App. 255
an order awarding prejudgment interest and
approving the list with the calculations. The
Court will also proceed to enter a judgment,
including post-judgment interest and a
permanent injunction.
3. For the interest rate for the prejudgment
interest calculations, the parties agreed to use the
average of the 1-year (52 week) constant maturity
(nominal) U.S. Treasury yield rates, as published daily
by the Federal Reserve System, from April 13, 2006
until the date of judgment (or some agreed upon end
date between now and before judgment is issued so
that it may be calculated in advance of judgment). On
October 26, 2017, class counsel sent Caterpillar counsel
documents, supporting materials and calculations for
an updated average interest rate of 1.14789% for the
time period April 13, 2006 through October 25, 2017
(updated from the prior calculated average rate of
1.14536% for the time period April 13, 2006 through
August 24, 2017 (R.511, 517)).
4. On October 27, 2017, class counsel provided
Caterpillar counsel with documents, formulas,
assumptions and detailed calculations (including an
Excel spreadsheet) detailing the principal amount,
prejudgment interest amount, and total for each class
member listed on Ex. A (R.517) using the updated
average interest rate of 1.14789% (as of October 25,
2017).
5. On October 30, 2017, the parties filed joint
motion to extend the 35-day due date under Section 6
of R.517 from November 3, 2017 to November 17, 2017
(R.519-520). On October 31, 2017, the Court granted

App. 256
that extension (R.521). In the meantime, the parties
had further discussions regarding the calculations.
6. On November 17, 2017, the parties filed joint
motion to further extend the due date from November
17, 2017 to November 29, 2017 (R.522-523). On
November 20, 2017, the Court granted that extension
(R.524).
7. The parties have since held further
communications and conference calls, including with
the CPA who authored the formulas, and have
exchanged various drafts. The parties have calculated
the average interest rate and prejudgment interest
amounts through December 4, 2017 (the latest date for
which data is available given the December 6, 2017
filing due date).
8. The parties have updated the calculations for the
average interest rate for the time period April 13, 2006
through December 4, 2017, which is now 1.15157%.
9. While Caterpillar and Plaintiffs each preserve
their positions as to this Court’s prior rulings, the
parties stipulate and agree that the principal amount,
prejudgment interest amount, and total for each class
member who was listed on Ex. A (R.517) is accurately
reflected on the stipulated list now provided on Ex. 1,
which includes interest calculated through December
4, 2017. The total principal is $763,504.93; the total
amount of prejudgment interest as of December 4, 2017
is $82,442.22; the grand total of principal damages plus
prejudgment interest as of December 4, 2017 is
$845,947.15.

App. 257
WHEREFORE, the parties respectfully submit this
joint stipulation providing the amounts listed on Ex. 1
as the principal damages amount, the prejudgment
interest amount as of December 4, 2017, and total for
each class member listed on Ex. A of the parties’
September 27, 2017 Joint Stipulated Report (R.517).
Dated: December 6, 2017
Respectfully submitted,
JUDITH K. KERNS, et al.
By: /s/ Lisa M. Smith
Samuel C. McKnight (pro hac vice)
Lisa M. Smith (pro hac vice)
Jack W. Stride (pro hac vice)
McKNIGHT, CANZANO, SMITH,
RADTKE & BRAULT, P.C.
423 N. Main Street, Suite 200
Royal Oak, MI 48073
(248) 354-9650
smcknight@michworkerlaw.com
lsmith@michworkerlaw.com
jstride@michworkerlaw.com
Samuel Morris (12506)
Deborah Godwin (9972)
GODWIN MORRIS LAURENZI
& BLOOMFIELD, P.C.
Morgan Keegan Tower
50 N. Front Street, Suite 800
P.O. Box 3290
Memphis, TN 38173-0290
(901) 528-1702

App. 258
smorris@gmlblaw.com
dgodwin@gmlblaw.com
CATERPILLAR, INC.
By: /s/ Joseph J. Torres
Joseph J. Torres (pro hac vice)
Derek Grady Barella (pro hac vice)
Heather S. Lehman (pro hac vice)
WINSTON & STRAWN, LLP
35 W. Wacker Drive
Chicago, IL 60601
(312) 558-5600
jtorres@winston.com
cgangemi@winston.com
dbarella@winston.com
hlehman@winston.com
Lawrence S. Eastwood, Jr.
BAKER, DONELSON, BEARMAN,
CALDWELL & BERKOWITZ - Nashville
211 Commerce Street, Suite 1000
Nashville, TN 37201
leastwood@bakerdonelson.com

App. 259
CERTIFICATE OF SERVICE
The undersigned hereby certifies that on December
6, 2017, a true and exact copy of the foregoing pleading
was filed electronically in the U.S. District Court for
the Middle District of Tennessee using the ECF
system. Notice of this filing was sent by operation of
the Court’s electronic filing system to the following
parties indicated on the electronic filing receipt:
Counsel for Defendant Caterpillar, Inc.
Joseph J. Torres
jtorres@winston.com
ECF_CH@winston.com
sdeal@winston.com
Derek Grady Barella
dbarella@winston.com
Heather Lehman Kriz
hkriz@winston.com
Lawrence Slade Eastwood, Jr.
leastwood@bakerdonelson.com
apatton@bakerdonelson.com
lmoravek@bakerdonelson.com
Counsel for UAW
Matthew Clash-Drexler
mcdrexler@bredhoff.com
Counsel for Kerns Class Plaintiffs
Samuel C. McKnight
smcknight@michworkerlaw.com
office@michworkerlaw.com

App. 260
Lisa M. Smith
lsmith@michworkerlaw.com
Jack W. Stride
jstride@michworkerlaw.com
Samuel Morris
smorris@gmlblaw.com
rmeredith@gmlblaw.com
Deborah Godwin
dgodwin@gmlblaw.com
bmckinney@gmlblaw.com
mcollins@gmlblaw.com
tnorman@gmlblaw.com;
and a copy was sent by first class mail, with postage
fully affixed thereon, and depositing same in a U.S.
mail receptacle on the same day, to:
Class Member Phyllis Blair
300 N. Third Street
Wyoming, IL 61491
Respectfully submitted,
By: /s/ Lisa M. Smith
SAMUEL C. McKNIGHT (P23096) (pro hac vice)
LISA M. SMITH (P46150) (pro hac vice)
JACK W. STRIDE (P80937) (pro hac vice)
McKNIGHT, CANZANO, SMITH, RADTKE &
BRAULT, P.C.
Attorneys for Class Plaintiffs
423 N. Main Street, Suite 200, Royal Oak, MI 48067
(248) 354-9650
smcknight@michworkerlaw.com
lsmith@michworkerlaw.com

App. 261
jstride@michworkerlaw.com
- andSAMUEL MORRIS (12506)
DEBORAH GODWIN (9972)
GODWIN MORRIS LAURENZI &
BLOOMFIELD, P.C.
Local Counsel for Class Plaintiffs
Morgan Keegan Tower, 50 N. Front Street
Suite 800, P.O. Box 3290, Memphis, TN 38173-0290
(901) 528-1702
smorris@gmlblaw.com
dgodwin@gmlbaw.com
Dated: December 6, 2017
P:\RHC Cases\Caterpillar\KernsMDTN06-01
113\Pleadings\FRevJt StipulationCaclsfor
Prejudgment Interestagreed.docx

App. 262
Exhibit 1
Kerns v. Caterpillar
Principal and Prejudgment Interest Damages
Totals for 554
[Fold-Out Exhibit, see next 10 pages]

Case 3:06-cv-01113 Document 529 Filed 12/06/17 Page 1 of 10 PageID #: 12743

Case 3:06-cv-01113 Document 529 Filed 12/06/17 Page 2 of 10 PageID #: 12744

Case 3:06-cv-01113 Document 529 Filed 12/06/17 Page 3 of 10 PageID #: 12745

Case 3:06-cv-01113 Document 529 Filed 12/06/17 Page 4 of 10 PageID #: 12746

Case 3:06-cv-01113 Document 529 Filed 12/06/17 Page 5 of 10 PageID #: 12747

Case 3:06-cv-01113 Document 529 Filed 12/06/17 Page 6 of 10 PageID #: 12748

Case 3:06-cv-01113 Document 529 Filed 12/06/17 Page 7 of 10 PageID #: 12749

Case 3:06-cv-01113 Document 529 Filed 12/06/17 Page 8 of 10 PageID #: 12750

Case 3:06-cv-01113 Document 529 Filed 12/06/17 Page 9 of 10 PageID #: 12751

Case 3:06-cv-01113 Document 529 Filed 12/06/17 Page 10 of 10 PageID #: 12752

